                          2010


Fiscal Year 2010
United States Army
Annual Financial Report

America’s
Army: Our
Families Give
Us Strength




                          U.S. Army Corps of Engineers - Civil Works
                                         America’s Army: Our Families Give Us Strength
                                         Army Family Covenant
                                         We recognize…
                                         …The commitment and increasing sacrifices that our Families are making every
                                          day.
                                         …The strength of our Soldiers comes from the strength of their Families.

                                         We are committed to…
                                         …Providing Soldiers and Families a quality of life that is commensurate with their
                                          service.
                                         …Providing our Families a strong, supportive environment where they can thrive.
                                         …Building a partnership with Army Families that enhances their strength and
                                          resilience.

                                         We are committed to improving family readiness by:
                                         n Standardizing and funding existing Family programs and services
                                         n Increasing accessibility and quality of health care
                                         n Improving Soldier and Family housing
                                         n Ensuring excellence in schools, youth services, and child care
                                         n Expanding education and employment opportunities for Family members




                                         ON THE COVER: [main] A daughter clings to her father during a welcome home ceremony. [inset right] A Soldier
                                         helps his son explore driver’s seat options, including starting the vehicles, honking the horn, flipping switches and
                                         turning on blinkers and fans. [inset left] A family cries while watching the 86th Infantry Brigade Combat Team leave
                                         after their departure ceremony in Burlington, VT. DoD photo by Chad J. McNeeley
                                         ON THE INSIDE: A Soldier playfully tosses his son, Hunter Johnson, up into the air following the brigade’s deployment
                                         ceremony.
b	 Fiscal Year 2010 United States Army*Unless
                                       Annualotherwise noted,
                                               Civil Works    all photosReport
                                                           Financial     on the cover and inside pages are courtesy of the U.S. Army. (www.army.mil)
                                                                                i




                                                                   U.S. Army Corps of Engineers - Civil Works Fund
                                           Bonneville Lake




FY 2010 Contents
Message from the Assistant Secretary of the Army
(Civil Works)	                                               iii


Message from the USACE Chief Financial Officer	              v


Management’s Discussion & Analysis	                          1


Civil Works Fund – Principal Financial Statements,
Notes, Supplementary Information, and Auditor’s Report	      31
         “Military success in this war is tied to the capabilities of
          our leaders and Soldiers, and we will not fail to prepare
                                                 them for success.”
                                               — General George Casey, Chief of Staff of the Army




ii	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
The Army Corps of Engineers has a great history of serving the                  iii
nation in peace and war, both at home and abroad. Since its early




                                                                          U.S. Army Corps of Engineers - Civil Works Fund
days supporting the troops in the Revolutionary War, through its
response and assistance with this year’s Midwest floods, the Corps
has played a critical role in the safety, security, and economy of
our country. Today the Corps is one of the world’s largest public
engineering, design, and construction management agencies. It has
evolved over time in response to changing societal requirements and
will continue to adapt to the future needs of the nation.

The Civil Works mission of the Army is to provide responsible
development, protection and restoration of the Nation’s water and
related land resources. As illustrated in this report, Civil Works
projects are constructed and operated for commercial navigation,
flood risk management, environmental restoration, hydroelectric
power, recreation, and municipal and industrial water supply
storage. In addition to these direct federal investments, the Civil
Works Program includes an important regulatory function whereby
the Corps regulates construction in navigable waters and the
deposition of dredged and fill material in waters of the United States,
including wetlands. The Civil Works Program also includes disaster
preparedness, response and recovery activities.

The total value of the Civil Works infrastructure is approximately
$165 billion. The average age of Corps dams is more than 58 years.
Faced with an austere fiscal environment, the job of maintaining and
refurbishing the nation’s vast and aging water infrastructure requires
all of the ingenuity that the Corps has demonstrated throughout its
history. Balancing the competing water resources needs throughout
the country will take a national vision. Preserving and creating
wetlands, affording recreational opportunities, and maintaining a
world class navigation system that this country enjoys is integral to
that vision.

The performance of the Civil Works program discussed in this report
supports the economic, energy sustainability, and environmental
goals of the Administration. We are dedicated to continuing a
national water resources program that serves the best interest of our
citizens and helps to ensure a safe and productive water resources
infrastructure well into the future.


	

	                                 Jo-Ellen Darcy
	                                 Assistant Secretary of the Army
	                                 (Civil Works)
                “We’re ultimately working toward an agile, globally
         responsive Army that’s enhanced by modern networks,
          surveillance sensors, precision weapons and platforms
                that are lighter, less logistics-dependent and less
               manpower-intensive. It’s a truly 21st century force.”
                                                – General George Casey, Chief of Staff of the Army




iv	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
I am proud to report that the Fiscal Year 2010 United States Army                v
Corps of Engineers (USACE) Civil Works Financial Statements




                                                                         U.S. Army Corps of Engineers - Civil Works Fund
received a third consecutive “clean” audit opinion.

This report summarizes our performance in delivering the Civil
Works mission of USACE and fairly presents its financial position.
This year the USACE continued its journey to greatness through
commitment to continuous improvement in its internal controls and
surrounding processes. Through corrective action plans and robust
testing, the program’s effectiveness has grown vastly.

Fiscal Year 2010 was another historic year regarding workload with
approximately $15.8 billion obligated. USACE once again was
a major player in the American Reinvestment and Recovery Act
with a total of $4.6 billion in direct appropriations and another
$275 million in reimbursable work. The decisions our managers
make as they allocate funds to the Civil Works programs become
increasingly reliant on our financial system to provide assurance that
system controls are designed and implemented effectively.

I am proud of everyone within USACE who continues to strive
toward greatness in the area of financial management. Our
commitment to provide transparency and accountability in budget
and financial management remains our top priority.




	

	                                 Wesley C. Miller
	                                 USACE Chief Financial Officer
        With low water levels at Eastman
        Lake pelicans perch and wait
        patiently to feed on fish.




vi	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
                                                                    vii




                                                                   U.S. Army Corps of Engineers - Civil Works Fund
“We have magnificent Soldiers, leaders and civilians.
They are ordinary people who are doing extraordinary
               things for our country.”
                General George Casey, Chief of Staff of the Army
viii	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
                                                                                                                                          1




                                                                                                                                  U.S. Army Corps of Engineers - Civil Works Fund
                                                                                         The sun sets in this aerial view
                                                                                         of the Mackinac Bridge, the third
                                                                                         longest suspension bridge in the
                                                                                         world, which connects Michigan’s
                                                                                         upper and lower peninsulas.




Overview                                                          of hydroelectric power, creation of recreation opportunities,
                                                                  provision of water storage for municipal and industrial water
The United States Army Corps of Engineers (USACE) is
                                                                  supplies, regulation of discharges into navigable waters, and
comprised of two major programs: the Civil Works Program
                                                                  emergency planning and management.
and Military Program. These financial statements represent
the Civil Works Program only, as the Military Program
is reported within the Army General Fund Financial                Protecting, Restoring and Managing the
Statements.                                                       Environment
                                                                  The Rivers and Harbors Act of 1890 required the Corps
Mission                                                           to prevent the obstruction of navigable waterways. As
                                                                  environmental concerns grew in the late 20th century, the
The civil works mission of the USACE is to (1) contribute
                                                                  National Environmental Policy Act of 1969 and the Clean
to the national welfare and serve the nation with quality,
                                                                  Water Act of 1972 greatly broadened the scope of the
responsive development, and management of the nation’s
                                                                  Corps’ responsibility for regulating discharges into United
water resources; (2) protect, restore, and manage the
                                                                  States (U.S.) waters, including the country’s wetlands. The
environment; (3) respond to disasters and aid in recovery;
                                                                  civil works program’s environmental responsibilities have
and (4) provide engineering and technical services. This
                                                                  continued to increase through legislation and now include
multi-faceted mission is accomplished in an environmentally
                                                                  aquatic ecosystem restoration, remedial activities at former
sustainable, economically and technically sound manner
                                                                  defense sites, and overall stewardship responsibilities.
through partnerships with other government agencies and
nongovernment organizations.
                                                                  Responding and Assisting in Disaster Relief
Developing and Managing Water Resources                           Throughout the Corps’ history, the United States has relied
                                                                  on the civil works program for help both in times of natural
The original role of the USACE in civil works, as it related
                                                                  and man-made disasters. The Corps responds to natural
to developing and managing water resources, was to
                                                                  disasters under the Flood Control and Coastal Emergency
support navigation by maintaining and improving federal
                                                                  Act (Public Law (P.L.) 84-99, as amended) and to man-
navigation channels. Over the years, and through subsequent
                                                                  made disasters under the Robert T. Stafford Disaster Relief
legislation, the Corps’ role has expanded to include flood risk
                                                                  and Emergency Assistance Act (P.L. 93-288, as amended).
management, improvement of aquatic habitat, generation
   The civil works program’s primary role in emergency relief          for executive direction and management for fiscal year
   and recovery operations is to provide public works and              (FY) 2010.
   engineering support.
                                                                       Through the American Recovery and Reinvestment Act of
                                                                       2009 (ARRA), the Corps received $4.6 billion for its civil
   Providing Engineering Support and                                   works program. All of the Corps’ business lines, except
   Technical Services                                                  emergency management, received ARRA funding for various
                                                                       programs, projects, and activities. Specific information on
   In Titles 10 and 33 of the U.S. Code, Congress expresses its
                                                                       ARRA funding may be found at the Corps’ Recovery Web
   intent for the Corps to provide services on a reimbursable
                                                                       site at http://usace.army.mil/recovery.
   basis to other federal entities; state, local, and tribal
   governments; private firms; and international organizations.
   Additional authority to provide services to all federal             Navigation
   agencies is found in Titles 15, 22, and 31, which includes
   providing services to foreign governments.                          Navigation is responsible for ensuring safe, reliable,
                                                                       efficient, and environmentally sustainable waterborne
                                                                       transportation systems for the movement of commercial
   The Civil Works Program                                             goods, as well as for national security needs. The business
   The Corps operates multiple business lines to accomplish            line meets this responsibility through a combination of
   its mission. Each business line specifically addresses a single     capital improvements and the operation and maintenance
   mission component, but may also contribute to one or                of existing infrastructure projects. The navigation business
   more other business line missions. Figure 1 lists the business      line is vital to the nation’s economic prosperity: 95 percent
   lines that receive direct appropriations and the funds used         of America’s overseas international trade moves through its
                                                                       ports. Our nation’s Marine Transportation System (MTS)




   Figure 1. FY 2010 Civil Works Initial Appropriation by Business Line
   (Amounts in millions)
                             $5

                                                                                   Navigation
                                   $190
                                                                                   Flood Risk Management
                           $28




   $13                                                                             Environment-Ecosystem Restoration
                    $2
                               4




                      11                                                           Environment-Stewardship
            $19                                                                    Environment-FUSRAP
                0                                                                  Regulatory
       $134                                            $1,746                      Emergency Management
      $99                                                                          Hydropower
                                                                                   Recreation
                                                                                   Water Storage for Water Supply
                                                                                   Executive Direction and Management
             8
         $56                                                                     NOTE: An additional $140 million (2.6 percent of the total
                                                                                       appropriation) was received for environmental
                                                                                       infrastructure projects, which are neither budgeted nor
                                                                                       associated with any business line. This brings the total
                                                                                       initial appropriation to $5,445 million.




                                    $1,865




2	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
                                                                                                                                      3




                                                                                                                               U.S. Army Corps of Engineers - Civil Works Fund
                                                                                      Two Corps employees lean over
                                                                                      a snow-covered levee. They are
                                                                                      measuring a boil in the levee.




encompasses a network of Corps-maintained navigable            for the complexity and dynamics of flood problems—the
channels, waterways, and infrastructure as well as publicly-   interaction of natural forces and human development—as
and privately-owned vessels, marine terminals, intermodal      well as for the federal, state, local, and individual
connections, shipyards, and repair facilities. The MTS         partnerships needed to thoroughly manage the risks caused
consists of approximately 12,000 miles of inland and           by coastal storms and heavy rains.
intracoastal waterways; approximately 13,000 miles of
coastal, Great Lakes, and inland harbors; channel projects;    Risk management is the process of identifying, evaluating,
and 241 locks at 196 sites that are maintained by the Corps.   selecting, implementing, and monitoring actions to
                                                               mitigate levels of risk. Its goal is to ensure scientifically
In FY 2010, navigation, estimated at $1.7 billion, accounted   sound, cost-effective, integrated actions that reduce risks
for 32 percent of civil works initial appropriations.          while taking into account social, cultural, environmental,
                                                               ethical, political, and legal considerations. The Corps’
                                                               approach to flood risk management relies on productive
Flood Risk Management                                          collaborations with partners and stakeholders; i.e., the
                                                               Federal Emergency Management Agency, the Department
The Flood Risk Management business line reduces the risk
                                                               of Housing and Urban Development, the National Oceanic
to human safety and property damage in the event of floods
                                                               and Atmospheric Administration, affected state agencies,
and coastal storms. The civil works program has constructed
                                                               sponsors and citizens. Effectively and efficiently, these
8,500 miles of levees and dikes, 383 reservoirs, and more
                                                               collaborations heighten the nation’s awareness of flood risks
than 90 storm damage reduction projects along 240 miles of
                                                               and consequences.
the nation’s 2,700 miles of shoreline. Upon completion, with
the exception of reservoirs, most infrastructure built under
                                                               The Flood Risk Management business line has compiled
the auspices of flood risk management is transferred to the
                                                               an impressive record of performance, yielding a six-to-one
sponsoring cities, towns, and special use districts that own
                                                               return on investment; that is, the business line saves six
and operate the projects.
                                                               dollars for each dollar spent. It has also helped reduce the
                                                               risk to human safety by providing timely flood warnings that
Over the years, the Corps’ mission of addressing the
                                                               afford sufficient time for evacuation.
causes and impacts of flooding has evolved from flood
control and prevention to more comprehensive flood risk
management. These changes reflect a greater appreciation
   In FY 2010, the estimated $1.9 billion Flood Risk                   encompasses compliance measures to ensure Corps’ projects
   Management business line accounted for slightly more than           (1) meet federal, state and local environmental requirements;
   34 percent of civil works appropriations.                           (2) sustain environmental quality; and (3) conserve
                                                                       natural and cultural resources. In FY 2010, Environmental
                                                                       Stewardship received $99 million, an amount comprising
   Environment                                                         1.8 percent of the total initial appropriation.
   The Corps has three distinct business lines that are focused
                                                                       FUSRAP. Under the FUSRAP, the Corps cleans up former
   on the environment: aquatic ecosystem restoration;
                                                                       Manhattan Project and Atomic Energy Commission
   stewardship of Corps’ lands; and the Formerly Utilized Sites
                                                                       sites, making use of expertise gained in cleansing former
   Remedial Action Program (FUSRAP).
                                                                       military sites and civilian hazardous waste sites under the
                                                                       Environmental Protection Agency’s Superfund Program.
   Aquatic Ecosystem Restoration. The Army’s mission in aquatic
                                                                       In FY 2010, the FUSRAP received approximately
   ecosystem restoration is to help restore aquatic habitat to
                                                                       $134.0 million, or approximately 2.5 percent of the total
   a more natural condition in ecosystems whose structures,
                                                                       initial appropriation.
   functions, and dynamic processes have become degraded.
   The emphasis is on restoration of nationally or regionally
   significant habitats where the solution primarily involves          Regulation of Aquatic Resources
   modifying the hydrology and geomorphology. In FY 2010,
   Aquatic Ecosystem Restoration received approximately                In accordance with the Rivers and Harbors Act of 1890
   $568.0 million, which translates to just over 10 percent of         (Sec. 10) and the Clean Water Act of 1972 (Sec. 404), as
   the total initial appropriation.                                    amended, the Corps’ regulatory program regulates work
                                                                       in, over, and under navigable rivers and the discharge
   Environmental Stewardship. Environmental Stewardship                of dredged and fill material into U.S. waters, including
   focuses on managing, conserving, and preserving natural             wetlands. The Corps implements many of its oversight
   resources on 11.5 million acres of land and water at                responsibilities by means of a permit process. Throughout
   456 multipurpose Corps’ projects. Corps’ personnel monitor          the permit evaluation process, the Corps complies with the
   water quality at Corps’ dams and operate fish hatcheries in         National Environmental Policy Act and other applicable
   cooperation with state wildlife agencies. This business line        environmental and historic preservation laws. In addition to




           A white egret enjoys a dance on
           a branch at Eastman Lake near
           Madera, California.




4	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
                                                                                                                                           5




                                                                                                                                    U.S. Army Corps of Engineers - Civil Works Fund
                                                                                          An innovative flood fighting
                                                                                          technique, called an inflatable
                                                                                          dam, being tested by the City of
                                                                                          Fargo, N.D. The U.S. Army Corps
                                                                                          of Engineers has been assisting
                                                                                          the communities of the Red
                                                                                          River of the North river valley in
                                                                                          fighting the 2010 spring floods.




federal statutes, the Corps also considers the views of other     The Corps not only contributes to domestic emergency
federal, tribal, state and local governments, agencies, and       management efforts, but also plays a major role on the
interest groups, as well as the general public when rendering     international stage through its participation in civil-military
its final permit decisions. Regulatory responsibilities include   emergency preparedness. In support of the Department
evaluating minor activities such as driveways for small           of Defense, the Corps shares emergency management
landowners, as well as large water supply and energy project      knowledge and expertise with U.S. allies and partners in the
proposals which affect approximately $220.0 billion of the        former Soviet Republics and Eastern Europe. This valuable
nation’s economy.                                                 program brings together key leaders and builds relationships
                                                                  among nations in direct support of the National Defense
In FY 2010, the Regulatory appropriation, at approximately        Strategy.
$190 million, accounted for 3.5 percent of total civil works
appropriations.                                                   In FY 2010, Emergency Management received
                                                                  approximately $20.0 million in supplemental appropriations
                                                                  for repairs to eligible damaged projects. No funding was
Emergency Management                                              received in the regular civil works appropriation.
Throughout the Corps’ history, the United States has
relied on the civil works program for help in times of            Hydropower
national disaster. Emergency management continues to
be an important part of the civil works program, which            The Corps’ multipurpose authorities provide hydroelectric
directly supports the Department of Homeland Security             power as an additional benefit of projects built for navigation
in carrying out the National Response Framework. It does          and flood control. The Corps is the largest owner-operator of
this by providing emergency support in public works and           hydroelectric power plants in the United States, and one of
engineering and by conducting emergency response and              the largest in the world. The Corps operates 350 generating
recovery activities under authority of P.L. 84-99. In a typical   units at 75 multipurpose reservoirs, mostly in the Pacific
year, the Corps responds to more than 30 presidential             Northwest; they account for about 24 percent of America’s
disaster declarations, and its highly-trained workforce is        hydroelectric power and approximately 3 percent of the
prepared to deal with both man-made and natural disasters.        country’s total electric-generating capacity. Its hydroelectric
                                                                  plants produce nearly 70 billion kilowatt-hours each year—
                                                                  sufficient to serve nearly 7 million households or roughly
   11 cities the size of Seattle, Washington. Hydropower is a          In FY 2010, Recreation accounted for approximately
   renewable source of energy, producing none of the airborne          $284.0 million or just over 5 percent of the civil
   emissions that contribute to acid rain or the greenhouse            works budget.
   effect.

   In FY 2010, Hydropower accounted for approximately                  Water Storage for Water Supply
   $211.0 million, just under 4 percent of civil works                 Conscientious management of the nation’s water supply is
   appropriations.                                                     critical to limiting water shortages and lessening the impact
                                                                       of droughts. The Corps has an important role in ensuring
   Recreation                                                          that homes, businesses, and industries nationwide have
                                                                       enough water to meet their needs. It retains authority for
   The Corps is an important provider of outdoor recreation,           water supply in connection with construction; operation and
   which is an ancillary benefit of its flood prevention and           modification of federal navigation; flood damage reduction;
   navigation projects. The Corps’ Recreation business line            and multipurpose projects.
   provides quality outdoor public recreation experiences
   in accordance with its three-part mission to (1) serve the          In FY 2010, this approximately $5.0 million business line
   needs of present and future generations; (2) contribute to          accounted for less than one tenth of 1 percent of civil works
   the quality of American life; and (3) manage and conserve           appropriations.
   natural resources consistent with ecosystem management
   principles.
                                                                       Organizational Structure
   The Corps administers 4,488 recreation sites at 423 projects
   on 12 million acres of land. During fiscal year 2010,               The Workforce
   10 percent of the U.S. population visited a Corps’ project
                                                                       The Corps employs approximately 37,000 people, including
   at least once. These visitors spent $18 billion pursuing
                                                                       650 military officers and 25,000 civilians who perform
   their favorite outdoor recreation activities, which, in turn,
                                                                       civil works duties. It is funded through the energy and
   supported some 350,000 full- and part-time jobs.
                                                                       water development appropriation and executes its missions




           Fly Fisherman in the Little Red
           River on the tailwaters of Greers
           Ferry Lake Dam




6	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
                                                                                                                                                                7




                                                                                                                                                         U.S. Army Corps of Engineers - Civil Works Fund
                                                                                                                Conemaugh River Lake




Figure 2. Civil Works Boundaries

                                                                                                                                        North Atlantic
                                                                                                                                          Division
                                                                                                 Great Lakes
                         Seattle                                                                 & Ohio River
                                                                                                   Division
   Alaska
                           Walla                                              St.                                Buffalo                    Concord
              Portland
                           Walla
                                              Northwestern                    Paul
                                                Division
                                                                                                   Detroit
                                                                                     Rock                        Pittsburgh   New York
                                                                                     Island                                  Philadelphia
                                                                  Omaha                              Chicago
                  Sacramento                                                                           Cincinnati        Baltimore
                                                                                                                       Winchester
               San                                               Kansas City              St. Louis
               Francisco                                                                                                   Norfolk
                                                                                                   Louisville Huntington             Transatlantic
                                   South Pacific                                                    Nashville
                                                                                                                                   and Middle East
                                     Division                                    Little
                                                                                                                                       Division
                         Los                                           Tulsa     Rock                                             Wilmington
                                                                                                   Memphis
                         Angeles                                  Southwestern
                                          Albuquerque               Division                                                   Charleston
                                                                                                             Atlanta
                                                                 Ft. Worth                                                 Savannah
                                                                                                      Mobile
                                                                                       Vicksburg                             Jacksonville
                                                                              Dallas
   Honolulu
                             Pacific Ocean                           Galveston                        New                         South Atlantic
                               Division                                                               Orleans                       Division
 Korea
                                                                                       Mississippi Valley
                                                                                           Division
                                                                                                                                      Europe District
   Japan            Key: Follows Watershed Boundaries     Division boundary
                      Div./Regional HQ location           District boundary            Transatlantic Division
                      District HQ location                State boundary
                                                                                 Gulf Region              Afghanistan
                                                                                  Districts             Engineer Districts
                    Other Commands
                    Engineer Research and Development Center
                    Engineering and Support Center, Huntsville                   North                  North
                    Army Geospatial Center
                    USACE Finance Center
                    Marine Design Center
                    Institute for Water Resources
                    249th Engineer Battalion (Prime Power)                     Iraq
                    412th Theater Engineer Command
                    416th Theater Engineer Command                                            South             South
   through 8 of its 9 regional divisions and 38 of the Corps’          Figure 3. Civil Works Levels of Authority
   44 districts; the remaining districts are dedicated to military-
   related missions. The ninth division, the Transatlantic                                     ASA (CW)
   Division, and its three districts support operations in the                             Provides policy guidance
   Middle East.

   Figure 2 shows the division boundaries which are defined by                           Chief of Engineers
   watersheds and drainage basins and are reflective of the water                          Applies policy guidance

   resources nature of the civil works’ mission. Through its
   Pacific Ocean and South Atlantic Divisions, the Corps also                DCG for Civil & Emergency Operations
   has civil works responsibilities in the Territory of American                   Acts on behalf of the Chief of Engineers
                                                                                             in policy guidance
   Samoa, the Territory of Guam, the Commonwealth of the
   Northern Mariana Islands, the Commonwealth of Puerto
   Rico, and the U.S. Virgin Islands.
                                                                                            Director of CW
                                                                                   Acts on behalf of the DCG for Civil and
                                                                                  Emergency Operations in policy guidance
   The distribution of civil works employees again highlights
   the civil works program’s customer focus: 95 percent of
   employees work at the district level (in labs or field operating                            8 Divisions
   agencies) and demonstrate the fact that project management,                          Supervise and manage districts
   operations, and maintenance activities are performed at
   the local (district) level. The program contracts out all of
   its construction and most of its design work to civilian
                                                                               Plan                                   Operate
   companies. As many as 150,000 people are indirectly
                                                                               Design           38 Districts          Maintain
   employed in support of civil works projects, and the Corps’
   contractual arrangements have served the nation well in
   times of emergency.
                                                                       Civil Works Fund Performance
   The Leadership                                                      Results
                                                                       Civil works directly impacts America’s prosperity,
   Oversight of civil works is provided through five levels of
                                                                       competitiveness, quality of life and environmental stability.
   authority. As shown in Figure 3, the Assistant Secretary
                                                                       In March 2004, the Corps’ leadership published a strategic
   of the Army for Civil Works (ASA(CW)) (a Presidential
                                                                       plan to provide a framework for enhancing the sustainability
   appointee) is responsible for civil works policy. The Chief of
                                                                       of America’s resources. The plan’s strategic goals supported
   Engineers is a military officer who reports to the ASA(CW)
   and is responsible for mission accomplishment. The Chief            the Corps’ strategic direction over the six-year period,
   of Engineers delegates the management of this program to            FY 2004 – FY 2009. The USACE submitted its FY 2010
   the Deputy Commanding General (DCG) for Civil and                   – FY 2014 plan in FY 2009 and the plan remains under
   Emergency Operations who further delegates management               Office of Management and Budget (OMB) review. Key
   of the civil works program to the Director of Civil Works.          performance measures, developed in conjunction with and
   Through the DCG for Civil and Emergency Operations                  approved by the OMB, are presented below.
   and the Director of Civil Works, the Chief of Engineers is
   responsible for the leadership and management of the civil
   works program and for ensuring that policies established by         Priority Goals
   the ASA(CW) are applied to all phases of the mission. Corps
                                                                       Last summer, federal agencies were asked to identify a
   divisions, commanded by division engineers, are regional
                                                                       limited number of ambitious, but realistic, high priority
   offices responsible for the supervision and management
                                                                       performance goals (HPPG) for the near term - FY 2010 and
   of subordinate districts, to include oversight and quality
                                                                       FY 2011. The USACE Civil Works Program has chosen to
   assurance. Districts are the foundation of the civil works
                                                                       emphasize four goals which support the administration’s
   mission which is managing water resource development over
   a project’s life cycle.                                             broader policy priorities and have high direct value to the
                                                                       public. These goals are as follows:


8	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Priority Goal 1 (Aquatic Ecosystem Restoration and                and coastal ports and harbors, as well as to the efficiency of          9
Regulatory): Provide sustainable development, restoration,        the overall, combined navigation system. The indicators are




                                                                                                                                   U.S. Army Corps of Engineers - Civil Works Fund
and protection of the nation’s water resources by restoring       described below and their measures are shown in Table 1.
degraded habitat on 10,300 acres during 2011 in the
Aquatic Ecosystem Restoration business line. This will            Construction measures for the navigation system
result in an increase equal to 17 percent of the total acreage
estimated to have been restored during 2005-2010 and              In FY 2008, the Corps instituted and began reporting using
achieving no net loss of aquatic resource function through        the following performance measures.
avoidance and mitigation in Regulatory .
                                                                       n	 High-return investments. The percentage of
Priority Goal 2 (Flood Risk Management): Reduce the                         funding to rehabilitate, construct, or expand
nation’s risk of flooding that damages property and places                  projects that is allocated to high-return
individuals at risk of injury or loss of life.                              investments. High-return investment projects are
                                                                            defined as those with a benefit-to-cost ratio (BCR)
Priority Goal 3 (Inland Navigation): Help facilitate                        of 3.0 or greater.
commercial navigation by providing safe, reliable, highly
cost-effective, and environmentally-sustainable waterborne             n	 Percentage of reports recommending projects
transportation systems.                                                     reflecting watershed principles. The percentage of
                                                                            Chief of Engineers’ reports recommending projects
Goal 4 (Hydropower): Increase the Hydropower                                for authorization that meet criteria for industry-
performance metric of average peak unit availability for                    accepted watershed principles. This measure
353 generating units from the FY 2009 level of 88 percent                   expresses a long-term goal and assesses progress
to 90 percent by FY 2011. This will move the Corps closer                   achieved in watershed-based planning.
to the industry standard level, which is 98 percent.                   n	 Average annual benefits attributable to
                                                                            preconstruction engineering and design (PED)
The FY 2010 performance on these priority goals is                          work completed in current fiscal year. This is
discussed in the relevant business line sections.                           the total average annual benefits (present value)
                                                                            attributable to PEDs. This measure assesses the
                                                                            effectiveness of PED in enabling transportation
Strategic Goal 1: Provide Sustainable Development
and Integrated Management of the Nation’s Water                             savings.
Resources.                                                             n	 Average annual benefits realized by construction
                                                                            projects completed in current fiscal year. The
Navigation                                                                  total average annual benefits (present value)
                                                                            realized by construction projects completed.
Objective: To invest in navigation infrastructure that is fully             This measure assesses the effectiveness of the
           capable of supporting maritime requirements                      construction program in realizing transportation
           in environmentally sustainable ways where                        savings.
           economically justified.
                                                                       n	 Percentage change in funds required to complete
Funding History: The first row of Table 1 indicates the                     all programmed work. This represents the
funding for FY 2010 and actual expenditures for the                         percentage change in constant-dollar balance
investigations, major rehabilitation and construction                       to complete programmed work on all ongoing,
program .                                                                   budgeted construction projects. This measure
                                                                            assesses progress in reducing the backlog of
Performance Indicators: To measure progress in meeting                      ongoing, budgetable construction projects.
the Goal 1 objectives, the Corps uses performance
indicators. These indicators are related to investigations and
construction activities for inland and intracoastal waterways
   Performance Results—Construction and Investigations                            Additional construction funding was used to construct
                                                                                  dredged material and beneficial use placement sites, as
   Funding for investigations was used at various locations                       well as to mitigate shoreline damages caused by navigation
   throughout the nation to continue the study and design of                      projects.
   navigation improvements to increase the economic benefits
   of navigation systems and to reduce transportation costs.                      The ARRA of 2009 provided the Corps an additional
                                                                                  $4 million in investigation funds and $741 million in
   There were several feasibility studies underway in FY 2010                     construction funds which are being spent on inland and
   but no Chief of Engineers’ reports were completed for                          coastal navigation projects through FY 2011. Specifically,
   navigation projects. Construction funding for inland                           expenditures have been allocated for: (1) the advancement
   waterways was used to continue: (1) major rehabilitations of                   and completion of studies, (2) engineering and design,
   locks and dams; (2) dam safety assurance; (3) seepage control                  (3) construction, and (4) the major rehabilitation of
   and static instability corrections; and (4) construction or                    navigation projects. The use of ARRA funds explains the
   replacement of locks and dams. Approximately 76 percent                        discrepancy between target and actual figures in Table 1
   of the funds were programmed for high-return investments.                      below.
   While 24 percent was programmed for projects with BCRs
   less than 3.0, it is important to understand that 80 percent
   of those construction funds were used for mandatory dam                        Flood Risk Management
   safety assurance, seepage control, and static instability
                                                                                  Objective: To invest in environmentally sustainable flood
   correction projects. As the Corps continues to assess the
                                                                                             and coastal storm damage reduction solutions
   condition of the nation’s dams, it must address the human
                                                                                             through the safe operation of flood reduction
   safety issues that are being found. These dam safety projects
                                                                                             infrastructure when benefits exceed costs.
   are given funding priority, necessitating the deferral or delay
   of other critical projects.
                                                                                  Funding History: The first row of Table 2 displays
                                                                                  investigation and construction funding for flood risk
   Construction funding for coastal navigation projects was
                                                                                  management.
   used for channel deepening and improvement projects.


   Table 1. Navigation Construction and Investigation Performance Indicators

                                                                                                                                         FY 2010
                                                                                         FY 2007       FY 2008 FY 2009             Target        Actual
                          Expenditures in millions of dollars                               $609         $490           $597         $367          $753
    Inland                Percentage of funds to high-return investments
    Waterways             (BCR > 3)                                                                       59%           42%             2%4        76%
                          Percent of reports recommending projects
                                                                                          Note 1         100%2           0%
                          reflecting watershed principles                                                                              0%            0%5
                          Average annual benefits attributable to PEDs
                          completed in current FY in millions of dollars                                  $28.1          $7.9             0           $05
    Coastal Ports
    and Harbors           Average annual benefits realized by
                          construction projects completed in current fiscal                  $4.4             0         $8.3          $5.0        $44.7
                          year in millions of dollars
                          Percentage change in funds required to
                                                                                                                     Note 3
                          complete all programmed work.
   NOTE 1: New performance measure for FY 2008, which was the first year data were collected.
   NOTE 2: Represents the completion of one report.
   NOTE 3: Performance targets will be established beginning in FY 2011, after 3 years of data have been collected.
   NOTE 4: Funding for inland waterways construction is very constrained in FY 2010 due to the drawdown of the balance in the Inland Waterways Trust Fund,
           The limited funds will be used to advance ongoing high priority projects, which do not necessarily have a BCR greater than 3.0.
   NOTE 5: No Chief of Engineers Reports or PEDs were completed in FY 2010.




10	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Performance Indicators: To measure its progress in             Performance Results—Construction                                 11
meeting the Goal 1 objective, the Corps uses performance




                                                                                                                              U.S. Army Corps of Engineers - Civil Works Fund
indicators related to the construction program for flood       Investigations funding was used to advance continuing
risk management. The construction indicators are described     flood risk management studies throughout the nation. The
below and their measures are shown in Table 2.                 purpose was to continue the study and design of flood risk
                                                               management projects initiated to increase economic benefits
Construction measures for flood risk management                of flood damages prevented and lives protected.

     n	 Additional people protected. The increase in total     Construction funding was used to continue construction at
         affected population, with reduced risk at project     8 high risk dam safety projects and continue construction
         design, attributed to project completion in the       on 50 new flood risk management projects in order to
         current fiscal year.                                  bring these additional benefits online. A portion of the
                                                               construction funds was targeted to complete the Grand
     n	 Flood damage prevented. The estimated annual           Forks - East Grand Forks project. Construction on this
         dollars of property damage avoided through Corps’     project was completed during the 3rd Quarter of FY 2010,
         flood control projects completed during the fiscal    resulting in an additional 37,000 people with reduced risk
         year.                                                 and $28 million in damages prevented.
     n	 Ten-year moving average. The 10-year moving
         average of actual flood-damage reduction benefits     There were SPRAs completed on the 93 remaining dams
         attributable to all completed Corps’ flood control    which completes the screening assessment process and the
         projects.                                             use of this performance measure in the future. No additional
                                                               issue evaluation studies (IES) were completed on screened
     n	 Screening portfolio risk assessments (SPRAs)           dams in FY 2010 due to needed refinements to the IES
         completed. The number of SPRAs completed in           assessment methodology.
         the applicable year.
                                                               In FY 2010, the Corps continued to expand the
The following three measures have been replaced with           collaboration of state level intergovernmental partnerships
metrics more representative of the Corps’ approach to dam      (Silver Jackets Teams). Currently, 20 state teams have
safety:                                                        been formed and are actively working to address state
                                                               flood mitigation priorities and actions that will result in
     n	 Dam safety projects. This represents the               coordinated actions to reduce flood risks and losses.
         percentage of dams in the SPRA that fall in Dam
         Safety Action Class (DSAC) I, II or III.              High Priority Performance Goal
     n	 Relative loss of life. The total relative annualized
         loss of life per dam.                                 The measures, targets, and results for the Flood Risk
                                                               Management HPPG are shown in bold in the table
     n	 DSAC I, II, and III projects. The number               below. The Grand Forks – East Grand Forks flood risk
         of DSAC I, II, and III projects underway or           management project was funded for completion in FY 2010;
         completed during the applicable year.                 the construction was completed on schedule, allowing
                                                               realization of these benefits.
The following are new, self-explanatory, performance
measures for which data have been collected in the recent
years and reporting began in FY 2010.                          Hydropower

     n	 DSAC I dams under study and/or remediation.            Objective: To invest in hydropower solutions when benefits
                                                                          exceed costs.
     n	 DSAC II dams with completed issue evaluation
         studies.                                              Performance Indicators: The availability of hydroelectric
                                                               generating units during peak power-demand periods.
                                                               Indicators of successful performance in meeting this
   Table 2. Construction and Investigation – Flood Risk Management

                                                                                                                                         FY 2010
                                                                                     FY 2007        FY 2008        FY 2009         Target         Actual
                                                                                       Note 1

    Expenditures in millions of dollars                                                 $1,774         $1,107       $1,343         $1,265         $2,767
    Additional people protected in thousands                                               142               0          645             37              37
    Flood damage prevented in millions of dollars                                        $55.6               0        $10.4          $28.0          $28.0
    Ten-year moving average in millions of dollars                                       $20.1          $22.3         $23.1               Note 2
    SPRA assessments completed                                                               71           185            66              55             93
    DSAC I dams under study or remediation                                                    6              7            13             13             123
    DSAC II dams with completed issue evaluation studies                                      Note 4                       2             20              0
   NOTE 1: FY 2007 and prior year funds were for the total of all expenditures in Flood Risk Management and should not be compared to the FY 2008 and later
           construction expenditures.
   NOTE 2: Data are collected from actual floods occurring throughout the year and data become available in March following the year of interest. The Corps
           makes no predictions or targets year-to-year; data are used for trend analysis only.
   NOTE 3: This number represents 100% of those dams identified as DSAC I as of 1 Oct 2010. Reduction in total to 12 is due to Mill Creek Dam reclassification
           to DSAC II.
   NOTE 4: This measure became effective in FY 2009.




   objective are measured by generating capacity and forced                              n	 Nationally significant acres of habitat restored,
   outage rates.                                                                                created, improved, or protected—annual. The
                                                                                                number of acres of habitat restored each year that
   Performance Results: The Corps uses the same indicators as                                   have high quality outputs as compared to national
   in Goal 3; please see Table 9.                                                               needs.

                                                                                         n	 Cost per acre to restore, create, improve, or
   Strategic Goal 2: Repair Past Environmental                                                  protect nationally significant habitat. The
   Degradation and Prevent Future Environmental                                                 per-acre cost of projects that produce nationally
   Losses                                                                                       significant acres in any given year. Over the long
                                                                                                term, through efficiencies in project execution or
   Aquatic Ecosystem Restoration                                                                other actions, the goal is to restore the most acres
                                                                                                per dollar expended.
   Objective: Restore the structure, function, and process of
              significantly degraded ecosystems to allow them                            n	 Number of projects or separate elements
              to revert to a more natural condition. Invest in                                  physically completed. This represents the actual
              restoration projects or features that positively                                  number of projects or separate elements physically
              contribute to the nation’s environmental                                          completed in the current fiscal year. Performance of
              resources in a cost-effective manner.                                             the other measures is directly dependent upon this
                                                                                                performance factor.
   Funding History: The first row of Table 3 displays the                          Performance Results: Significant progress was made on
   funding for aquatic ecosystem restoration.                                      restoration of the Kissimmee River, Florida, with completion
                                                                                   of a segment restoring a slightly over 3,000 acres. Several
   Performance Indicators: The Corps has established four                          items were completed on the Missouri River restoring
   indicators to assess progress in meeting this objective. Data                   wetlands, emergent sandbar habitat, and backwater areas.
   are shown in Table 3.                                                           Construction progressed on the restoration of Poplar
                                                                                   Island, Maryland; Hamilton Wetlands, California; Upper
         n	 Acres of habitat restored, created, improved,                          Mississippi River Restoration; and modifications to the
              or protected—annual. The number of acres of                          Chicago Sanitary and Ship Canal, which prohibits Asian
              habitat restored in degraded ecosystems.

12	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
carp from entering the Great Lakes from the Mississippi                                n	 Individual permit compliance. The percentage                       13
River. Physical construction was completed at 17 projects                                    of all individual permits on which the Corps




                                                                                                                                                             U.S. Army Corps of Engineers - Civil Works Fund
resulting in 4,540 restored acres, approximately 83 percent                                  completed an initial compliance inspection;
of which are nationally significant. Advancements were also                                  measures permits issued during the previous fiscal
made on a significant number of studies exploring ecosystem                                  year when authorized work began.
restoration options in a variety of diverse ecosystems
across the country, to include the Louisiana Coastal Area                              n	 General permit compliance. The percentage of
Ecosystem Restoration.                                                                       all general permits on which the Corps completed
                                                                                             an initial compliance inspection; measures permits
High Priority Performance Goal                                                               issued during the previous fiscal year when
                                                                                             authorized work began.
The measure for the Aquatic Ecosystem Restoration HPPG
                                                                                       n	 Mitigation site compliance. The percentage of
is shown in bold in the table below. The goal calls for 10,300
                                                                                             field compliance inspections completed on active
acres to be restored by the end of FY 2011; the FY 2010
                                                                                             mitigation sites each fiscal year. Active mitigation
accomplishments make a significant contribution to the
                                                                                             sites are those authorized and monitored through
Aquatic Ecosystem Restoration goal to restore degraded
                                                                                             the permit process, but which have not met final
ecosystems to more natural conditions.
                                                                                             approval under the permit special conditions.

                                                                                       n	 Mitigation inspections or audits. This represents
Regulatory                                                                                   the percentage of compliance inspections or audits
Objective: To execute the Regulatory mission in a manner                                     completed on active mitigation banks and in-lieu-
           that protects the aquatic environment (ensures                                    of-fee programs.
           zero net loss of wetlands) while making timely,                             n	 Resolution of noncompliance issues. The
           fair permit decisions.                                                            percentage of noncompliance issues identified
                                                                                             during the fiscal year in which the Corps reached
Funding History: The first row of Table 4 displays the                                       resolution. This addresses noncompliance with
funding for Regulatory.                                                                      permit conditions.

Performance Indicators: Table 4 lists eight measures that                              n	 Resolution of enforcement actions. The
serve as performance indicators in determining progress in                                   percentage of pending enforcement actions, i.e.,
meeting this objective.



Table 3. Aquatic Ecosystem Restoration Indicators

                                                                                                                                       FY 2010
                                                                            FY 2007          FY 2008          FY 2009           Target          Actual
                                                                                               Note 1

 Expenditures in millions of dollars                                           $340             $429            $492             $568             $531
 Acres of habitat restored, created, improved, or
 protected (annual)                                                           4,838            2,435          10,480            9,900            4,540
 Nationally significant acres of habitat restored, created,
 improved, or protected (annual)                                              2,987            1,986            1,380           4,200            3,760
 Cost per acre to restore, create, improve, or protect
 nationally significant habitat                                             $6,800           $6,700           $6,600         $21,000           $9,600
 Number of projects or separate elements physically
                                                                                      Note 2                        14              42               17
 completed
NOTE 1: Starting with 2008 this business line is crediting acres in a given year when physical construction is complete instead of the last year that the
        project is budgeted in the construction account. This is due to the increased use of fully-funded contracts and funding of the out-year monitoring
        requirements.
NOTE 2: New performance measure for FY 2009 which is the first year of reporting.
             unauthorized activities identified during the fiscal       High Priority Performance Goal
             year in which the Corps reached resolution.
                                                                        The regulatory portion of the Corps’ HPPG is no net loss of
        n	 General permit decisions. The percentage of                  aquatic resource function through avoidance and mitigation.
             general permit application decisions made within           The measure, target, and results are shown in bold in the
             60 days.                                                   table below. Achievement of this portion of the goal is
        n	 Individual permits. The percentage of general                evaluated by the permittee’s compliance with the permit.
             individual permit application decisions made               The target was established based on the number of permits
             within 120 days. This standard does not include            issued requiring compensatory mitigation in the previous
             individual permits with formal Endangered Species          fiscal year.
             Act consultations.

   Performance Results                                                  Environmental Remediation (Formerly Utilized
                                                                        Sites Remedial Action Program-FUSRAP)
   In FY 2010, Regulatory exceeded all performance targets.             Objective: To achieve the cleanup objectives of the FUSRAP,
   This was largely due to the additional $25 million provided                     the Corps uses three outcome measures to
   as part of ARRA. Funds from the ARRA were use in support                        indicate progress: (1) minimize risk to human
   of term and temporary labor, as well as contract support.                       health and the environment, (2) maximize the
   This additional labor pool and contracts afforded districts                     cubic yardage of contaminated material disposed
   the opportunity to focus full-time staff on performance                         in a safe and legal disposal facility, and (3) return
   and performance-related activities, including the HPPG.                         the maximum number of affected individual
   Four of the eight performance indicators are post-permit,                       properties to beneficial use.
   compliance–based; the target number of actions requiring
   compliance is based on the issuance of permits in the
                                                                        Funding History: The first row of Table 5 displays funding
   previous five years. This continues to result in a large number      for environmental remediation.
   of actions requiring compliance.
                                                                        Performance Indicators: The measures listed in Table
                                                                        5 serve as indicators to help Corps’ personnel determine
                                                                        progress in meeting this objective. In addition to the
                                                                        indicators explained below, the Corps has begun to measure


   Table 4. Regulatory Indicators

                                                                                                                       FY 2010
                                                                              FY 2007    FY 2008     FY 2009      Target      Actual
    Expenditures in millions of dollars                                        $159        $176       $190        $190        $209
    Percentage of compliance inspections on individual permits                 11%         22%         25%         10%         26%
    Percentage of compliance inspections on general permits                     7%          7%         11%          5%         13%
    Percentage of active mitigation sites inspected                             7%         18%         37%          5%         10%
    Percentage of compliance inspections on active mitigation banks            63%         39%         44%         20%         34%
    Percentage of resolution on noncompliance with permit
    conditions or mitigation requirements                                      56%         28%         38%         20%        40%
    Percentage of resolution on pending enforcement actions                    82%         34%         37%         20%         38%
    Percentage of general permit application decisions made within
    60 days                                                                    78%         82%         88%         75%         92%
    Percentage of standard permits and letter of permission permit
    decisions made within 120 days                                             53%         51%         64%         50%         67%



14	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
both the cumulative percentage of FUSRAP funding                                     n	 Number of remedies in place or response                    15
expended on actual cleanup activities, as well as the total cost                             complete. As select portions of sites or complete




                                                                                                                                                   U.S. Army Corps of Engineers - Civil Works Fund
of disposing of contaminated material.                                                       sites meet their remedial action goals, risks to
                                                                                             human health and the environment are reduced
      n	 Number of records of decision (ROD) signed.                                         to within acceptable levels. Properties may
           As studies are completed and best alternatives                                    be used within a community without fear of
           for cleanup activities are decided, the number                                    increased cancer risk or further degradation of the
           of RODs increases. A final ROD establishes the                                    environment.
           final cleanup standard which controls the actual
           estimate of the remaining environmental liability                         n	 Percentage of funding expended on cleanup.
           for each site.                                                                    The cumulative percentage of FUSRAP funding
                                                                                             expended on cleanup activities rather than
      n	 Number of remedial investigations (RI)                                              on studies. The baseline for this measure was
           completed. The RI establishes the baseline risk                                   established in FY2004; results are reported every
           assessment whereby the level of risk to human                                     three years.
           health and the environment is identified.
                                                                                     n	 Remediation of contaminated material. The cost
      n	 Number of action memorandums signed.                                                to dispose of contaminated material as measured
           When warranted by risk or other limiting factors,                                 in cubic yards. Data for this measure will not be
           action memoranda allow the Corps to move                                          reported again until FY 2013.
           toward reducing risk more rapidly than through
           production of a ROD. No action memoranda are                        Performance Results
           presently identified.
                                                                               The FY 2010 funds were used to continue remedial
      n	 Cubic yardage of contaminated material                                activities at the Linde, Maywood, Shpack, St. Louis
           disposed. Target-soil amounts are dependent on                      Vicinity Property, St. Louis Downtown, Iowa Army
           previous year funding and scheduled activities.                     Ammunition Plant, HISS/Latty, and W. R. Grace sites.
                                                                               As in FY 2009, the actual amount of contaminated soil
      n	 Individual properties returned to beneficial                          or material removed was increased due to the availability
           use. Number of properties released for general use
                                                                               of ARRA funds. Approximately 212,304 cubic yards of
           following remediation.
                                                                               contaminated material were removed and, of this amount,
                                                                               82,304 cubic yards were a direct result of ARRA funding.


Table 5. Remedial Action Indicators

                                                                                                                                 FY 2010
                                                                                   FY 2007        FY 2008      FY 2009     Target        Actual
 Expenditures in millions of dollars                                                $138            $132            $127    $134         $166
 Number of RODs signed                                                                   5              2              1        1              1
 Remedial investigations completed                                                       0              2              1        1             2
 Action memos signed                                                                     0              0             0         0             0
 Contaminated material removed in thousand cubic yards                                187             154           143      126             212
 Individual properties returned to beneficial use                                      27              40             61      77             92
 Remedies in place or response complete                                                  4              0             0         0              1
 Percentage of funding expended on cleanup                                          Note 1            84%       Note 1              Note 1
 Cost of remediation of contaminated material per cubic yard                                 Note 2                 $496            Note 3
NOTE 1: This was a new measure for FY 2008. The measure is cumulative and data will be reported every third year.
NOTE 2: Data collection on this measure begins in FY 2009.
NOTE 3: Results for this measure will not be reported again until FY 2013.
   Remedial investigations continued at all other FUSRAP                          no specific Corps-generated target, this indicator is
   sites. A groundwater ROD document was completed at the                         used for trend analysis.
   Colonie Interim Storage site. As a result of remedial activities
   completed in FY 2010, 31 (92 cumulative) properties have                   n	 Segment availability. The number of hours over
   been returned to beneficial use.                                               24 that mechanical-driven failure or shoaling
                                                                                  results in the closure of all or part of a high or
   The FUSRAP met or exceeded all of its FY 2010                                  moderate commercial-use segment. The measure
   performance indicators. Remedial investigation documents                       includes only failures on the main chamber of a
   were completed as scheduled at the Guterl and Sylvania-                        lock (rather than an auxiliary chamber) and on
   Corning Plant sites. The program continues to use the                          shoaling due to inadequate dredging (rather than
   Monte Carlo approach to cost and schedule risk analysis.                       low water levels from droughts or channels closed
   This approach continues to improve the Corps’ performance                      due to floods). It also tracks closures of more than
   and ability to repair past environmental damage.                               one week. The two measures that were developed
                                                                                  for the Navigation HPPG, preventable lock
                                                                                  closures over 24 hours and over 7 days, are proxies
   Strategic Goal 3: Ensure that Projects Perform to                              for this measure.
   Meet Authorized Purposes and Evolving Conditions
                                                                              n	 Total funds expended per segment ton-mile
                                                                                  (five-year rolling average). Total O&M funds
   Navigation                                                                     expended per segment ton-mile averaged over a
                                                                                  five-year period, including major rehabilitations.
   Objective: Improve the efficiency and effectiveness of
               existing Corps’ water resource projects by                     n	 Efficiency measure. This measures the O&M costs
               maintaining justified levels of service to                         per ton of cargo shipped. It assesses the efficiency
               commercial traffic of high-use infrastructure,                     of the commercial navigation system at a particular
               e.g., waterways, harbors, and channels.                            coastal port or harbor.

   Objective: Address the operation and maintenance (O&M)               The Corps developed new performance measures and began
   backlog on all operating projects by funding high priority           data gathering in FY 2008. Data has not been reported until
   operations and maintenance projects.                                 FY 2010.

   Funding History: The first row of Table 6 displays funding                 n	 Channel availability, high-use projects. This
   for the operations and maintenance portion of Navigation.                      measures the percentage of time that inland
                                                                                  and intracoastal waterway segments with high
   Performance Indicators: To measure progress in meeting                         commercial activity are available when customers
   Goal 3 objectives, the Corps uses performance indicators                       want to use them. The focus is to minimize vessel
   that (1) relate to O&M activities for inland and intracoastal                  draft restrictions due to shoaling of the channels
   waterways, coastal ports, and harbors; and (2) relate to                       and to minimize local closures due to mechanical
   the efficiency of the overall, combined navigation system.                     failures.
   Indicators are described below and their measures are shown
                                                                              n	 Percentage of high-use segments with a good
   in Table 6.
                                                                                  service level. This represents the percentage of
                                                                                  high commercial-use segments with sufficient
   Operation and maintenance measures for inland and
                                                                                  preventive maintenance to achieve a good level
   intracoastal waterways
                                                                                  of service. High-use segments are the upper and
                                                                                  lower Mississippi; the Illinois, Ohio, and Tennessee
        n	 Ton-miles. The sum total of movement of cargo
                                                                                  Rivers; and the Gulf Intracoastal Waterway.
             on a specific waterway; this measure is a roll-up
             of tons of cargo transported by a vessel multiplied
             by the miles that vessel traveled on the particular
             inland or intracoastal waterway. Although there is


16	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
                                                                                                                               17




                                                                                                                               U.S. Army Corps of Engineers - Civil Works Fund
                                                                                      Aerial photo of the freighter John
                                                                                      G. Munson after passing under
                                                                                      the Blue Water Bridge over the
                                                                                      St. Clair River at Port Huron,
                                                                                      Mich.




Operations and maintenance measures for coastal ports                   projects that are defined as those passing less than
and harbors, including major repairs                                    1 million tons of cargo per year.

    n	 Tons of cargo. Total sum of cargo in tons moved         Performance Results
        in and out of coastal ports and harbor systems.
        This measure indicates system use; data collected      This business line continues to be successful in providing
        are for the purpose of trend analysis. No specific     significant navigation benefits to the nation; however, it
        target is generated by the Corps.                      faces significant challenges in its efforts to maintain the
                                                               reliability of the inland and intracoastal waterways and
    n	 Channel availability, high-use projects. This           coastal navigation system. The system’s aging infrastructure
        represents the percentage of time that high            requires more repairs than the Corps can accomplish given
        commercial traffic navigation channels are available   the historical level of program appropriations. Over one
        to commercial users. There are a total of 59 high-     half of the Corps’ locks have exceeded their 50-year service
        use projects, defined as those that pass 10 million    life and are requiring increased maintenance to keep them
        or more tons of cargo per year.                        functioning. These same funding shortfalls, coupled with
                                                               increased costs in dredging operations and construction,
In FY 2008, the Corps instituted new performance measures      are affecting the Corps’ ability to properly maintain its
and began gathering data. Data will be reported beginning      infrastructure and channels. There has been a 27 percent
in FY 2011.                                                    increase in dredging costs in recent years, which corresponds
                                                               to the near doubling of fuel purchasing costs and similarly
    n	 Channel availability, moderate-use projects.            significant increases in steel and labor costs. Also, many of
        This represents the percent of time that moderate      the new channel deepenings require additional maintenance.
        commercial traffic navigation channels are available   In addition, new environmental requirements that require
        to commercial users. There are a total of 100          the construction of new, more distant dredged material
        moderate-use projects that are defined as those        placement sites have increased the cost of dredging our
        passing 1-10 million tons of cargo per year.           channels. Although other factors may limit or control
                                                               channel availability, the ability to maintain an acceptable
    n	 Channel availability, low-use projects. The
                                                               waterway width and depth through dredging operations has,
        percentage of time that low commercial-use
                                                               by far, the greatest impact.
        channels, harbors, and ports are available to all
        current users. There are about 1,000 low-use
   Performance Results—Operation and Maintenance                                    Dredging costs have increased an estimated 27 percent over
                                                                                    the past three to four years. For these projects, authorized
   The O&M appropriation and the Mississippi River and                              channel depths (for the channel’s center half) were available
   Tributaries appropriations were used to fund (1) continued                       approximately 35 percent of the time during FY 2005 –
   operation and maintenance of 241 locks at 175 locations;                         FY 2008. The condition of moderate-and low-use inland
   and (2) maintenance dredging of critical and high                                and intracoastal waterways, as well as coastal ports and
   commercial-use reaches of the 11,000 miles of inland and                         harbors, is expected to continue to decline.
   intracoastal waterways. Not all waterways were maintained
   at authorized dimensions. Many locks and dams received                           The ARRA provided an additional $1 billion in O&M
   only the most critically needed maintenance and some locks,                      funding that was expended by the end of FY 2010.
   dams, and waterways were only maintained in caretaker                            Numerous contract awards were made during the second
   status. The overall condition of the inland and intracoastal                     half of FY 2009 and during FY 2010 to perform additional
   waterways is expected to decline, and projects will continue                     maintenance of inland and intracoastal waterways and
   to experience lock closures due to mechanical breakdowns                         additional dredging and maintenance of coastal ports and
   and failures.                                                                    harbors. These funds will help improve the overall condition
                                                                                    of the inland and intracoastal waterways, help reduce lock
   Funding also enabled maintenance dredging of high-                               closures due to mechanical breakdowns and failures, and
   use, commercially important coastal ports, harbors, and                          help improve the conditions of high and moderate use
   channels; critical harbors of refuge; and subsistence harbors.                   coastal ports and harbors.
   Many moderate and low commercial-use harbors and
   channels were not dredged and continue to shoal, further                         High Priority Performance Goal
   limiting vessel drafts. For the 59 highest use coastal ports
   and harbors, channel conditions are expected to continue                         The measures, targets, and results for the Inland Navigation
   to decline due to large increases in the costs of doing                          HPPG are shown in bold in the table below. The targets are
   business, particularly as they relate to fuel, steel. and labor.                 based on the median annual number of closures over the



   Table 6. Navigation, Operation and Maintenance Activities Performance Indicators

                                                                                                                                      FY 2010
                                                                                            FY 2007       FY 2008       FY 2009    Target    Actual
                              Expenditures in millions of dollars                             $1,298        $1,296        $1,653    $1,379   $2,281
                              Segment Availability – closures over 24 hours in
                              thousands of hours                                                   20              32        19         20       19
                              Total O&M funds expended per segment ton-mile
                              (5 year rolling average)                                      $0.0019        $0.0019      $0.0021    $0.0019
           Inland waterways




                                                                                                                                             Note 3
                              Ton-miles in billions of ton – miles by fiscal year                 258             268       222    Note 1
                              Efficiency – Cost per ton                                        $0.92          $0.97       $0.83      $0.97
                              Channel availability, high-use projects
                              Percentage of high-use segments with a good                                               Note 2
                              service level
                              Preventable lock closures over 24 hours                              38              42        37         37       61
                              Preventable lock closures over 7 days                                 18             28        19         19       37
    Coastal ports Tons of cargo in billions of tons                                             2.042         2.037       1.807    Note 1    Note 3
    and harbors
                  Channel availability, high use projects                                        32%              32%   Note 4        37%    Note 4
   NOTE 1: The Corps does not set targets for these measures.
   NOTE 2: Data collection during FY 2008-2010; no targets will be set on these measures until FY 2011.
   NOTE 3: Waterborne Commerce Statistics Center data for FY 2010 will not be available until late spring 2011.
   NOTE 4: Data not available at time of printing.



18	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
previous five years. The instances and hours of scheduled and                        n	 Operating projects in zones 1-6 (Low Risk).                        19
unscheduled lock closures due to mechanical failures have                                  This measures the percentage of operating projects




                                                                                                                                                           U.S. Army Corps of Engineers - Civil Works Fund
been increasing since FY 2000. The Corps anticipates these                                 (dams, levees, channels, flood gates) in zones 1-6 of
lock closures will continue to increase over the next several                              the relative risk ranking matrix.
years and anticipates the five-year median target will increase
accordingly. The Corps is prioritizing its annual funding and                        n	 Marginal cost of operations. The marginal
is completing repairs and maintenance work on locks with                                   cost of O&M for all operating projects (dams,
Recovery Act investments which will help arrest the increase                               levees, channels, flood gates) relative to damages
in lock closures. These factors, together with anticipated                                 prevented; shown as a percentage, i.e., the cost of
higher targets in the future, will increase our ability to                                 O&M divided by the cost of damages prevented.
achieve the goal.
                                                                               Performance Results

Flood Risk Management                                                          The FY 2010 funds were used to operate and maintain
                                                                               federal projects and to inspect federal projects turned over
Objective: To reduce the risk to public safety and risk of                     to local sponsors. These resources supported coordination of
           damages due to flooding and coastal storms                          federal reservoir operating schedules with private reservoirs
           through the safe operation of flood damage                          within the basin. Projects operated in their targeted relative
           reduction projects, as authorized.                                  risk zones as represented by the indicator performance
                                                                               measures found in Table 7. Reduction in the expected
Funding History: The first row of Table 7 presents O&M                         number of operating projects in the high risk zone is a
funding for flood risk management.                                             result of improved project conditions realized by the use of
                                                                               ARRA funds in FY 2010 to perform increased maintenance
Performance Indicators: To measure progress in meeting                         activities on high risk operating projects.
Goal 3 objectives the Corps uses performance indicators that
relate to O&M activities for flood risk management. The                        Funding was also used to support dam safety functions.
indicators are described below and their measures are shown                    This included (1) monitoring and evaluating performance
in Table 7.                                                                    (instrumentation) of all dams, (2) implementing interim risk
                                                                               reduction measures at high risk projects, (3) performing all
Operations and maintenance measures for Flood Risk                             required inspections (periodic, post-earthquake, high-pool,
Management                                                                     etc.), (4) preparing emergency action plans, (5) performing
                                                                               site-specific dam safety training of project personnel, and
      n	 Operating projects in zones 21-25 (High Risk).                        (6) implementing force protection security features.
           This measures the percentage of operating projects
           (dams, levees, channels, flood gates) in zones 21-25
           of the relative risk ranking matrix.



Table 7. Operations and Maintenance – Flood Risk Management
                                                                                                                                      FY 2010
                                                                                     FY 2007       FY 2008       FY 2009        Target        Actual
                                                                                       Note 1

                       Expenditures in millions of dollars                            $1,774           $678          $858        $600           $887
                       Operating projects in zones 21-25 (High Risk)                                      96            50         103             80
 Operations &
                       Operating projects in zones 1-6 (Low Risk)                     Note 2              49            74           68            85
 Maintenance
                       Marginal cost of operations                                                   1.25%         3.70%        1.20%         2.30%

NOTE 1: Prior-year funds were for the total of all expenditures for Flood Risk Management and should not be compared to the FY 2008 and following year’s
        O&M expenditures.
NOTE 2: New measure for FY 2008;, the first year data are collected.
   Environmental Stewardship                                                      management responsibilities in relation to the
                                                                                  number of projects with such responsibilities.
   Objective: To improve the efficiency and effectiveness of
              existing Corps water resources projects.                        n	 Healthy and sustainable lands and waters. The
                                                                                  number of Corps fee-owned acres classified in a
   Objective: To ensure healthy and sustainable lands and                         sustainable condition, divided by the total number
              waters and associated natural resources on                          of Corps fee-owned acres. Sustainable is defined as
              Corps lands in public trust to support multiple                     being healthy and viable, not significantly impacted
              purposes.                                                           by any unmanageable factors and not requiring
                                                                                  intensive management to maintain health. The
   Objective: To protect, preserve, and restore significant                       acreage also meets operational goals and objectives
              ecological resources in accordance with master                      established in applicable management documents.
              plans.
                                                                              n	 Level-one natural resources inventory
                                                                                  completion index. This measures the Corps’
   Objective: To ensure the operation of all civil works facilities
                                                                                  efforts in completing basic, level-one natural
              and management of associated lands—including
                                                                                  resource inventories required by USACE
              out-granted lands—complies with the
                                                                                  Environmental Regulation 1130-2-540,
              environmental requirements of relevant federal,
                                                                                  Environmental Stewardship Operations and
              state, and local laws and regulations.
                                                                                  Maintenance Policies. These inventories are
                                                                                  necessary to effect sound resource management
   Objective: To meet the mitigation requirements of
                                                                                  decisions and strategy development. The
              authorizing legislation or applicable Corps
                                                                                  percentage of acres for which level-one inventories
              authorization decision documents.
                                                                                  are necessary and completed is used to evaluate the
                                                                                  relative performance in this measure.
   Funding History: The first row of Table 8 shows the
   funding for environmental stewardship.                                     n	 Master plan completion. A master plan is
                                                                                  completed, per regulation, to foster an efficient
   Performance Indicators: To measure success in attaining                        and cost-effective project for natural resources,
   the objectives above, the Corps developed seven performance                    cultural resources, and recreational management
   indicators. Data on these indicators may be found in                           programs. This measure demonstrates the Corps’
   Table 8.                                                                       commitment to fully integrate environmental
                                                                                  stewardship in the management of operating
        n	 Mitigation compliance. A percentage of the acres                       projects. The measure is expressed as a percentage
             of designated Corps-administered mitigation lands                    derived by dividing the number of required master
             that meet mitigation requirements, divided by                        plans in compliance with regulation by the total
             the total number of acres of designated Corps-                       number of required master plans.
             administered mitigation lands. The measure
             can also be the number of pounds of fish (or                     n	 Efficiency. This concept is represented by costs
             the number of individual fish) produced in a                         recovered in cents-on-the-dollar. The objective is
             mitigation hatchery, divided by the number of fish                   to manage projects in an efficient manner. This
             required to be produced at a mitigation hatchery in                  measure is an assessment of federal costs avoided
             order to meet the mitigation requirement.                            in relation to the business line cost. Revenue
                                                                                  recovered each year, equivalent to the federal costs
        n	 Endangered species protection. The percentage of                       avoided, will vary due to the nature and extent
             Corps operating projects with Endangered Species                     of the sustainability practices implemented. The
             Act responsibilities that meet those responsibilities.               emphasis, however, is on resource sustainability as
                                                                                  opposed to revenue generation.
        n	 Cultural resources management. This measures
             the percentage of Corps operating projects
             that meet federally mandated cultural resource


20	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Performance Results                                                                              Corps seeks to maintain a high level of reliability            21
                                                                                                 and peak availability of hydroelectric power-




                                                                                                                                                                U.S. Army Corps of Engineers - Civil Works Fund
The Environmental Stewardship business line achieved                                             generating capability at multipurpose reservoir
76 percent of its performance target in mitigation and                                           projects.
61 percent in endangered species. Of the projects with
cultural resources requirements, 53 percent were able to                          Funding History: The first row of Table 9 shows capital
meet all their responsibilities and the other 47 percent                          improvements and O&M expenditures for the Hydropower
were able to meet some of their responsibilities. The Corps                       business line over the past three-year period.
inventoried approximately 63 percent of the lands for which
it needed to complete level-one natural resources inventories;                    Performance Indicator: Performance indicator results and
the other 37 percent typically had some information                               targets for the year are displayed in Table 9.
gathered, but were incomplete, e.g., wetlands mapped, but
soils not catalogued.                                                                   n	 Percentage of time units are available to produce
                                                                                              power. The amount of time during a given year
In FY 2010, lands and waters in healthy and sustainable                                       that hydroelectric generating units are available
condition are estimated at only 45 percent of total Corps fee-                                to the Power Marketing Administration’s (PMA)
owned acres, a small improvement over FY 2009, due in part                                    interconnected system.
to refocusing efforts towards this performance measure and
somewhat less on mitigation compliance and endangered                                   n	 Percentage of time available during periods
species protection.                                                                           of peak demand. This measures the amount
                                                                                              of time during daily peak demand periods that
The master plan completion rate is 31 percent, a slight                                       hydroelectric generating units are available to the
improvement but still low due to insufficient funding                                         PMA’s interconnected system.
coupled with the fact that complete revision of a master plan                           n	 Percentage of forced outages. The percentage
for a large project typically costs $200,000 and takes several                                of time generating units are in an unscheduled
years.                                                                                        or unplanned outage status. The lower the forced
                                                                                              outage rate, the more reliable and less expensive the
Hydropower                                                                                    electrical power provided to the customer.

Objective: To improve the efficiency and effectiveness of                               n	 Electrical reliability standards met. The
           existing Corps water resource projects. The                                        percentage of Federal Energy Regulatory



Table 8. Environmental Stewardship Indicators

                                                                                                                                         FY 2010
                                                                                FY 2007         FY 2008         FY 2009           Target         Actual1
 Expenditures in millions of dollars                                                $113           $134            $150             $99            $212
 Mitigation compliance                                                             86%            100%            100%             76%             76%
 Endangered species protection                                                    Note 2          100%            100%              61%             61%
 Cultural resource management                                                      63%             72%             67%             53%             53%
 Healthy and sustainable acreage                                                    18%            24%             38%             45%             45%
 Level-one natural resources inventory completed                                   40%             46%             59%             63%             63%
 Master plans completed                                                            27%             27%             27%             32%             32%
 Efficiency in cents-on-the-dollar                                                 $0.12           $0.11           $0.11         Note 3            $0.11
NOTE 1: All FY 2010 performance results are estimates; actuals will not be available until the end of the calendar year.
NOTE 2: This measure became effective in FY 2008.
NOTE 3: In order to ensure that revenue generation is not emphasized at the expense of sustainability, the Corps does not set annual efficiency targets. This
        indicator is used for trend analysis.
   Table 9. Hydropower Indicators

                                                                                                                                      FY 2010
                                                                                  FY 2007        FY 2008       FY 2009         Target       Actual
    Expenditures in millions of dollars                                               $228           $237          $299            $211         $352
    Percentage of time units are available                                        84.35%         85.86%         86.35%         87.00%       84.80%
    Percentage of time available during periods of peak                           84.26%          86.13%        87.83%        89.00%        86.82%
    demand
    Percentage of time units are out of service due to unplanned
    outage                                                                          4.67%          5.08%         4.27%          4.00%       4.29%
    Electric reliability standards met                                                            Note 1                          90%       Note 2
   NOTE 1: This measure was added during FY 2007 and developed during FY 2008 and FY 2009; FY 2010 will be the first year to report data.
   NOTE 2: Data was unavailable at time of printing.




              Commission (FERC) and the National Electric                        available funding. Compliance data is currently being
              Reliability Council-approved electric reliability                  collected.
              standards that are met or exceeded. The FERC
              has no jurisdiction over the Corps’ hydropower                     High Priority Performance Goal
              production; however, the Corps takes reliability
              seriously and has voluntarily chosen to comply                     The measure for the Hydropower HPPG is shown in bold
              with all applicable FERC standards, subject to the                 in the table below; the goal is 90 percent peak availability
              availability of resources.                                         by the end of FY 2011. Regionally, when funding has been
                                                                                 made available for major rehabilitations, peak availability
   Performance Results                                                           has shown improvement; however, total peak availability has
                                                                                 decreased over the years due to problems related to aging
   Table 9 shows a decrease in FY 2010 funding for the                           infrastructure. Additionally, taking equipment out of service
   Hydropower business line.                                                     for major rehabilitations has resulted in a lowering of peak
                                                                                 availability while the work is being accomplished. In light
   The length of time hydropower-generating units were                           of the austere fiscal environment and lack of resources for
   actually available to produce power decreased when                            major maintenance, the Corps does not anticipate meeting
   compared to the previous year, along with a decrease in                       this hydropower priority goal and intends to review it.
   availability during peak power demand periods. These
   decreases resulted in part from scheduled equipment
   outages for capital investments and equipment outages,                        Recreation
   resulting from aging equipment. The industry standards
   for availability and peak availability are 98 and 95 percent,                 Objective: To provide justified outdoor recreation
   respectively. Table 9 shows FY 2010 program performance                                  opportunities in an effective and efficient
   for availability and peak availability to be approximately                               manner at all Corps-operated water resources
   10.20 and 11.38 percentage points below the industry                                     projects.
   standard, respectively. The Hydropower standard metric used
   for forced outages is 2 percent. Due primarily to funding                     Objective: To provide continued outdoor recreation
   constraints, the program’s forced outage performance is                                  opportunities to meet the needs of present and
   2.29 percentage points above the industry standard and                                   future generations.
   0.29 percentage points above the FY 2010 target.
                                                                                 Objective: To provide a safe and healthful outdoor
   The Corps’ corporate electric reliability plan, implemented                              recreation environment for Corps’ customers.
   in September 2009, provides guidance for voluntary
   compliance with FERC electric-reliability standards within


22	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Table 10. Recreation Indicators                                                                                                                               23

                                                                                                                                        FY 2010




                                                                                                                                                              U.S. Army Corps of Engineers - Civil Works Fund
                                                                             FY 2007           FY 2008         FY 2009           Target          Actual
    Expenditures in millions of dollars                                          $299            $309            $380             $284            $557
    Total NED benefits in millions of dollars                                $1,353             $1,452         $1,500            $1,155          $1,610
    Benefit-to-cost ratio                                                         4.49            4.70            4.30             4.08            3.00
    Cost recovery                                                                 16%             16%             15%              15%              8%
    Park capacity in millions of days                                               74               74              74              74              74
    Number of visitors in millions of visits                                       132             137             134              132             135
    Visitor health and safety services                                           50%              48%             48%             47%              47%
    Facility service                                                              48%             47%             47%             43%              51%



Funding History: The first row of Table 10 shows the                                        expressed in millions of days/nights that recreation
funding, in actual expenditures, for the Recreation business                                units were available for use.
line.
                                                                                      n	 Number of visitors. This measures total number
Performance Indicators: The measures listed in Table 10                                     of visitors to Corps-managed parks, expressed in
determine progress in meeting the Corps’ recreation                                         millions of people.
efficiency, service, and availability objectives. These                               n	 Visitor health and safety services. This measure
indicators are explained below.                                                             is expressed as a percentage of visitors to Corps-
                                                                                            managed recreation areas who reported acceptable
        n	 Total National Economic Development (NED)                                        service.2 Activities that impact this measure (facility
            benefits. NED1 benefits are estimated using                                     cleaning, mowing, visitor assistance, ranger patrols,
            the unit day-value method which was originally                                  park hosts, reservation services, and repairs), have
            developed by the Water Resources Council.                                       been externally validated with visitors, partners,
                                                                                            and other stakeholders.
        n	 Benefit-to-cost ratio. This is the ratio of NED
            benefits to actual expenditures or budget.                                n	 Facility service. The percentage of visitors served
                                                                                            at a Corps-managed recreation area with a facility
        n	 Cost recovery. This measures the percentage of
                                                                                            condition score of 4 or better3, who indicate
            total recreation receipts to the recreation budget.
                                                                                            their experience was fair to good. The quality of
        n	 Park capacity. This measures the capacity of                                     a visitor’s experience and satisfaction with Corps’
            facilities to provide recreation opportunities,                                 facilities is directly related to the facility condition.




  NED benefits arising from recreation experiences are measured in
1

  terms of willingness to pay for each increment of supply or type of
  recreation opportunity. The unit-day-value method relies on expert         2
                                                                                   A typical park in peak season for the region provides cleaning five days
  or informed opinion and judgment to approximate the average                      a week, two to three ranger patrols and visitor contacts daily, contract
  user’s willingness to pay for federal or federally-assisted recreation           law enforcement, periodic public safety programs, and ability to correct
  resources. The unit-day-value is estimated at the park (recreation               urgent repairs within one to three days.
  area) level by evaluating each park according to a set of published
  criteria. By applying a carefully thought-out and adjusted unit-day-       3
                                                                                   A facility condition score of 4 means the facility requires no more than
  value to estimated use, an approximation can be obtained for use as              routine maintenance (e.g., painting, caulking, asphalt patching, filling
  an estimate of project recreation benefit (i.e., NED benefits = Unit Day         cracks) to reduce visitor health and safety risks and environmental
  Value X Recreation Use in Visitor Days).                                         degradation.
   Performance Results                                                            supply. Cost available for recovery is the total
                                                                                  estimated capital cost of water supply allocations.
   Recreation funding in the regular civil works appropriation
   decreased again in inflation-adjusted terms from FY 2009                   n	 Cost recovered. Costs assigned to the water supply
   to FY 2010. Only 47 percent of people who visited Corps’                       storage space that has been, or is, in the process of
   parks were served at acceptable health and safety service                      being recovered through repayment agreements.
   levels. A total of 51 percent of visitors at Corps’ parks                  n	 Percentage of cost recovered. The percentage
   was served at facilities at acceptable condition, a slight                     of cost available for recovery compared to cost
   increase over last year; this increase is due to the facility                  recovered.
   improvements funded by ARRA.
                                                                              n	 Administrative yearly cost. This measures
   In an attempt to mitigate the combined results of reduced                      the annual cost-to-collect fees and administer
   funding and increasing demand, the Corps resorted to                           contracts.
   reductions in contract services and daily operating hours, as
   well as shortened recreation seasons.                                      n	 Administrative yearly cost (input) per acre-
                                                                                  foot of storage under contract (output). This
                                                                                  efficiency measure describes the cost-to-provide
   Water Storage for Water Supply                                                 water storage.

   Objective: To provide municipal and industrial (M&I)                 Performance Results
              water supply storage in a cost-efficient and
              an environmentally and socially responsible               Database development for the Corps’ M&I water supply
              manner in partnership with nonfederal water               projects and contracts transformed between the start of
              management plans, consistent with law and                 FY 2006 and the end of FY 2010. This transformation
              policy.                                                   changed the way the Corps collects data on its M&I
                                                                        contracts from a periodic paper data call to a computer
   Funding History: The first row of Table 11 displays funding          database. The National Portfolio Assessment for
   for water storage for water supply.                                  Reallocations, a national study completed in FY 2009,
                                                                        developed (1) a portfolio of 107 Corps reservoir
   Performance Indicator: To assist in gauging progress, the            projects suitable for reallocation; (2) a list of 52 projects
   Corps uses measures relating to the acre-feet of water stored        recommended as prime candidates for reallocation within
   and cost-recovery measures. These are shown in Table 11.             the next few years; and (3) a report addressing alternative
                                                                        funding for reallocation studies, the recommended option
        n	 Acre-feet available. Of the total acre-feet of water         of which would require legislation. The ARRA included
             stored in a reservoir, this number represents the          $1.1 million to fund four water supply studies which will
             total acre-feet available for water supply.                ultimately result in additional storage under contract and
                                                                        additional revenues returned to the U.S. Treasury. All studies
        n	 Acre-feet under contract. Of the acre-feet                   are scheduled for completion in early FY 2011.
             available for water supply, this number represents
             the total number of acre-feet, for present and             The current funding level provides the minimum amount
             future use, under contract with state and local            necessary to continue the Water Storage for Water Supply
             interests.                                                 business line on a caretaker basis. It does not commit
                                                                        the funds required to generate the benefits that could be
        n	 Percentage under contract. The percentage of
                                                                        produced with adequate funding. For example, funds are
             the acre-feet of water supply storage space under
                                                                        not available to conduct required sedimentation surveys,
             contract compared to the acre-feet of space
                                                                        yield analysis studies to assess the effect of recent droughts,
             available for water storage.
                                                                        or studies of water supply reallocation possibilities. These
        n	 Cost available for recovery. The Corps seeks                 studies would help solve the water supply needs in many
             proportional reimbursement of capital costs for            communities across the nation.
             that portion of the reservoir allocated for water


24	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Table 11. Water Storage for Water Supply                                                                                                                  25

                                                                                                                                       FY 2010




                                                                                                                                                          U.S. Army Corps of Engineers - Civil Works Fund
                                                                                     FY 2007        FY 2008        FY 2009        Target     Actual1
 Expenditures in millions of dollars                                                          $2             $3             $7         $5           $6
 Acre-feet available in millions of acre-feet                                             9.379             9.2            11.1       11.3         11.1
 Acre-feet under contract in millions of acre-feet                                        9.083             8.9           10.5        10.7        10.5
 Percentage under contract                                                               96.8%          96.7%          94.6%       94.7%         94.6%
 Costs available for recovery in millions of dollars                                  $1,282.3       $1,285.2        $1,429.0     $1,481.2   $1,453.0
 Costs recovered in millions of dollars                                                 $868.4         $932.2         $836.2       $850.0     $848.0
 Percentage recovered                                                                    67.8%          72.2%          56.4%        57.4%        58.3%
 Administrative yearly cost in millions of dollars                                                         $1.2           $1.0        $1.0         $1.0
 Administrative yearly cost per acre-foot of storage under                             Note 2
 contract                                                                                                 $0.13          $0.10      $0.10         $0.10

NOTE 1: All FY 2010 performance results are estimates; actual results will not be available until the end of the calendar year.
NOTE 2: These efficiencies measures were established at the end of FY 2007; FY 2008 is the first year that data are available.




Strategic Goal 4: Reduce Vulnerabilities and Losses                               the Corps’ emergency management objectives. Indicators are
to the Nation and the Army from Natural and Man-                                  explained below.
Made Disasters, Including Terrorism
                                                                                         n	 Planning response team readiness. The Corps
The purpose of this goal is to manage the risks associated                                    established designated planning and response
with all types of hazards and to increase the civil works                                     teams (PRTs) that are organized to provide rapid
emergency management responsiveness to disasters in                                           emergency response within a specific mission area.
support of federal, state, and local emergency management                                     This measure is calculated as a percentage of time
efforts. Disaster preparedness and response capabilities are                                  during the fiscal year that PRTs are fully staffed,
not only limited to water-related events, but also draw on                                    trained, and ready to deploy.
the Corps’ engineering skills and management capabilities in
responding to a broad range of natural disasters and national                            n	 Project inspection performance. The Corps
emergencies. The Corps is mindful that emergency readiness                                    performs inspections of flood control works
contributes to national security.                                                             operated and maintained by public sponsors to
                                                                                              ensure and assess their O&M condition. This
Objective: To attain and maintain a high, consistent state of                                 measure is determined by the percentage of
           preparedness.                                                                      scheduled inspections completed during the fiscal
                                                                                              year.
Objective: To provide a rapid, effective, and efficient all-
           hazards response.
                                                                                         n	 Damaged project restoration. The Corps repairs
                                                                                              flood control projects damaged by floods or storms
                                                                                              under authority of P.L. 84-99. This measure is the
Objective: To ensure effective and efficient long-term
                                                                                              percentage of projects damaged during a fiscal year
           recovery operations.
                                                                                              and repaired prior to the next flood season.
Funding History: The first row of Table 12 indicates                                     n	 Project condition ratings. Under the Corps’
funding for emergency preparedness and response and                                           rehabilitation and inspection program, inspected
recovery operations.                                                                          projects are given condition ratings characterizing
                                                                                              their state of maintenance. This measure is the
Performance Indicators: The four primary measures, listed                                     percentage of total projects inspected during
in Table 12, assist in determining progress toward meeting                                    the fiscal year that received a rating of at least
                                                                                              minimally acceptable.
   Table 12. Emergency Preparedness Indicators

                                                                                                                                FY 2010
                                                                              FY 2007        FY 2008         FY 2009       Target     Actual
                                                                                Note 1         Note 1          Note 1      Note 2     Note 1

    Expenditures in millions of dollars                                        $1,561          $847          $1,405          $41     $1,515
    Planning response team readiness                                             72%            85%             83%         91%           87%
    Project inspection performance                                               97%            58%             67%         93%           77%
    Damaged project restoration                                                  29%            90%             14%         35%           61%
    Project condition ratings                                                   90%             79%             79%         91%           67%
   NOTE 1: Funding was provided in supplemental appropriations to repair projects damaged by coastal storm and flooding.
   NOTE 2: The funding target for FY 2010 was to fund preparedness activities.




   Performance Results                                                           ice storms, North Atlantic nor’easter, and spring floods in
                                                                                 New England. In response to the Mississippi River tributary
   During FY 2010, the Corps maintained 48 national PRTs                         floods in Louisiana; California/Arizona January flooding;
   at a readiness rate of 87 percent fully manned, trained, and                  and spring floods in Iowa, Minnesota, North Dakota, South
   equipped. Teams are trained and prepared to deploy to a                       Dakota, and Tennessee; the Corps provided 36 pumps, over
   disaster area and provide assistance for temporary power and                  300,000 sandbags, 35,000 feet of temporary levees, and
   housing, debris management, water and ice commodities,                        issued 22 emergency contracts. They also issued more than
   temporary roofing, and infrastructure assessment. The                         2 million sandbags, 15 pumps, and 1,100 feet of Portadam®
   readiness rating exceeded the target rating due to increased                  in response to 2 months of summer flooding on the
   focus on team training and team reorganization for more                       Missouri and Mississippi Rivers and tributaries in Wyoming,
   efficient disaster response.                                                  Nebraska, Iowa, South Dakota, Missouri, and Kansas.

   During FY 2010, the Corps conducted 77 percent                                As a result of the fall nor’easter and extensive spring/
   (total of 1,986) of the scheduled inspections of flood                        summer flooding, repairs are needed for over 80 projects at
   risk management projects. Performance below the target                        an estimated cost of over $125 million. Overall, the Corps
   objective resulted from the application of more technically                   achieved a 61 percent performance rating for the completion
   rigorous inspections which limited the number of scheduled                    of project repairs prior to the next flood season.
   inspections that could be conducted. Of the total projects
   inspected, 67 percent received minimally acceptable or better
   project condition ratings. Major flooding in Washington
   state resulted in damages to 38 projects. The Corps provided
   assistance for the American Samoa earthquake, Oklahoma




26	 Fiscal Year 2010 United States Army Annual Financial
                                               Civil Works
                                                         Statement
                                                           Financial Report
                                                                                                                                                     27




                                                                                                                                                     U.S. Army Corps of Engineers - Civil Works Fund
                                                                                                           Two Corps’ employees inspect a
                                                                                                           boil in an emergency levee built
                                                                                                           in Fargo, N.D., during the 2009
                                                                                                           spring flooding of the Red River
                                                                                                           of the North




Possible Future Effects of Existing                                                 dams, and beaches. This includes accounting for changes
                                                                                    in the frequency, magnitude, and location of storms, as
Conditions                                                                          well as changes in land use. The Corps is responsible for
                                                                                    maintaining some of this infrastructure, while other entities
Flood Risk Management
                                                                                    are responsible for the remaining infrastructure. Regardless
As mentioned previously, the business line’s goal is to                             of ownership, all infrastructure elements must function as a
reduce the nation’s risk to life and damages due to flooding                        holistic system to be effective. In addition to infrastructure
and coastal storms. The nation faces increasing flood                               maintenance, new flood-risk management measures must be
hazards, putting existing developments4 at risk. This is                            studied, evaluated, and implemented in a timely fashion.
compounded by the fact that new development continues
to occur in flood-prone areas, often behind aging flood-
control structures, which include levees designed to provide
                                                                                    The Marine Transportation System (MTS)
agricultural rather than urban protection. National flood                           The MTS system is comprised of 1,000 harbor channels,
damages, which averaged $3.9 million annually in the                                25,000 miles of inland, intracoastal and coastal waterways,
1980s, nearly doubled in the decade 1995 through 2004.                              and 241 lock chambers. The national MTS goal is to provide
Total disaster assistance for emergency response operations,                        a safe, secure, and globally-integrated network that, in
and subsequent long-term recovery efforts, increased from                           harmony with the environment, ensures reliable movement
an average of $444 million during the 1980s to $3.75 billion                        of people and commerce along waterways, sea lanes, and
over the period 1995 – 2004.                                                        intermodal connections. Today, approximately 20 percent of
                                                                                    the gross domestic product of the United States is generated
Significant investments are required to identify, evaluate,                         by foreign trade, and approximately 95 percent of that
and maintain existing flood infrastructure, e.g., levees,                           trade is moved by water. The value of foreign tonnage is
                                                                                    over $900 billion and it generates 16 million jobs. Current
                                                                                    forecasts predict that maritime trade will double, or possibly
                                                                                    triple, in the next 20 years.

                                                                                    Inland Waterways: Eleven inland waterway locks are over
                                                                                    100 years old, and 122 are over 50 years old. In recent years,
4
         Development in this context refers to cities, towns, houses, businesses,
        infrastructure, and other man-made objects that have been constructed
                                                                                    maintenance deferrals and delays in repairs and replacement
        in low-lying areas or floodplains.
   of aging locks have driven up the number of unscheduled              Environment: Aquatic Ecosystem
   lock closures. For example, closures due to mechanical               Restoration
   breakdowns increased from less than 9,000 hours per year in
   FY 2000 to more than 26,000 hours per year in FY 2008.               As mentioned previously, the goal of Aquatic Ecosystem
   These closures have a negative effect on the economy by              Restoration is to restore to a more natural condition,
   imposing costs on shippers, carriers, and electric utilities.        aquatic habitat whose structure, function, and dynamic
   An unscheduled 52-day closure at Greenup Locks and                   processes have become degraded. To achieve its objectives,
   Dams in Ohio, for example, cost shippers and carriers over           the Corps designs and constructs cost-effective projects that
   $53 million. Additionally, rehabilitations and improvements          modify hydrologic and geomorphic characteristics.
   to inland waterways are jeopardized by the low balance in
   the Inland Waterways Trust Fund because half of the cost of          The call for aquatic ecosystem restoration is great; however,
   improvements is derived from this fund.                              the challenge is to strike a sustainable balance between the
                                                                        often conflicting demands for use and control of water
   Coastal Channels and Harbors: Existing high-volume                   resources. Climate change may make this balancing act
   channels and harbors were available only 32 percent of               even more difficult in the future. In FY 2010, the Corps
   the time in FY 2007 and FY 2008. Inadequate channels                 continued its research and development effort to field
   negatively affect the economy by imposing costs on vessel            environmental benefit assessments that more objectively
   operators that, in turn, are reflected in the cost of imports        evaluate aquatic ecosystem restoration projects. This will
   and the price of U.S. exports. On average, failure to                facilitate more consistent results, as well as the ability to
   maintain one foot of channel depth increases container               effectively build and evaluate a national initiative. In the
   shipping costs by about 6 percent. Additional economic               absence of a standard metric, the Corps continues to work
   costs will accrue by postponing investment in deeper and             with other agencies and invest in research and development
   wider channels that address projected future demand.                 to objectively evaluate disparate ecosystem restoration
                                                                        projects and prioritize restoration needs. The Corps
                                                                        continues to try to balance funding to address the variety of
                                                                        resources needed across the country.




           Wildflowers at Black Butte Lake,
           view from Buckhorn towards
           Angler’s Cove




28	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Analysis of Financial Statements                               Net Position                                                    29

                                                               The USACE Net Position at the end of 2010,




                                                                                                                               U.S. Army Corps of Engineers - Civil Works Fund
Civil Works Balance Sheet
                                                               disclosed in the Balance Sheet and Statement of Changes in
The USACE balance sheet includes total assets that exceed      Net Position was $50.3 billion, a decrease of $2.7 billion or
$58.1 billion, which is an approximate 4 percent decrease      5 percent from the FY 2009 Net Position of $53.0 billion.
from FY 2009. Two asset categories – Fund Balance with
Treasury and General Property, Plant and Equipment –           The USACE Net Position consists of the sum Unexpended
make up just over 85 percent of total assets, with values of   Appropriations of $12.9 billion and Cumulative Results of
$20.8 billion and $28.4 billion, respectively.                 Operation totaling $37.4 billion.

Fund Balance with Treasury decreased $4.1 billion, or
                                                               Net Cost
16 percent. The USACE also received $4.6 billion under the
American Recovery and Reinvestment Act, 2009 (ARRA)            The USACE Net Cost of Operations for FY 2010 was
during 2nd Quarter, FY 2009. There was no ARRA funding         $10.1 billion. This is an increase of $2.5 billion or
received in FY 2010.                                           33 percent from the previous year’s net cost of $7.6 billion.
                                                               Public costs increased $2.0 billion primarily due to
Liabilities are approximately $7.8 billion, comprised          ARRA projects with the higher increases in the 3rd and
primarily of other liabilities, accounts payable and           4th Quarters, FY 2010. There was also a decrease in earned
environmental liabilities, which represent approximately       revenue of $646.3 million due primarily to projects nearing
65 percent of the total.                                       completion in reimbursable work supporting U.S. Customs
                                                               and Border Protection for border security projects during the
                                                               1st and 2nd Quarters, FY 2009. The cost is presented in its
                                                               entirety under the Civil Works Program.




                 Figure 4. Select Civil Works Fund Assets and Liabilities



                               10%
                       5%
                                                                                                 37%
                                                                     35%



                                                  49%

                     36%

                                                                            13%
                                                                                         15%



                       Civil Works Fund Assets                       Civil Works Fund Liabilities
                       General Property, Plant and Equipment         Other Liabilities
                       Fund Balance with Treasury                    Environmental Liabilities
                       Accounts Receivable                           Accounts Payable
                       Remaining Assets                              Remaining Liability
   Budgetary Resources                                                  offsetting collections. Obligations of $23.8 billion and
                                                                        $23.0 billion were incurred as of September 30, 2010,
   The USACE Combined Statement of Budgetary Resources                  and September 30, 2009, respectively. Total budgetary
   provides information on the budgetary resources that were            resources in FY 2010 and FY 2009 were $34.9 billion
   made available during the year and the status of those               and $40.6 billion, respectively. Total budgetary resources
   resources at the end of the fiscal year. These resources consist     decreased by $5.7 billion, or 14 percent. The USACE
   of the balance at the beginning of the year, appropriations          received $4.6 billion under the ARRA during the 2nd
   received during the year, and spending authority from                Quarter, FY 2009.


    Table 13. Select Civil Works Fund Assets and Liabilities
    (Amounts in billions)
                                                           2010                  2009                               Percentage of
    Asset Type                                         Consolidated           Consolidated         Change          FY 2010 Assets
    General Property, Plant and Equipment                $28.37                 $26.98               $1.39               49%
    Fund Balance with Treasury                            20.84                  24.94                (4.10)             36%
    Accounts Receivable                                     3.00                  3.01                (0.01)              (5%)
    Remaining Assets                                        5.90                  5.36                0.54               10%
    Total Assets                                          $58.11                $60.29              ($2.18)             100%

                                                                                                                      Percentage
                                                          2010                   2009                                 of FY 2010
    Liability Type                                     Consolidated           Consolidated         Change              Liabilities
    Other Liabilities                                     $2.84                  $2.55              $0.29                 37%
    Accounts Payable                                         1.15                 1.05                0.10                15%
    Environmental Liabilities                               1.04                  1.03               0.01                 13%
    Remaining Liability                                     2.73                  2.64               0.09                 35%
    Total Liabilities                                      $7.76                 $7.27              $0.49                100%




            A father and sun fish the
            tailwaters of Melvin Price Locks
            and Dam at Mississippi River
            Mile 200 near Alton, Ill.




30	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
                                                                                                                                     31




                                                                                                                                     Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                           Civil Works Fund Principal
                                                                                           Financial Statements, Notes,
                                                                                           Supplementary Information, and
                                                                                           Auditor’s Report




Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results of operations for the entity, pursuant to
the requirements of Title 31, United States Code, section 3515(b).

While the statements have been prepared from the books and records of the entity, in accordance with the formats prescribed
by the Office of Management and Budget, the statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the United States Government, a sovereign
entity.
    US Army Corps of Engineers - Civil Works

    CONSOLIDATED BALANCE SHEET
    As of September 30, 2010 and 2009 (Amounts in thousands)                         2010                      2009
    ASSETS (Note 2)
       Intragovernmental:
            Fund Balance with Treasury (Note 3)                                  $          20,839,809     $          24,939,624
            Investments (Note 4)                                                              5,741,313                5,228,046
            Accounts Receivable (Note 5)                                                        498,100                  594,679
       Total Intragovernmental Assets                                            $           27,079,222    $          30,762,349

        Cash and Other Monetary Assets (Note 6)                                  $                 972     $               1,356
        Accounts Receivable, Net (Note 5)                                                    2,504,377                 2,415,554
        Operating Materials and Supplies, Net (Note 7)                                         156,518                   128,169
        General Property, Plant and Equipment,Net (Note 8)                                  28,365,165                26,983,742
        Other Assets                                                                               282                       363
    TOTAL ASSETS                                                                 $          58,106,536     $          60,291,533

    Stewardship Property, Plant, and Equipment (Note 9)

    LIABILITIES (Note 10)
        Intragovernmental:
             Accounts Payable                                                    $              44,287     $              115,319
             Debt (Note 11)                                                                      5,634                      8,074
             Due to Treasury - General Fund (Note 13)                                        2,484,625                 2,396,351
             Other Liabilities (Notes 13 & 14)                                               1,026,380                 1,004,908
        Total Intragovernmental Liabilities                                      $           3,560,926     $            3,524,652

        Accounts Payable - Public                                                $             1,110,015   $             932,095
        Federal Employee and Veterans’ Benefits                                                243,460                   233,867
        Environmental and Disposal Liabilities (Note 12)                                      1,038,122                1,034,792
        Other Liabilities (Notes 13 & 14)                                                    1,810,463                 1,545,417
    TOTAL LIABILITIES                                                            $           7,762,986     $           7,270,823

    Contingencies (Note 14)

    NET POSITION
        Unexpended Appropriations - Other Funds                                  $          12,861,828     $          18,337,899
        Cumulative Results of Operations - Earmarked Funds (Note 19)                         9,192,267                  7,735,168
        Cumulative Results of Operations - Other Funds                                      28,289,455                26,947,643
    TOTAL NET POSITION                                                           $          50,343,550     $          53,020,710

    TOTAL LIABILITIES AND NET POSITION                                           $          58,106,536     $          60,291,533


    The accompanying notes are an integral part of these financial statements.




32	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
US Army Corps of Engineers - Civil Works                                                                                        33

CONSOLIDATED STATEMENT OF NET COST




                                                                                                                                Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
As of September 30, 2010 and 2009 (Amounts in thousands)                         2010                      2009
Program Costs
     Gross Costs (Note 15)                                                   $          13,085,826     $          11,160,800
     (Less: Earned Revenue)                                                              (3,014,594)              (3,599,070)
Net Cost of Operations                                                       $           10,071,232    $           7,561,730


The accompanying notes are an integral part of these financial statements.
    US Army Corps of Engineers - Civil Works

    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                                                                                 2010 Consolidated
    As of September 30, 2010 and 2009 (Amounts in thousands)                     2010 Earmarked           2010 Other                   Total
    CUMULATIVE RESULTS OF OPERATIONS
    Beginning Balances                                                     $             7,735,168    $       26,947,643     $          34,682,811
    Budgetary Financing Sources:
        Appropriations used                                                                      0            10,233,720                10,233,720
        Nonexchange revenue                                                             1,502,034                    (571)               1,501,463
        Transfers-in/out without reimbursement                                             113,074                90,029                   203,103
    Other Financing Sources (Non-exchange):
        Donations and forfeitures of property                                                   0                   708                        708
        Transfers-in/out without reimbursement                                                  0               595,618                    595,618
        Imputed financing from costs absorbed by others                                       625               334,906                    335,531
        Other (+/-)                                                                             0                     0                          0

    Total Financing Sources                                                $             1,615,733    $        11,254,410    $          12,870,143
    Net Cost of Operations                                                                 158,634              9,912,598               10,071,232
    Net Change                                                                           1,457,099              1,341,812                 2,798,911
    Cumulative Results of Operations                                       $             9,192,267    $       28,289,455     $          37,481,722

    UNEXPENDED APPROPRIATIONS

    Beginning Balances                                                     $                      0   $       18,337,899     $          18,337,899
    Budgetary Financing Sources:
        Appropriations received                                                                   0             4,754,176                4,754,176
        Appropriations transferred-in/out                                                         0                9,000                     9,000
        Other adjustments (rescissions, etc.)                                                     0                (5,527)                  (5,527)
        Appropriations used                                                                       0          (10,233,720)              (10,233,720)

    Total Budgetary Financing Sources                                      $                      0   $        (5,476,071)   $          (5,476,071)
    Unexpended Appropriations                                                                     0           12,861,828                12,861,828

    Net Position                                                           $             9,192,267    $        41,151,283    $          50,343,550


    The accompanying notes are an integral part of these financial statements.




34	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
US Army Corps of Engineers - Civil Works                                                                                                      35

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION




                                                                                                                                              Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                                                         2009 Consolidated
As of September 30, 2010 and 2009 (Amounts in thousands)                     2009 Earmarked           2009 Other               Total
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                     $             6,307,401    $       26,418,483     $      32,725,884
Budgetary Financing Sources:
    Appropriations used                                                                       0            7,584,873             7,584,873
    Nonexchange revenue                                                               1,411,613                   (41)           1,411,572
    Transfers-in/out without reimbursement                                              61,562                72,709               134,271
Other Financing Sources (Non-exchange):
    Donations and forfeitures of property                                                  661                2,164                  2,825
    Transfers-in/out without reimbursement                                                   0              109,331                109,331
    Imputed financing from costs absorbed by others                                         23              275,762                275,785
    Other (+/-)                                                                              1                    (1)                    0

Total Financing Sources                                                $             1,473,860    $        8,044,797     $       9,518,657
Net Cost of Operations                                                                   46,093            7,515,637             7,561,730
Net Change                                                                            1,427,767              529,160             1,956,927
Cumulative Results of Operations                                       $              7,735,168   $       26,947,643     $      34,682,811

UNEXPENDED APPROPRIATIONS

Beginning Balances                                                     $                      0   $       10,316,712     $      10,316,712
Budgetary Financing Sources:
    Appropriations received                                                                   0           15,608,143            15,608,143
    Appropriations transferred-in/out                                                         0               (2,083)               (2,083)
    Other adjustments (rescissions, etc.)                                                     0                    0                     0
    Appropriations used                                                                       0           (7,584,873)           (7,584,873)

Total Budgetary Financing Sources                                      $                      0   $         8,021,187    $       8,021,187
Unexpended Appropriations                                                                     0           18,337,899            18,337,899

Net Position                                                           $             7,735,168    $       45,285,542     $      53,020,710


The accompanying notes are an integral part of these financial statements.
    US Army Corps of Engineers - Civil Works

    COMBINED STATEMENT OF BUDGETARY RESOURCES
    As of September 30, 2010 and 2009 (Amounts in thousands)                         2010                       2009
    Budgetary Resources:
    Unobligated balance, brought forward, October 1                              $           17,518,061     $           11,692,717
    Recoveries of prior year unpaid obligations                                                  40,133                   862,852
    Budget authority
         Appropriation                                                                       6,195,338                 17,012,826
         Spending authority from offsetting collections
             Earned
                Collected                                                                    10,201,874                11,886,071
                Change in receivables from federal sources                                        4,423                  (246,081)
             Change in unfilled customer orders
                Advance received                                                                  62,177                    259,171
                Without advance from federal sources                                           (192,357)                (1,918,599)
             Expenditure transfers from trust funds                                              851,019                  862,543
         Subtotal                                                                $           17,122,474     $          27,855,931
    Nonexpenditure transfers, net, actual                                                       183,595                    170,543
    Temporarily not available pursuant to public law                                                   0                   (10,000)
    Permanently not available                                                                     (7,967)                    (4,056)
    Total Budgetary Resources                                                    $          34,856,296      $          40,567,987

    Status of Budgetary Resources:
    Obligations incurred:
         Direct                                                                  $          12,924,634      $          12,428,730
         Reimbursable                                                                       10,862,510                  10,621,196
         Subtotal                                                                $           23,787,144     $          23,049,926
    Unobligated balance:
         Apportioned                                                             $           10,401,348     $          16,440,183
         Exempt from apportionment                                                               667,784                1,077,729
         Subtotal                                                                $            11,069,132    $           17,517,912
    Unobligated balance not available                                                                 20                       149
    Total status of budgetary resources                                          $          34,856,296      $          40,567,987
    Change in Obligated Balance:
    Obligated balance, net
         Unpaid obligations, brought forward, October 1                          $            11,126,133    $          9,392,894
         Less: Uncollected customer payments
              from federal sources, brought forward, October 1                               (3,253,339)             (5,418,018)
         Total unpaid obligated balance                                          $            7,872,794     $         3,974,876
    Obligations incurred net                                                                  23,787,144           23,049,926
    Less: Gross outlays                                                                     (21,738,539)           (20,453,837)
    Less: Recoveries of prior year unpaid obligations, actual                                    (40,133)              (862,852)
    Change in uncollected customer payments from federal sources                                187,934               2,164,678
    Obligated balance, net, end of period
         Unpaid obligations                                                                  13,134,605                 11,126,133
         Less: Uncollected customer payments from federal sources                            (3,065,405)               (3,253,339)
         Total, unpaid obligated balance, net, end of period                     $          10,069,200      $           7,872,794
    Net Outlays:
         Gross outlays                                                           $          21,738,539      $          20,453,837
         Less: Offsetting collections                                                        (11,115,071)              (13,007,784)
         Less: Distributed offsetting receipts                                                 (708,601)                  (583,187)
         Net Outlays                                                             $           9,914,867      $           6,862,866


    The accompanying notes are an integral part of these financial statements.



36	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Note 1. 	 Significant Accounting Policies                                                                                       37




                                                                                                                                Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
1.A. Mission of the Reporting Entity
The primary mission of the U.S. Army Corps of Engineers (USACE) Civil Works Program includes maintaining navigation
channels, reducing flooding, assisting during natural disasters and other emergencies, and making waterways passable. The
Civil Works Program also supports the Department of Homeland Security in carrying out the National Response Plan. The
USACE’s primary role in support of this plan is to provide emergency support in areas of public works and engineering.
The USACE responds to more than 30 presidential disaster declarations in a typical year, and its highly trained workforce is
prepared to deal with both man-made and natural disasters.


1.B. Basis of Presentation and Accounting
These financial statements have been prepared to report the financial position and results of operations of the USACE, as
required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994. The
financial statements have been prepared from the books and records of the USACE in accordance with U.S generally accepted
accounting principles (GAAP) for federal entities and the formats prescribed by the Office of Management and Budget
(OMB) Circular Number (No.) A-136, Financial Reporting Requirement. The accompanying financial statements account for
all Civil Works resources for which the USACE is responsible.

The accounting structure of federal agencies is designed to reflect both accrual and budgetary accounting transactions. Under
the accrual method of accounting, revenues are recognized when earned and expenses are recognized when incurred without
regard to the receipt or payment of cash. The budgetary accounting principles, on the other hand, are designed to recognize
the obligation of funds according to legal requirements, which in many cases is prior to the occurrence of an accrual-based
transaction. The recognition of budgetary accounting transactions is essential for compliance with legal constraints and
controls over the use of federal funds.

The USACE has presented comparative financial statements for the Consolidated Balance Sheet, Consolidated Statements of
Net Cost and Changes in Net Position, and Combined Statement of Budgetary Resources, in accordance with OMB financial
statement reporting guidelines.

The USACE’s financial management system meets all of the requirements for full accrual accounting. The USACE transactions
are recorded on an accrual accounting basis as required by GAAP.


1.C. Fund Types
General funds are used for financial transactions funded by congressional appropriations, including personnel, operation and
maintenance, research and development, procurement, and construction accounts.

Revolving funds received funding to establish an initial corpus through an appropriation or a transfer of resources from
existing appropriations or funds. The corpus finances operations and transactions that flow through the fund. The revolving
fund resources the goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable
receipts fund future operations and generally are available in their entirety for use without further congressional action.

Special funds are used to record government receipts reserved for a specific purpose.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute.
   Contributed funds are received from the public for construction of assets under local cost sharing agreements.

   The USACE trust, contributed, and special funds are designated as earmarked funds. Earmarked funds are financed by
   specifically identified revenues, required by statute to be used for designated activities, benefits or purposes, and remain
   available over time. The USACE is required to separately account for and report on the receipt, use, and retention of revenues
   and other financing sources for earmarked funds.

   Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They are
   not USACE funds, and as such, are not available for the USACE’s operations. The USACE is acting as an agent or a custodian
   for funds awaiting distribution.

   Clearing accounts are used to record the amount of unprocessed intragovernmental payments and collections transmitted to
   the USACE from other federal agencies.

   Receipt accounts are used to record amounts such as interest, land lease proceeds, fines and penalties that are deposited in the
   U.S. Treasury.

   A summary of USACE accounts follows:

    General Funds
       96X3112 Flood Control, Mississippi River and Tributaries
        96 3113 Mississippi River and Tributaries - Recovery Act
       96X3121 Investigations
        96 3121 Investigations (fiscal year)
       96X3122 Construction
        96 3122 Construction (fiscal year)
       96X3123 Operation and Maintenance, General
        96 3123 Operation and Maintenance, General
       96X3124 General Expenses
        96 3124 General Expenses (fiscal year)
       96X3125 Flood Control and Coastal Emergencies
        96 3125 Flood Control and Coastal Emergencies (fiscal year)
       96X3126 Regulatory Program
       96X3128 Washington Aqueduct Capital Improvements
        96 3129 Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
       96X3130 Formerly Utilized Sites Remedial Action Program
       96X3132 Office of Assistant Secretary of the Army, Civil Works
        96 3132 Office of Assistant Secretary of the Army, Civil Works (fiscal year)
        96 3133 Investigations - Recovery Act
        96 3134 Construction – Recovery Act
        96 3135 Operation and Maintenance – Recovery Act
        96 3136 Regulatory Program – Recovery Act
        96 3137 Formerly Utilized Sites Remedial Action Program – Recovery Act
        96 3138 General Expenses – Recovery Act
       96X6094 Advances from the District of Columbia
    Revolving Funds
       96X4902 Revolving Fund



38	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
 Special Funds                                                                                                                 39

    96X5007 Special Recreation Use Fees




                                                                                                                               Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
    96X5066 Hydraulic Mining in California, Debris
    96X5090 Payments to States, Flood Control Act of 1954
    96X5125 Maintenance and Operation of Dams and Other Improvements of Navigable Waters
    96X5493 Fund for Non-Federal Use of Disposal Facilities
     96 5493 Fund for Non-Federal Use of Disposal Facilities
 Trust Funds
    96X8217 South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
    96X8333 Coastal Wetlands Restoration Trust Fund
    96X8861 Inland Waterways Trust Fund
    96X8863 Harbor Maintenance Trust Fund
 Trust Funds (Contributed)
    96X8862 Rivers and Harbors Contributed and Advance Funds
 Deposit Funds
    96X6500 Advances Without Orders from Non-Federal Sources
    96X6501 Small Escrow Amounts
 Clearing Accounts
    96F3875 Budget Clearing Account (suspense)
    96F3880 Unavailable Check Cancellations and Overpayments (suspense)
    96F3885 Undistributed Intragovernmental Payments
 Receipt Accounts
    96R0891 Miscellaneous Fees for Regulatory and Judicial Services, Not Otherwise Classified
    96R1060 Forfeitures of Unclaimed Money and Property
    96R1099 Fines, Penalties, and Forfeitures, Not Otherwise Classified
    96R1299 Gifts to the United States, Not Otherwise Classified
    96R1435 General Fund Proprietary Interest, Not Otherwise Classified
    96R3220 General Fund Proprietary Receipts, Not Otherwise Classified, All Other
    96R5005 Land and Water Conservation Fund
    96R5007 Special Recreation Use Fees
    96R5066 Hydraulic Mining in California
    96R5090 Receipts from Leases of Lands Acquired for Flood Control, Navigation, and Allied Purposes
    96R5125 Licenses under Federal Power Act, Improvements of Navigable Waters, Maintenance and Operation of
               Dams, etc., (50%)
    96R5493 User Fees, Fund for Non-Federal Use of Disposal Facilities
    96R8862 Contributions and Advances, Rivers and Harbors


1.D. Financing Sources
The USACE receives federal funding through the annual Energy and Water Development Appropriations Act. Funding also
comes from nonfederal project sponsors who share in project costs according to formulas established by project authorization
acts. A third source of funding comes through the Support for Others Program, which is conducted under reimbursable
agreements with federal agencies.

The USACE receives its appropriations and funds as general, revolving, trust, special, and deposit funds. The USACE uses
these appropriations and funds to execute its mission and subsequently report on resource usage.
   The USACE received borrowing authority from the U.S. Treasury to finance capital improvements to the Washington
   Aqueduct.

   The USACE receives congressional appropriations as financing sources that expire annually, on a multi-year basis, or do not
   expire. When authorized by legislation, these appropriations are supplemented by revenues generated by sales of services. The
   USACE recognizes revenue as a result of costs incurred for goods or services provided to other federal agencies and the public.
   Full-cost pricing is the USACE’s standard policy for goods or services provided as required by OMB Circular No. A-25, User
   Charges.

   The USACE records two types of revenue: exchange and nonexchange. Exchange revenue is the inflow of resources that
   the USACE has earned by providing something of value to the public or another federal entity at a price. The main sources
   of exchange revenue are customer orders (reimbursable agreements), cost-sharing revenue, and long-term water storage
   agreements.

   Customer orders are contracts when the USACE provides services under a reimbursable agreement; the related revenue and
   accounts receivable are recorded simultaneously along with the costs and payables. For nonfederal entities, an advance payment
   is required and the USACE records advances from others. The USACE reduces the advances and recognizes revenue as services
   are provided.

   Cost-sharing revenue arises from agreements under which the USACE constructs assets, the cost of which will be borne in
   part by another entity (sponsor). Throughout the life of a cost-share project, USACE revenue is earned based on the sponsor’s
   proportionate share of project costs incurred. Sponsors are generally required to provide funds in advance and the USACE
   records deferred credits. The USACE reduces the deferred credits and recognizes revenue at the time of the withdrawal for
   costs incurred.

   Nonexchange revenue represents resources received by the USACE when a good or service is not provided in exchange for that
   revenue. Nonexchange revenue generally consists of interest earned on investments from excise taxes and port fees, penalties,
   and donations.


   1.E. Recognition of Expenses
   The USACE recognizes expenses in the period incurred or consumed. The USACE’s expenditures for capital assets are
   recognized as operating expenses as the assets are depreciated or amortized.


   1.F. Accounting for Intragovernmental Activities
   The USACE eliminates transactions within the USACE Civil Works Program in these consolidated financial statements.
   Accounting standards require that an entity eliminate intraentity activity and balances from consolidated financial statements
   in order to prevent overstatement for business with itself.

   Generally, financing for the construction of the USACE’s facilities is obtained through appropriations. To the extent this
   financing ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized
   because the U.S. Treasury does not allocate such costs to the USACE.

   In accordance with Statement of Federal Financial Accounting Standard (SFFAS) No. 4, “Managerial Cost Accounting
   Concepts and Standards,” the USACE recognizes imputed financing and cost for unreimbursed goods and services provided
   by others. These costs include unreimbursed rent, interest during construction, Judgment Fund payments on behalf of the
   USACE, and employee benefits.


40	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
1.G. Entity and NonEntity Assets                                                                                                   41


The assets are categorized as entity or nonentity. Entity assets consist of resources that the USACE has the authority to use or




                                                                                                                                   Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
when management is legally obligated to use funds to meet entity obligations. Nonentity assets consist of resources for which
the USACE maintains stewardship accountability and responsibility to report but are not available for the USACE operations.


1.H. Funds with the U.S. Treasury
The USACE’s monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices of the USACE
Finance Center (UFC), the Defense Finance and Accounting Service (DFAS), and the Department of State’s financial service
centers process the majority of the USACE’s cash collections, disbursements, and adjustments worldwide. Each disbursing
station prepares monthly reports that provide information to the U.S. Treasury on checks issued, electronic fund transfers,
interagency transfers, and deposits.

In addition, UFC and DFAS sites submit reports to the U.S. Treasury by appropriation on interagency transfers, collections
received, and disbursements issued. The U.S. Treasury records this information to the applicable Fund Balance with Treasury
(FBWT) account. Differences between the USACE’s recorded balance in FBWT accounts and U.S. Treasury’s FBWT accounts
sometimes result and are subsequently reconciled on a monthly basis.


1.I. Investments
The USACE reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or
discounts are amortized over the term of the investment using the effective interest rate method or another method obtaining
similar results. The USACE’s intent is to hold investments to maturity, unless they are needed to finance claims or otherwise
sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

The Bureau of the Public Debt, on behalf of the USACE, invests in nonmarketable securities. Nonmarketable, market-based
intragovernmental securities mimic marketable securities, but are not publicly traded.

The USACE’s net investments are held by the South Dakota Terrestrial Habitat Restoration, Inland Waterways, and Harbor
Maintenance trust funds.


1.J. Accounts Receivable
Accounts receivable includes three categories: accounts, claims, and refunds receivable from other federal entities or from the
public. The USACE bases the allowance for uncollectible accounts receivable due from the public on established percentages
per aged category of the cumulative balance of delinquent public receivables. The USACE regards its intragovernmental
accounts receivable balance as fully collectible.

Accounts receivable also include amounts stemming from long-term water storage agreements based on the cost of
construction to be recouped by the USACE from the municipality. The USACE performs an analysis of the collectability of
the receivables periodically and recognizes an allowance for estimated uncollectible amounts from the municipality.


1.K. Operating Materials and Supplies
The USACE operating materials and supplies are stated at historical cost under the moving average cost method and are
adjusted for the results of physical inventories. Operating materials and supplies are expensed when consumed.
   1.L. General Property, Plant and Equipment
   With the exception of buildings and structures related to hydropower projects, which are capitalized regardless of cost, the
   USACE GPP&E is capitalized at historical acquisition cost plus capitalized improvements when an asset has a useful life of
   two or more years and the acquisition cost exceeds $25,000.

   When it is in the best interest of the government, the USACE provides government property to contractors to complete
   contract work. The USACE either owns or leases such property or it is purchased directly by the contractor for the government
   based on contract terms. When the value of contractor-procured general PP&E exceeds the Department of Defense
   capitalization threshold, it is reported on the USACE’s Balance Sheet.

   The USACE uses estimates to support the historical costs of its real property assets, including the administrative costs of
   land, acquired prior to fiscal year (FY) 1999, and personal property assets acquired prior to FY 2003. The alternate methods
   are necessary because certain supporting documentation to substantiate recorded costs for those assets is no longer available.
   Management’s alternate methods, which are consistent with the principles, relevant to USACE circumstances, as contained
   in SFFAS No. 6, “Accounting for Property, Plant and Equipment” and SFFAS No. 23, “Eliminating the Category National
   Defense Property, Plant And Equipment,” consist of using a combination of appropriation or engineering documents, or other
   available real estate, financial and operations data, combined with written management attestation statements, to estimate and
   support the original acquisition or construction costs recorded for each asset.

   Construction-in-progress (CIP) is used to accumulate the cost of construction and accumulated costs are transferred from CIP
   to the relevant asset category when an asset is completed.


   1.M. Leases
   Lease payments for the rental of equipment and operating facilities are classified as operating leases. An operating lease does
   not substantially transfer all the benefits and risk of ownership. Payments for operating leases are charged to expense over the
   lease term as it becomes payable.


   1.N. Other Assets
   Other assets include travel advances that are not reported elsewhere on the USACE Balance Sheet.


   1.O. Accounts Payable
   Accounts payable are the amounts owed, but not yet paid, by the USACE for goods and services received from other
   entities, progress in contract performance made by other entities, and rents due to other entities. The USACE has no known
   delinquent accounts payable.


   1.P. Debt
   The USACE debt consists of the amount owed to the U.S. Treasury for capital improvements to the Washington Aqueduct.
   The USACE entered into agreement with Arlington County and the City of Falls Church, Virginia, to provide funding to the
   USACE to repay the debt.




42	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
1.Q. Due to Treasury – General Fund                                                                                                  43


The USACE reported an offsetting custodial liability for amounts Due to Treasury – General Fund for interest and accounts




                                                                                                                                     Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
receivable which, when collected, will be deposited in the U.S. Treasury.


1.R. Federal Employee and Veterans’ Benefits
The Federal Employees and Veterans’ Benefits liability consists of the actuarial liability for Federal Employees Compensation
Act benefits. The Department of the Army (DA) actuarial liability for workers’ compensation benefits is developed by the
Department of Labor and provided to the DA at the end of each fiscal year. The liability for future workers’ compensation
benefits includes the expected liability for death, disability, medical and miscellaneous costs for approved compensation cases,
plus a component for incurred-but-not-reported claims. The liability is determined using a method that utilizes historical
benefit payment patterns related to a specific incurred period to predict the ultimate payments related to that period.
Consistent with past practice, these projected annual benefit payments have been discounted to present value using OMB’s
economic assumptions for 10-year U.S. Treasury notes and bonds.


1.S. Other Liabilities
The USACE reports a liability for funded payroll and benefits, to include civilian earned leave, except sick leave, that has been
accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the
accounting period reflects current pay rates.

The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition
of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future
events occur or fail to occur. The USACE recognizes contingent liabilities when past events or exchange transactions occur,
a future loss is probable, and the loss amount can be reasonably estimated. The USACE discloses contingent liabilities when
conditions for liability recognition do not exist but there is at least a reasonable possibility of incurring a loss or additional
losses.

Examples of loss contingencies include the collectability of receivables, pending or threatened litigation, and possible claims
and assessments. The USACE’s risk of loss and resultant contingent liabilities arise from pending or threatened litigation or
claims and assessments due to events such as aircraft, ship, and vehicle accidents; property or environmental damages; and
contract disputes.


1.T. Environmental and Disposal Liabilities
Environmental and disposal liabilities include future costs to address government-related environmental contamination at
USACE sites and other sites at which the USACE is directed by the Congress to perform remediation work. The USACE
recognizes a liability for each site as the need for cleanup work becomes probable and costs, based on site-specific engineering
estimates, become measurable. Costs to address environmental contamination not caused by the government are recorded
as incurred. Cleanup remedies are selected from feasible alternatives using the decision-making process prescribed by the
Comprehensive Environmental Response, Compensation, and Liability Act.


1.U. Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources are those liabilities for which congressional action is needed before budgetary
resources can be provided.
   1.V. Net Position
   Net Position consists of unexpended appropriations and cumulative results of operations.

   Unexpended Appropriations include the amounts of authority that are unobligated and have not been rescinded or withdrawn.
   Unexpended Appropriations also include amounts obligated for which legal liabilities for payments have not been incurred.

   Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses, and
   financing sources (including appropriations, revenue, and gains).


   1.W. Allocation Transfers
   The USACE is a party to allocation transfers with other federal agencies both as a transferring (parent) entity and receiving
   (child) entity. Allocation transfers are legal delegations by one agency of its authority to obligate budget authority and outlay
   funds to another agency. A separate fund account (allocation account) is created in the U.S. Treasury as a subset of the
   parent fund account for tracking and reporting purposes. All allocation transfers of balances are credited to this account, and
   subsequent obligations and outlays incurred by the child entity are charged to this allocation account as they execute the
   delegated activity on behalf of the parent entity. Generally, all financial activity related to these allocation transfers (e.g., budget
   authority, obligations, outlays) is reported in the financial statements of the parent entity, from which the underlying legislative
   authority, appropriations, and budget apportionments are derived. Exceptions to this general rule affecting the USACE include
   certain U.S. Treasury-Managed Trust Funds for which the USACE is the parent in the allocation transfer, but per OMB
   guidance, the child agencies will report budgetary and proprietary activity relative to these allocation transfers in their financial
   statements. The U.S. Treasury-Managed Trust Funds, which are included in the USACE financial statements, are South
   Dakota Terrestrial Wildlife Habitat Restoration, Inland Waterways, and Harbor Maintenance trust funds. The U.S. Treasury,
   Bureau of the Public Debt, on behalf of the USACE, makes allocation transfers from the Harbor Maintenance Trust Fund to
   the Saint Lawrence Seaway Development Corporation and the U.S. Customs and Border Protection agency.

   In addition to these funds, the USACE received allocation transfers, as the child, from Departments of Agriculture, Interior,
   Transportation, and Energy and the Appalachian Regional Commission.


   1.X. Reclassifications
   Certain reclassifications have been made to the FY 2009 Statement of Changes in Net Position between Earmarked and Other
   Funds to conform to the FY 2010 presentation.




44	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Note 2. 	 Nonentity Assets                                                                                                           45




                                                                                                                                     Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
 As of September 30                                                                   2010                        2009
 (Amounts in thousands)
 Nonentity Assets
 Intragovernmental Assets
     Fund Balance with Treasury                                            $                  20,783    $                   10,630
     Accounts Receivable                                                                           0                             1
     Total Intragovernmental Assets                                        $                  20,783    $                   10,631
     Cash and Other Monetary Assets                                        $                     972    $                    1,356
     Accounts Receivable                                                                   2,484,625                   2,396,350
     Total Nonfederal Assets                                               $               2,485,597    $                2,397,706
 Total Nonentity Assets                                                    $              2,506,380     $               2,408,337
 Total Entity Assets                                                                      55,600,156                   57,883,196
 Total Assets                                                              $              58,106,536    $              60,291,533


Other Information

Intragovernmental Nonentity Fund Balance with Treasury consists of amounts collected into deposit and suspense accounts
and is not available for use in operations. Deposit and suspense accounts are used to record amounts held temporarily until
ownership is determined. The USACE is acting as an agent or custodian for funds awaiting distribution.

Intragovernmental Nonentity Accounts Receivable consists of a receivable from the U.S. Coast Guard within the Department
of Homeland Security for the usage of dredge disposal areas. Nonentity Accounts Receivable are recorded in unavailable
receipt accounts and funds will be returned to the U.S. Treasury when collected. The USACE does not have specific statutory
authority to keep the receipts.

Cash and Other Monetary Assets reflect the disbursing officer’s accountability which is comprised of change funds for
recreation cashiers, disbursing officer’s cash, and foreign currency. The Disbursing Officer acts as an agent for the U. S.
Treasury.

Nonfederal Accounts Receivable represent all receivables from nonfederal sources when the USACE does not have specific
statutory authority to retain the receipts. These receivables consist of multiple types of long-term agreements such as easements,
sale of hydro-electric power, recreational development, and long-term water storage agreements.

Note 1.J and Note 5, Accounts Receivable, and Note 13, Due to Treasury – General Fund and Other Liabilities, provide
additional information related to long-term water storage agreements.


Note 3. 	 Fund Balance with Treasury
 As of September 30                                                                   2010                         2009
 (Amounts in thousands)
 Fund Balances
    General Funds                                                           $             18,099,959 $                 22,349,179
    Revolving Funds                                                                         1,541,288                   1,552,006
    Trust Funds                                                                                98,615                      74,694
    Special Funds                                                                              70,502                        9,179
    Contributed Funds                                                                         954,923                      850,191
    Other Fund Types                                                                           74,522                     104,375
    Total Fund Balances                                                     $             20,839,809 $                 24,939,624
   Status of Fund Balance with Treasury
    As of September 30                                                                       2010                          2009
    (Amounts in thousands)
    Unobligated Balance
       Available                                                                  $               11,069,132 $                 17,517,912
       Unavailable                                                                                        20                          149
    Obligated Balance not yet Disbursed                                                          13,134,605                    11,126,133
    Nonbudgetary FBWT                                                                                 81,229                       10,445
    Non FBWT Budgetary Accounts                                                                  (3,445,177)                  (3,715,015)
    Totals                                                                        $             20,839,809 $                 24,939,624


   Other Information

   The status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the FBWT and is a
   reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The
   balances reflect the budgetary authority remaining for disbursement against current or future obligations.

   Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
   that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested in
   U.S. Treasury securities that are temporarily precluded from obligation by law. Certain unobligated balances are restricted for
   future use and are not apportioned for current use. Unobligated balances for trust fund accounts are restricted for use by the
   public law that established the funds. The USACE is the lead agency for reporting the financial data for the Inland Waterways,
   Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat Restoration trust funds. These trust funds remain
   invested and restricted for use until transferred to meet current expenditure requirements.

   Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received and those
   received but not paid.

   Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit and clearing accounts.

   Non FBWT Budgetary Accounts reduced the status of FBWT and include borrowing authority, investment accounts,
   Accounts Receivables and unfilled orders without advance from customers.


   Note 4. 	 Investments and Related Interest
    As of September 30                                                                        2010
                                                                                           Amortized
                                                                       Amortization       (Premium) /                        Market Value
    (Amounts in thousands)                                 Cost          Method            Discount     Investments, Net      Disclosure
    Intragovernmental Securities
                                                                         Effective
        Nonmarketable, Market-Based                  $    5,716,802      interest     $        (11,197) $   5,705,605 $        5,987,352
        Accrued Interest                                     35,708           -                      0          35,708            35,708
        Total Intragovernmental Securities           $    5,752,510                   $        (11,197) $    5,741,313 $       6,023,060




46	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
                                                                                                                                                47
 As of September 30                                                                         2009
                                                                                         Amortized




                                                                                                                                                Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                   Amortization         (Premium) /                             Market Value
 (Amounts in thousands)                               Cost           Method              Discount        Investments, Net        Disclosure
 Intragovernmental Securities
                                                                     Effective
    Nonmarketable, Market-Based                  $   5,239,501       interest       $       (41,650) $           5,197,851 $       5,363,161
    Accrued Interest                                    30,195           -                        0                 30,195            30,195
    Total Intragovernmental Securities           $   5,269,696                      $       (41,650) $         5,228,046 $        5,393,356


Other Information

The federal government does not set aside assets to pay future benefits or other expenditures associated with earmarked funds.
The cash receipts collected from the public for an earmarked fund are deposited in the U.S. Treasury, which uses the cash
for general government purposes. Treasury securities are issued to the USACE as evidence of its receipts. Treasury securities
are assets to the USACE and liabilities to the U.S. Treasury. Because the USACE and the U.S. Treasury are both parts of the
government, these assets and liabilities offset each other from the standpoint of the government as a whole. For this reason,
they do not represent an asset or a liability in the U.S. Governmentwide financial statements.

Treasury securities provide the USACE with authority to draw upon the U.S. Treasury to make future benefit payments
or other expenditures. When the USACE requires redemption of these securities to make expenditures, the government
finances those expenditures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the
public or repaying less debt, or by curtailing other expenditures. This is the same way that the government finances all other
expenditures.

The breakdown of total net investments among the trust funds for FY 2010 is as follows: $5.6 billion in the Harbor
Maintenance Trust Fund, $53.0 million in the Inland Waterways Trust Fund, and $131.0 million in the South Dakota
Terrestrial Wildlife Habitat Restoration Trust Fund.

The breakdown of total net investments among the trust funds for FY 2009 is as follows: $5.0 billion in the Harbor
Maintenance Trust Fund, $60.0 million in the Inland Waterways Trust Fund, and $131.6 million in the South Dakota
Terrestrial Wildlife Habitat Restoration Trust Fund.

The U.S. Treasury also provides the investment market value based on the bid price provided by the Federal Reserve Bank of
New York on September 30, 2010, and September 30, 2009, respectively.


Note 5. 	 Accounts Receivable, Net
 As of September 30                                                                                   2010
                                                                                          Allowance For Estimated        Accounts Receivable,
 (Amounts in thousands)                                          Gross Amount Due              Uncollectibles                    Net
 Intragovernmental Receivables                               $              498,100                            N/A $                498,100
 Nonfederal Receivables (From the Public)                                2,505,004 $                          (627)               2,504,377
 Total Accounts Receivable                                   $            3,003,104 $                         (627) $             3,002,477

 As of September 30                                                                                   2009
                                                                                          Allowance For Estimated        Accounts Receivable,
 (Amounts in thousands)                                          Gross Amount Due              Uncollectibles                    Net
 Intragovernmental Receivables                               $                 594,679                          N/A $                594,679
 Nonfederal Receivables (From the Public)                                    2,419,528 $                     (3,974)               2,415,554
 Total Accounts Receivable                                   $               3,014,207 $                     (3,974) $             3,010,233
   Other Information

   As of September 30, 2010, and September 30, 2009, Accounts Receivables Intragovernmental include $412.7 million and
   $467.1 million, respectively, for amounts from the Coastal Wetlands Restoration Trust Fund for projects in the New Orleans
   District.

   As of September 30, 2010, and September 30, 2009, Accounts Receivable from the Public, net of allowances, stemming
   from long-term water storage and Louisiana coastal restoration, flood control and hurricane protection agreements include
   $2.3 billion and $2.2 billion, respectively. These agreements have maturity dates ranging from 2 to 50 years and interest rates
   based on the U.S. Treasury effective rate at the time of the agreement.


   Note 6. 	 Cash and Monetary Assets
    As of September 30                                                                   2010                         2009
    (Amounts in thousands)
    Cash                                                                       $                      14 $                         47
    Foreign Currency                                                                                 958                        1,309
    Total Cash and Foreign Currency                                            $                     972 $                      1,356


   Other Information

   Cash is the total of cash resources under the control of the USACE, which includes coin, paper currency, negotiable
   instruments, and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S.
   dollar equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

   The USACE conducts operations overseas on behalf of the U.S. Government which involves the use of foreign currency.
   Foreign currency fluctuations require adjustments to the original obligation amount at the time of payment. The USACE does
   not separately identify currency fluctuations.

   The USACE translates foreign currency to U.S. dollars utilizing the U.S. Treasury prevailing rate of exchange. This rate is the
   most favorable rate that would legally be available to the federal government for acquisition of foreign currency for its official
   disbursements and accommodation of exchange transactions. There are no significant effects from changes in the foreign
   currency exchange rate.


   Note 7. 	 Operating Materials and Supplies
    As of September 30                                                                   2010                         2009
    (Amounts in thousands)
    Operating Materials & Supplies:
       Items Held for Use                                                      $                 156,518 $                   128,169
    Totals                                                                     $                 156,518 $                   128,169


   Other Information

   Operating materials and supplies (OM&S) are comprised of personal property to be consumed in normal operations. The
   OM&S category includes materials used for constructing riverbank stabilization devices, spare and repair parts, miscellaneous
   office supplies, and prepaid postage. The USACE applies moving average cost flow assumptions to arrive at the historical cost
   of the ending OM&S and cost of goods consumed.



48	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
As of September 30, 2010, there were no differences between the carrying amount and the net realizable value of OM&S.                     49
As of September 30, 2009, there were differences between the carrying amount and the net realizable value of OM&S of




                                                                                                                                          Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
$14.9 thousand, due to excess, obsolete, or unserviceable items. There are no restrictions on the use of OM&S.

The USACE maintains OM&S stocks because many unique materials and supplies are not readily available in the market and
will eventually be needed.

As of September 30, 2010 and 2009, the USACE did not have inventories, stockpile materials, seized or forfeited properties,
or goods held under price support and stabilization programs, as defined in Statement of Federal Financial Accounting
Standards No. 3, “Accounting for Inventory and Related Property.”


Note 8. 	 General,Property, Plant & Equipment, Net
 As of September 30                                                                          2010
                                              Depreciation/                                         (Accumulated
                                              Amortization     Service                              Depreciation/
 (Amounts in thousands)                         Method         Life (yrs)       Acquisition Value   Amortization)      Net Book Value
 Major Asset Classes
   Land                                           N/A            N/A        $         8,978,995              N/A $          8,978,995
   Buildings, Structures, and Facilities          S/L          20 - 100              29,647,022 $    (14,891,262)          14,755,760
   Leasehold Improvements                         S/L         Lease term                 43,789          (39,899)               3,890
    Software                                      S/L           2 - 10                   90,072          (80,822)               9,250
    General Equipment                             S/L           5 - 50                1,623,917          (818,131)           805,786
    Construction-in-Progress                      N/A            N/A                  3,811,484              N/A            3,811,484
 Total General PP&E                                                         $        44,195,279 $     (15,830,114) $       28,365,165


 Legend for Depreciation Methods:
 S/L = Straight Line   N/A = Not Applicable



 As of September 30                                                                         2009
                                              Depreciation/                                           (Accumulated
                                              Amortization     Service               Acquisition      Depreciation/
 (Amounts in thousands)                         Method         Life (yrs)              Value          Amortization)      Net Book Value
 Major Asset Classes
    Land                                          N/A            N/A        $        8,958,792                N/A $        8,958,792
    Buildings, Structures, and Facilities         S/L          20 - 100             28,534,507 $     (14,443,620)         14,090,887
    Leasehold Improvements                        S/L         Lease term                 41,587            (35,751)             5,836
    Software                                      S/L           2 - 10                   94,574           (84,408)             10,166
    General Equipment                             S/L           5 - 50                1,524,213          (771,677)           752,536
    Construction-in-Progress                      N/A            N/A                  3,165,519               N/A           3,165,519
    Other                                                                                     8                 (2)                 6
 Total General PP&E                                                         $       42,319,200 $     (15,335,458) $       26,983,742


Other Information

The USACE currently operates and maintains 75 hydroelectric power plants, generating approximately 24 percent of
America’s hydroelectric power. All power generated by these hydroelectric power plants is transmitted to four Power Marketing
Administrations for distribution to power companies across the U.S. The service life for the USACE’s hydropower project
related assets is derived from guidance provided by the Federal Energy Regulatory Commission based on industry standards.
The hydropower project related assets make up $9.4 billion of the book value of the USACE’s PP&E in FY 2010 and
$9.8 billion in FY 2009.
   As of September 30, 2010, the USACE recognized a loss of $21.4 million on general property, plant, and equipment (PP&E)
   that had been removed from service based on SFFAS No. 6, “Accounting for Property, Plant, and Equipment.” The loss
   recognized as of September 30, 2009, was $44.5 million.

   As of September 30, 2010, and 2009, approximately $26.3 billion of the acquisition value recorded in the PP&E line is being
   supported by alternate methods pursuant to the Memorandum of Agreement described in Note 1.L, General Property, Plant,
   and Equipment. The net book value is $11.4 billion at September 30, 2010, and $11.7 billion at September 30, 2009.

   There are no restrictions on the use or convertibility of general PP&E.


   Note 9. 	 Stewardship Property, Plant and Equipment
   Information Related to Stewardship Property, Plant and Equipment

   Stewardship property, plant and equipment (PP&E) are assets with properties resembling those of the general PP&E that are
   traditionally capitalized in the financial statements. Due to the nature of these assets, however, valuation would be difficult and
   matching costs with specific periods would not be meaningful. Stewardship PP&E includes heritage assets. Heritage assets are
   items of historical, natural, cultural, educational, or artistic significance, (e.g., aesthetic) or items with significant architectural
   characteristics. Heritage assets are expected to be preserved indefinitely.

   Relevance to the USACE Mission

   The USACE, as a steward of public land, has the responsibility for ensuring that properties of a historical or traditional nature
   located on USACE lands are preserved and managed appropriately. The USACE implements cultural resource management
   in a positive manner that fulfills the requirements of all laws, regulations, and policies, for all project undertakings in an
   environmentally and economically sound manner, and in the interest of the American public.

   Stewardship Policy

   The USACE has the responsibility to manage cultural resources on the USACE-owned lands. Engineering Regulations
   1105-2-100 and 1130-2-540 provide the basic guidance for the USACE Civil Works Program. The term “cultural resources”
   refers to any building, site, structure, object, or other material significant in history, architecture, archeology, or culture.
   Historic properties are sites that are eligible for inclusion in the National Register of Historic Places. The National Register
   is an inventory of historic properties important in our nation’s history, culture, architecture, archeology, and engineering.
   The National Register office in the National Park Service maintains the inventory. Properties are either listed on the National
   Register of Historic Places, have formally been determined eligible, or appear to meet eligibility criteria to be listed. In addition
   to the engineering regulations, the USACE also adheres to Army Regulations 200-4 and 870-20 related to managing cultural
   resources and heritage assets.

   Heritage Asset Categories

   1. Buildings and Structures. Buildings and structures are those listed on, or eligible for listing on, the National Register of
   Historic Places. Buildings and structures include a range of historic resources from a covered bridge in Sacramento District
   to early farming structures in Savannah District. They also include some nontraditional structures, such as a snag boat that
   operated on the Mississippi River. There are 95 buildings and structures listed on the National Register and 196 determined
   eligible for listing. There are a total of 291 heritage assets in this category; this reflects a reduction of 62 buildings and
   structures from the prior fiscal yearend report.




50	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
2. Archeological Sites. Cemeteries and archeological sites are archeological properties listed on or eligible for listing in the       51
National Register of Historic Places. The current National Register inventory for the USACE included 557 archeological




                                                                                                                                      Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
properties determined to be eligible for listing and 119 archeological properties listed. This total of 676 archeological sites
reflects an increase of 89 from the prior fiscal yearend report.

3. Museum Collection Items (Objects). Museum collection items are unique for one or more of the following reasons:
historical or natural significance; cultural, educational or artistic importance; or significant technical or architectural
characteristics. These items are divided into two subcategories: fine art and objects. These include museum collection items
that have historical or cultural significance, but lack formal listing and the demonstrated need for active maintenance.

                                          Heritage Assets as of September 30, 2010
                                       Buildings and Structures               291
                                       Archeological Sites                   676
                                       Museum Collection Items (objects)     195

Acquisition and Withdrawal of Heritage Assets

The USACE acquired a net of five heritage assets during FY 2010 from the “eligible for” listing. The USACE reported
this increase through its normal process of established regulations for listing of historic properties in the National Register
of Historic Places. The USACE provides this information to the keeper of the National Register of Historic Places at the
Department of the Interior, National Park Service. Heritage assets are not material to the mission of the USACE.

The USACE acquired one archeological site during FY 2009. The USACE discovered the site on the USACE land during
construction and was determined to preserve the site. The USACE provided this information to the keeper of the National
Register of Historic Places at the Department of the Interior, National Park Service.


Note 10. 	Liabilities Not Covered by Budgetary Resources
 As of September 30                                                                    2010                         2009
 (Amounts in thousands)
 Intragovernmental Liabilities
     Debt                                                                   $                    5,634   $                    8,074
     Due to Treasury - General Fund                                                         2,484,625                    2,396,351
     Other                                                                                     227,300                      222,199
 Total Intragovernmental Liabilities                                        $                2,717,559   $               2,626,624
     Federal Employee and Veterans’ Benefits                                                  243,460                       233,867
     Environmental and Disposal Liabilities                                                  1,038,122                   1,034,792
     Contingent Liabilities                                                                     40,489                       45,920
 Total Liabilities Not Covered by Budgetary Resources                       $               4,039,630    $               3,941,203
 Total Liabilities Covered by Budgetary Resources                                           3,723,356                    3,329,620
 Total Liabilities                                                          $               7,762,986    $                7,270,823


Other Information

Intragovernmental Liabilities – Debt is comprised of the amount owed by the USACE to the U.S. Treasury for capital
improvements to the Washington Aqueduct. Arlington County and the City of Falls Church, Virginia, provide funding to the
USACE to repay the debt. Refer to Note 11, Debt, for additional details and disclosures.
   Intragovernmental Liabilities – Due to Treasury - General Fund includes an offsetting custodial liability to accounts receivable.
   The custodial liability is for amounts that will be deposited in the general fund of the U.S. Treasury when collected and are
   primarily related to long term water storage, Louisiana coastal restoration, flood control and hurricane protection agreements.
   Budgetary resources are not required for these types of liabilities.

   Intragovernmental Liabilities – Other includes Judgment Fund liabilities-Contract Dispute Act (CDA), and workmen’s
   compensation liabilities under the Federal Employees Compensation Act (FECA). The USACE is seeking supplemental
   funding for the CDA liability. The FECA liability will not be funded until FY 2011.

   Federal Employee and Veterans’ Benefits include actuarial liability for FECA. Refer to Note 13, Due to Treasury - General Fund
   and Other Liabilities, for additional details and disclosures. The FECA actuarial liability is a future funded expense and will be
   funded in future appropriations.

   Environmental and Disposal Liabilities represent estimated cleanup costs for environmental liabilities, which will be funded in
   future appropriations. Refer to Note 12, Environmental and Disposal Liabilities, and Note 13, Due to Treasury - General Fund
   and Other Liabilities, for additional details and disclosures.

   Contingent liabilities represent probable losses related to lawsuits filed against the USACE. Contingent liabilities may be
   funded in future appropriations. Refer to Note 14, Contingencies, for additional details and disclosures.


   Note 11. 	Debt
    As of September 30                                                                          2010
    (Amounts in thousands)                                            Beginning Balance      Net Borrowing         Ending Balance
    Agency Debt (Intragovernmental)
    Debt to the Treasury                                          $                8,074 $             (2,440) $              5,634

    As of September 30                                                                          2009
    (Amounts in thousands)                                            Beginning Balance      Net Borrowing         Ending Balance
    Agency Debt (Intragovernmental)
    Debt to the Treasury                                          $               12,130 $             (4,056) $                 8,074

   Other Information

   The outstanding debt consists of interest and principal payments due to the U.S. Treasury. The USACE executed three
   promissory notes totaling $75.0 million with the U.S. Treasury for capital improvements to the Washington Aqueduct. The
   USACE entered into agreements with Arlington County and the City of Falls Church, Virginia, to provide funding to the
   USACE to repay the debt. The USACE recognized a receivable for $5.6 million in principal and current interest due from
   Arlington County and the City of Falls Church, Virginia, as of September 30, 2010. The remaining debt balance is scheduled
   to be paid off in FY 2023. Actual cumulative amount of funds borrowed from the U.S. Treasury is $74.9 million of which
   $5.6 million is outstanding at September 30, 2010, and $8.1 million is outstanding at September 30, 2009. There were no
   withdrawals from the U.S. Treasury for FY 2010 or FY 2009. Total principal repayments in FY 2010 were $2.4 million and
   total principal repayments in FY 2009 were $4.1 million.




52	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Note 12. 	Environmental and Disposal Liabilities                                                                                      53

 As of September 30                                                                    2010                        2009




                                                                                                                                      Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
 (Amounts in thousands)
 Formerly Utilized Sites Remedial Action Program (FUSRAP)                    $              1,026,985 $                   1,020,737
 Other                                                                                           11,137                      14,055
 Total Environmental and Disposal Liabilities                                $               1,038,122 $                  1,034,792


Assumptions and Uncertainties

Estimating environmental liabilities requires making assumptions about future activities and is inherently uncertain. The
cleanup estimates reflect local decisions and expectations as to the extent of cleanup and site reuse and include assessments
of the effort required to complete the project based on data collected during the remedial investigation and feasibility study
phases of each project. For most projects, the volume of contaminated material to be removed and the cost to dispose of such
material, including transportation, are the elements of the estimates with the greatest uncertainty and potential for significant
increase in project costs. The estimates include contingency provisions intended to account for the uncertainties associated
with estimating these elements and other factors.

The initial estimate of cleanup costs for each site is necessarily based on incomplete data. Estimates are refined as alternative
approaches and evaluated. A preferred alternative is approved in a record of decision.

The environmental liability estimates are dependent on annual funding levels and achievement of work as scheduled.
Congressional appropriations at lower than anticipated levels, unplanned delays in project completion, or future changes in
costs may cause actual costs to be higher than the recorded liability.

The USACE considers various key factors in determining whether future outflows of resources can be reasonably estimated,
including:

     n	 Completion of remedial investigation/feasibility study or other study
     n	 Experience with similar site and/or conditions
     n	 Availability of remediation technology

The environmental liabilities of $1 billion do not include sites where the USACE has identified likely contamination resulting
from past Tungsten Queen Mine related activities, but for which a reasonable estimate cannot be made.

Formerly Utilized Sites Remedial Action Program

The USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), established to respond to
radiological contamination from early U.S. Atomic Energy and Weapons Programs. For each FUSRAP site, the USACE has
received congressional authorization to ascertain the extent of environmental contamination; select a remedy with input from
state and federal authorities and local stakeholders; perform the cleanup work; and dispose of wastes. After cleanup work is
completed at each site, the USACE transfers responsibility to the U.S. Department of Energy for long-term surveillance and
monitoring.

Changes in the FUSRAP liability during the fiscal years ended September 30, 2010, and 2009 resulted from inflation
adjustments to reflect changes in costs for the current year, cleanup activities performed, and adjustments to estimates of soil
volumes.
   Other Environmental Liabilities

   Other environmental liabilities relate to environmental contamination at current or former the USACE project sites.


   Note 13. 	Due to Treasury – General Fund and Other Liabilities
    As of September 30                                                                                       2010
    (Amounts in thousands)                                                        Current Liability   Noncurrent Liability        Total
    Intragovernmental
        Due to Treasury-General Fund                                          $          191,960      $     2,292,665        $   2,484,625
        Advances from Others                                                            772,277                     0              772,277
        Deposit Funds and Suspense Account Liabilities                                      (130)                   0                  (130)
        Disbursing Officer Cash                                                              972                    0                   972
        Judgment Fund Liabilities                                                        176,981                    0               176,981
        FECA Reimbursement to the Department of Labor                                     22,026               28,293                50,319
        Employer Contribution and Payroll Taxes Payable                                   25,961                    0                25,961
    Total Intragovernmental                                                   $        1,190,047      $     2,320,958        $    3,511,005
        Accrued Funded Payroll and Benefits                                   $         530,682       $             0        $     530,682
        Advances from Others                                                             203,193                    0               203,193
        Deferred Credits                                                                950,285                     0              950,285
        Deposit Funds and Suspense Accounts                                               20,783                    0                20,783
        Contract Holdbacks                                                                65,031                    0                65,031
        Contingent Liabilities                                                            40,489                    0                40,489
    Total Other Liabilities                                                   $       3,000,510       $     2,320,958        $   5,321,468

    As of September 30                                                                                      2009
    (Amounts in thousands)                                                        Current Liability   Noncurrent Liability        Total
    Intragovernmental
        Due to Treasury –General Fund                                         $         136,215       $     2,260,136        $   2,396,351
        Advances from Others                                                  $         759,735       $             0        $     759,735
        Deposit Funds and Suspense Account Liabilities                                      (137)                   0                   (137)
        Disbursing Officer Cash                                                            1,356                    0                 1,356
        Judgment Fund Liabilities                                                        171,911                    0                171,911
        FECA Reimbursement to the Department of Labor                                     21,144               29,145               50,289
        Employer Contribution and Payroll Taxes Payable                                   21,754                 0.00                21,754
    Total Intragovernmental                                                   $        1,111,978      $     2,289,281        $   3,401,259
        Accrued Funded Payroll and Benefits                                   $         501,931       $             0        $      501,931
        Advances from Others                                                            158,429                     0              158,429
        Deferred Credits                                                               769,633                      0              769,633
        Deposit Funds and Suspense Accounts                                              10,630                     0                10,630
        Contract Holdbacks                                                               58,874                     0                58,874
        Contingent Liabilities                                                           45,920                     0                45,920
    Total Other Liabilities                                                   $       2,657,395       $     2,289,281        $   4,946,676


   Other Information

   Due to Treasury – General Fund. This amount is comprised of the custodial liability held with the U.S. Treasury for
   repayment of interest and accounts receivable which, when collected, will be deposited in the U.S. Treasury. The USACE
   records a custodial liability for payables from water storage and hydraulic mining contracts and for flood control, coastal
   restoration, and hurricane protection measures with the Coastal Protection and Restoration Authority of Louisiana.


54	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Judgment Fund Liabilities – The USACE has recognized an unfunded liability arising from Judgment Fund Contract                         55
Disputes Act (CDA) settlements in accordance with a provision of the CDA requiring agencies to reimburse the Judgment




                                                                                                                                       Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Fund for payments to claimants in cases involving federal contract disputes. The USACE cannot fund the CDA claims since it
is funded for projects and does not receive funding for this type of claim. The USACE sought supplemental appropriations for
payment of CDA claims in FY 2000, FY 2006, and FY 2007, but these requests were not approved. The FY 2010 budget does
not provide funding for payment of the CDA claims.


Note 14. 	Contingencies
Legal Contingencies

The USACE is a party in various administrative proceedings and legal actions related to claims for environmental damage,
equal opportunity matters, and contractual bid protests. The USACE has accrued contingent liabilities for legal actions when
the USACE’s Office of the Chief Counsel considers an adverse decision probable and the amount of loss is measurable. In the
event of an adverse judgment against the government, some of the liabilities may be payable from the U.S. Treasury’s Judgment
Fund. The USACE discloses amounts recognized as contingent liabilities in Note 13, Due to Treasury – General Fund and
Other Liabilities.

The U.S. Army Claims Service supervises processing, investigates, adjudicates, and negotiates the settlement of noncontractual
administrative claims on behalf of and against the Department of the Army (including the USACE); however, because of their
uniqueness, the hurricane Katrina-related administrative claims are processed by the U.S. Department of Justice (DOJ). By
law, administrative claims filed against the government are either adjudicated, denied, or are effectively denied if no action
is taken within six months from the claim filing date. Barring such resolution within six months from the date of filing,
claimants may file legal cases with the federal court. Filing of an administrative claim for resolution is a required precursor to a
claimant’s filing against the government in federal court.

Claims settled below the statutory threshold of $2,500 are paid using Civil Works appropriations; settlements above this
threshold are referred to the Judgment Fund for payment. With the exception of Contract Disputes Act settlements disclosed
in Note 13, amounts paid by the Judgment Fund are recorded as expenses and imputed financing sources.

Probable Likelihood of an Adverse Outcome

The USACE is subject to potential liabilities when adverse outcomes are probable. Claims for these potential liabilities are
approximately $40.5 million and $45.9 million as of September 30, 2010, and 2009, respectively. The contingent liabilities
were included in Note 13.

Reasonably Possible Likelihood of an Adverse Outcome

The USACE is subject to potential liabilities when adverse outcomes are reasonably possible. These claims are approximately
$10.4 billion and $5.6 billion as of September 30, 2010, and 2009, respectively.

Hurricane Katrina-Related Claims and Litigation

Various parties filed administrative claims and lawsuits against the USACE as a result of hurricane Katrina in 2005. Most of
the Katrina-related litigation is consolidated before a single federal judge sitting in the Federal District Court in New Orleans.
The Court, for case management purposes, has classified the individual cases into seven categories and ordered the filing of
superseding, master complaints in most categories: Levee, Mississippi River Gulf Outlet (MRGO), Insurance, Responder,
Dredging Limitation, St. Rita Nursing Home, and Barge. The MRGO category, the Barge category, and Robinson, involving
similar geographic areas, are most relevant to the USACE at this point.
   Concerning the Levee Master consolidated class action complaint, the Court granted the United States’ motion to dismiss. On
   October 14, 2010, the Court certified this decision as a final judgment. An appeal from this final judgment must be filed with
   the U.S. Fifth Circuit Court of Appeals by December 13, 2010.

   The government filed a motion to dismiss the MRGO case with regard to the application of the discretionary function
   exception to the activities performed at the East Bank Industrial Area (EBIA) on September 15, 2009, with an oral argument
   set for October 28, 2009. The Court has stayed the trial of the MRGO case pending resolution of the government’s motion.
   By Order entered February 2, 2010, the Court granted the motion dismissing EBIA allegations without prejudice, allowing for
   the refiling of those claims by those class representatives who had prematurely filed suit. Plaintiffs have subsequently refiled a
   new suit with the identical claims. The Court further allowed the consolidation of a suit by the Entergy power companies that
   raises these same MRGO and EBIA allegations and also specifically excluded Entergy from the MRGO stay imposed on other
   parties and litigation. The U.S. finally filed its motion to dismiss EBIA allegations on August 3, 2010, and oral argument was
   set for October 13, 2010.

   In the Ingram Barge case, by Order entered June 22, 2009, the Court severed and stayed the third party claims of Lafarge
   against the U.S. This stay is in effect until 90 days after a decision is rendered by the Fifth Circuit in Robinson or until 90 days
   after a final resolution of Robinson by the Supreme Court in the event that a writ of certiorari is sought, or until the passage
   of 18 months from the Order, whichever date is sooner. This order grants the United States’ motion brought as a result of the
   Court’s stay issued on May 4, 2009, in the MRGO category. As a result, the U.S. did not participate in the trial in this matter
   that began on June 21, 2010, and was set to conclude on July 9, 2010.

   The DOJ, which is responsible for litigating Katrina-related matters in federal court on behalf of the government, has
   concluded that there is a reasonable possibility that the Katrina-related administrative claims and court cases currently asserted
   could result in a loss to the federal government. The government is unable to estimate the amount of any loss that may result;
   however, the USACE has not recorded a provision for Katrina-related matters in the consolidated financial statements.

   Other Litigation

   In addition to the matters described above, the USACE is subject to other potential liabilities for which the exact amount or
   range of loss is unknown.

   Commitments and Other Contingencies

   The USACE does not have undelivered orders for open contracts citing cancelled appropriations which may remain unfilled or
   unreconciled and for which the reporting entity may incur a contractual commitment for payment.

   The USACE does not have contractual arrangements which may require financial obligations, such as fixed price contracts
   with escalations, price redetermination, or incentive clauses, which may require future financial obligations.


   Note 15. 	General Disclosures Related to the Statement of Net Cost
    As of September 30                                                                   2010                         2009
    (Amounts in thousands)
    Intragovernmental Costs                                                   $               1,579,695    $               1,284,049
    Public Costs                                                                              11,506,131                    9,876,751
    Total Costs                                                               $             13,085,826     $              11,160,800
    Intragovernmental Earned Revenue                                          $             (2,375,350)    $              (3,047,876)
    Public Earned Revenue                                                                      (639,244)                      (551,194)
    Total Earned Revenue                                                      $              (3,014,594)   $              (3,599,070)
    Net Cost of Operations                                                    $              10,071,232    $                7,561,730




56	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Other Information                                                                                                               57




                                                                                                                                Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Intragovernmental costs and revenue are related to transactions made between two reporting entities within the federal
government. Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The consolidated Statement of Net Cost (SNC) is unique because its principles are driven on understanding the net cost of
programs and/or organizations that the federal government supports through appropriations or other means. The SNC is
presented under the Civil Works Program for the USACE.

The USACE incurred no costs associated with acquiring, constructing, improving, reconstructing or renovating heritage assets,
or acquiring stewardship land.


Note 16. 	Disclosures Related to the Statement of Changes in Net Position
Other Information

Appropriations received on the Statement of Budgetary Resources (SBR) should not and do not agree with appropriations
received on the Statement of Changes in Net Position (SCNP) due to differences between proprietary and budgetary
accounting concepts and reporting requirements. The difference is due to additional resources of $1.4 billion during FY 2010
and $1.4 billion during FY 2009 in appropriated trust, contributed, and special fund receipts included in Appropriations on
the SBR. These funds do not update the proprietary appropriations received amount reported on the SCNP. Refer to Note 17,
Statement of Budgetary Resources, for additional disclosures and details.


Note 17. 	Disclosures Related to the Statement of Budgetary Resources
 As of September 30                                                                      2010                   2009
 (Amounts in thousands)
 Net Amount of Budgetary Resources Obligated for Undelivered Orders at
 the End of the Period                                                            $        11,283,832 $            9,481,104


Other Information

Category A apportionments distribute budgetary resources by fiscal quarter. Category B apportionments distribute budgetary
resources by activity, project, object or a combination of these categories. Exempt budgetary resources are not subject to
apportionment because they are not appropriated funds. Funding sources for exempt category come from sources outside the
federal government.

For FY 2010, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category A
includes $12.9 billion for direct obligations, $10.9 billion for reimbursable obligations, and $39.0 million for reimbursable
obligations exempt from apportionment. The USACE did not report any direct obligations exempt from apportionment. The
USACE has no apportionments under Category B. Undelivered orders presented in the Statement of Budgetary Resources
(SBR) include undelivered orders-unpaid for both direct and reimbursable funds.

For FY 2009, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category A
includes $12.4 billion for direct obligations, $10.6 billion for reimbursable obligations, and $58.9 million for reimbursable
obligations exempt from apportionment. The USACE did not report any direct obligations exempt from apportionment. The
USACE has no apportionments under Category B. Undelivered orders presented in the SBR include undelivered orders-
unpaid for both direct and reimbursable funds.

Intraentity transactions have not been eliminated because the SBR is presented as a combined statement.
   Permanent Indefinite Appropriations. The USACE receives receipts from hydraulic mining in California; leases of land
   acquired for flood control, navigation, and allied purposes; and licenses under the Federal Power Act for improvements of
   navigable water including maintenance and operation of dams. These funds are available for expenditure.

   There are no legal arrangements that affect the use of unobligated balances of budget authority.

   There are differences between amounts reported on the SBR and the SF 133, Report on Budget Execution (SF 133) for
   FY 2010 and FY 2009. Treasury account symbol 96X6094 (Advances from the District of Columbia) is not included in the
   SF 133. This money is not from appropriated funds and is not included in the Office of Management and Budget’s data for
   budget formulation. The USACE does include this appropriation in the SBR.

   The President’s Budget with actual figures for FY 2010 has not yet been published. The FY 2012 President’s Budget will
   include actual figures for FY 2010 reporting. The FY 2012 President’s Budget can be found at: http://www.whitehouse.gov/
   omb early in FY 2011. The following chart is a reconciliation of the FY 2011 President’s Budget actual figures for FY 2009 to
   FY 2009 SBR as required by the Office of Management and Budget Circular Circular No. A-136.

                                                       Department of Defense
                                            U.S. Army Corps of Engineers - Civil Works
                                   Reconciliation of 2009 Yearend SBR to 2011 President’s Budget
                                                          (Amounts in millions)
                            Budgetary      Obligations    Offsetting
                            Resources       Incurred       Receipts      Net Outlays
                            Line 23.90     Line 23.95     Line 02.99     Line 90.00           Explanation for reconciling differences
    SBR                      $40,568         $23,050           $583           $6,863
                                                                                      The SBR includes Treasury symbol
                                                                                      96X6094 for advances from the District
                                                                                      of Columbia for work on the Washington
                                                                                      Aqueduct. It is not included in the
    Reconciling                                                                       President’s budget since these are not
    Difference                     (70)            (59)                          (23) appropriated funds.
                                                                                      The SBR reduces net outlays by the
                                                                                      amount of distributed offsetting receipts.
    Reconciling                                                                       The President’s Budget Line Item 90.00
    Difference                                                                  583 does not.
                                                                                      General funds clearing accounts are
                                                                                      included as distributed offsetting receipts in
                                                                                      accordance with DFAS yearend guidance.
    Reconciling                                                                       It is not included in the President’s Budget
    Difference                                                   (64)                 amount.
                                                                                      The President’s Budget line 02.99 includes
                                                                                      total receipts and collections for the trust
                                                                                      funds. The SBR includes only USACE’s
                                                                                      distributed offsetting receipts to South
                                                                                      Dakota Terrestrial Wildlife per Treasury
                                                                                      Financial Manual, Federal Account Symbols
                                                                                      and Titles (FAST Book). Other trust fund
    Reconciling                                                                       receipts are included in the budgetary
    Difference                                                 1,334                  resources, line 23.90.
                                                                                      Per the FAST Book, receipt account 96R
                                                                                      5125 is not a distributed offsetting receipt
                                                                                      account and is not included in the SBR as a
    Reconciling                                                                       distributed offsetting receipt. It is included in
    Difference                                                     7                  the President’s Budget amount.
    Reconciling
    Difference                   (173)                                                 2009 Audit Adjustments
    Totals                    $40,325        $22,991         $1,860           $7,423
    President’s
    Budget                    $40,325        $22,991          $1,859          $7,424
    Difference                      0              0               (1)             1   Due to rounding.


58	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Note 18. 	Reconciliation of Net Cost of Operations (Proprietary) to Budget                                               59

As of September 30                                                                     2010              2009




                                                                                                                         Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
(Amounts in thousands)
Resources Used to Finance Activities:
Budgetary Resources Obligated:
Obligations incurred                                                               $     23,787,144 $    23,049,926
   Less: Spending authority from offsetting collections and recoveries                 (10,967,269)      (11,705,957)
Obligations net of offsetting collections and recoveries                           $    12,819,875 $     11,343,969
   Less: Offsetting receipts                                                              (708,601)         (583,187)
Net obligations                                                                    $     12,111,274 $    10,760,782
Other Resources:
Donations and forfeitures of property                                                          708             2,825
Transfers in/out without reimbursement                                                    595,618            109,331
Imputed financing from costs absorbed by others                                           335,531            275,785
Net other resources used to finance activities                                     $       931,857   $       387,941
Total resources used to finance activities                                         $    13,043,131   $    11,148,723
Resources Used to Finance Items Not Part of the Net Cost of Operations:
Change in budgetary resources obligated for goods, services and benefits
ordered but not yet provided:
   Undelivered Orders                                                              $    (1,802,728) $     (1,745,577)
   Unfilled Customer Orders                                                                (130,179)      (1,659,428)
Resources that fund expenses recognized in prior periods                                      (773)           (23,819)
Budgetary offsetting collections and receipts that do not affect Net Cost of
   Operations                                                                             178,791             131,123
Resources that finance the acquisition of assets                                          (59,128)           (15,501)
Other resources or adjustments to net obligated resources that do not affect Net
Cost of Operations:
   Less: Trust or Special Fund Receipts Related to exchange in the Entity’s
       Budget                                                                                   0            (10,000)
   Other                                                                                 (596,327)           (112,155)
Total Resources Used to Finance Items Not Part of the Net Cost of Operations       $   (2,410,344) $     (3,435,357)
Total Resources Used to Finance the Net Cost of Operations                         $   10,632,787 $        7,713,366
    As of September 30                                                                            2010                2009
    (Amounts in thousands)
    Components of the Net Cost of Operations That Will Not Require or
    Generate Resources in the Current Period:
    Components Requiring or Generating Resources in Future Period:
    Increase in environmental and disposal liability                                       $           3,330    $         52,680
    Increase in exchange revenue receivable from the public                                          180,129              26,794
    Other                                                                                             10,037               2,635
    Total components of Net Cost of Operations that will Require or Generate
    Resources in future periods                                                            $        193,496     $          82,109
    Components not Requiring or Generating Resources:
    Depreciation and amortization                                                          $         436,140    $        736,832
    Revaluation of assets or liabilities                                                              57,278              38,311
    Other
       Cost of Goods Sold                                                                                371                 698
       Operating Material and Supplies Used                                                               69                 268
       Cost Capitalization Offset                                                                 (1,328,535)           (874,336)
       Other                                                                                          79,626             (135,518)
    Total Components of Net Cost of Operations that will not Require or Generate
    Resources                                                                              $        (755,051) $          (233,745)
    Total components of Net Cost of Operations That Will Not Require or Generate
    Resources in the Current Period                                                        $        (561,555) $          (151,636)
    Net Cost of Operations                                                                 $      10,071,232 $          7,561,730


   Other Information

   The following note schedule lines are presented as combined instead of consolidated due to intraentity budgetary transactions
   not being eliminated:

        n	 Obligations Incurred
        n	 Spending Authority from Offsetting Collections and Recoveries
        n	 Obligations Net of Offsetting Collections and Recoveries
        n	 Offsetting Receipts
        n	 Net Obligations
        n	 Undelivered Orders
        n	 Unfilled Customer Orders

   Composition of Other Resources – Other, and Other Resources or Adjustments to Net Obligated Resources that do not Affect
   Net Cost of Operations: Other – The FY 2010 and FY 2009 amounts include the net amount of assets transferred between the
   USACE and other government agencies.

   Composition of Components Requiring or Generating Resources in Future Period, Other - The FY 2010 amounts include the
   current year increase to unfunded Judgment Fund Contract Disputes Act (CDA) claims, Federal Employees’ Compensation
   (FECA) liability and the FECA actuarial liability. The FY 2009 amount includes current year Judgment Fund CDA claims and
   current year unfunded expense for the FECA liability.

   Composition of Components not Requiring or Generating Resources, Other – The FY 2010 and FY 2009 amounts include
   bad debt expense and cost capitalization offset expense. The cost capitalization offset account provides a mechanism to offset


60	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
all direct costs in the expense accounts when those costs are subsequently capitalized into an in-process account. Current year                  61
costs associated with nonfederal cost-share projects in the contributed fund and costs related to the acquisition of operating




                                                                                                                                                 Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
materials and supplies in the revolving fund are also recorded as other expenses not requiring budgetary resources. In FY 2010
and FY 2009, costs associated with fish mitigation studies in the general fund are also recorded as other expenses not requiring
budgetary resources.


Note 19. 	Earmarked Funds
                                                                                           2010
 BALANCE SHEET
 As of September 30                                                Contributed
 (Amounts in thousands)                       Special Funds          Funds             Trust Funds       Eliminations       Consolidated Total
 ASSETS
 Fund balance with Treasury               $        70,502      $      954,923      $        98,615   $                  0   $     1,124,040
 Investments                                            0                   0            5,741,313                                5,741,313
 Accounts and Interest Receivable                   4,970                 566             429,023             (20,300)              414,259
 Other Assets                                       1,856              37,952             716,070                                   755,878
 Total Assets                             $        77,328      $      993,441      $    6,985,021    $        (20,300) $         8,035,490
 LIABILITIES and NET POSITION
 Accounts Payable and Other
   Liabilities
 Other Liabilities                        $          1,255     $      980,797      $       27,225    $        (20,788) $          988,489
 Total Liabilities                        $          1,255     $      980,797      $       27,225    $        (20,788) $          988,489
 Cumulative Results of Operations                   76,073             12,644           6,957,796          2,145,754             9,192,267
 Total Liabilities and Net Position       $         77,328     $      993,441      $    6,985,021    $     2,124,966 $          10,180,756

 STATEMENT OF NET COST
 Program Costs                            $         15,795 $          412,450 $           116,393 $          (33,543) $             511,095
 Less Earned Revenue                                (3,060)          (349,563)                  (1)              163               (352,461)
 Net Program Costs                        $         12,735     $       62,887      $      116,392    $       (33,380) $            158,634
 Net Cost of Operations                   $         12,735     $       62,887      $      116,392    $       (33,380) $            158,634

 STATEMENT OF CHANGES IN NET
 POSITION
 Net Position Beginning of the Period     $          11,061    $         85,794    $    6,637,926    $     1,000,387        $     7,735,168
 Net Cost of Operations                   $         12,735     $        62,887     $      116,392    $        (33,380)      $      158,634
 Budgetary Financing Sources                        77,726                    0           639,424             897,958             1,615,108
 Other Financing Sources                                  21           (10,263)          (203,162)            214,029                   625
 Change in Net Position                   $          65,012    $        (73,150)   $      319,870    $      1,145,367       $    1,457,099
 Net Position End of Period               $         76,073     $        12,644     $    6,957,796    $      2,145,754       $    9,192,267
                                                                                               2009
    BALANCE SHEET
    As of September 30                                                  Contributed
    (Amounts in thousands)                         Special Funds          Funds             Trust Funds       Eliminations       Consolidated Total
    ASSETS
    Fund balance with Treasury                 $          9,179     $      850,191      $       74,694 $                      0 $       934,064
    Investments                                               0                  0           5,228,046                        0       5,228,046
    Accounts and Interest Receivable                     1,977               1,081             496,869                       (2)        499,925
    Other Assets                                           938              40,166             908,490                        0         949,594
    Total Assets                               $        12,094      $      891,438      $    6,708,099 $                     (2) $     7,611,629
    LIABILITIES and NET POSITION
    Accounts Payable and Other
      Liabilities
    Other Liabilities                          $          1,031     $      805,644      $        70,176 $            (168) $            876,683
    Total Liabilities                          $          1,031     $      805,644      $        70,176 $            (168) $            876,683
    Cumulative Results of Operations                     11,063             85,794            6,637,924         1,000,386              7,735,167
    Total Liabilities and Net Position         $        12,094      $      891,438      $     6,708,100 $       1,000,218 $            8,611,850

    STATEMENT OF NET COST
    Program Costs                              $         19,593     $      390,060 $            109,887 $          (34,069) $           485,471
    Less Earned Revenue                                       0           (439,502)                   0                124             (439,378)
    Net Program Costs                          $         19,593     $       (49,442) $          109,887 $          (33,945) $            46,093
    Net Cost of Operations                     $         19,593     $       (49,442) $          109,887 $          (33,945) $            46,093

    STATEMENT OF CHANGES IN NET
    POSITION
    Net Position Beginning of the Period       $         12,030     $        45,106     $    6,250,265    $              0      $     6,307,401
    Net Cost of Operations                     $         19,593     $       (49,442)    $      109,887    $        (33,945)     $         46,093
    Budgetary Financing Sources                          18,724                    0            551,534           966,442             1,536,700
    Other Financing Sources                                 (100)             (8,754)          (53,986)                  0               (62,840)
    Change in Net Position                     $           (969)    $        40,688     $       387,661   $     1,000,387       $      1,427,767
    Net Position End of Period                 $          11,061    $        85,794     $    6,637,926    $     1,000,387       $      7,735,168


   Other Disclosures

   All intragovernmental activity within the USACE between earmarked and nonearmarked funds has been eliminated from the
   consolidated total column which causes assets to not equal liabilities and net position.

   The USACE earmarked funds are presented by fund type vice individual fund due to the volume of individual earmarked
   funds based on the Statement of Federal Financial Accounting Standard No. 27, “Identifying and Reporting Earmarked
   Funds.”

   There has been no change in legislation during or subsequent to the reporting periods and before the issuance of the financial
   statements that significantly changes the purpose of these funds or that redirects a material portion of the accumulated
   balances.

   The USACE has the following earmarked funds as of September 30, 2010, and 2009:




62	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Special Funds                                                                                                                       63




                                                                                                                                    Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Special Recreation Use Fees. Title 16 United States Code (USC) 4601-6a granted the USACE the authority to charge and
collect fair and equitable Special Recreation Use Fees at recreation facilities and campgrounds located at lakes or reservoirs
under the jurisdiction of the USACE. Types of allowable fees include daily use fees, admission fees, recreational fees, annual
pass fees, and other permit type fees. The revenue is received from the public and is an inflow of resources to the government.
The purpose of the fund is to maintain and operate the recreation and camping facilities.

Hydraulic Mining in California. Title 33 USC 683 states that those operating hydraulic mines through which debris flows
in part or in whole to a body restrained by a dam or other work erected by the California Debris Commission shall pay a
tax as determined by the Federal Energy Regulatory Commission (FERC). The tax is paid annually on a date fixed by the
FERC. Taxes imposed under this code are collected and then expended under the supervision of the USACE and the direction
of the Department of the Army. The revenue is received from the public and is an inflow of resources to the government.
The purpose of the fund is for repayment of funds advanced by the federal government or other agencies for construction,
restraining works, settling reservoirs, and maintenance.

Payments to States. Flood Control Act of 1954, Title 33 USC 701c-3, established that 75 percent of all funds received and
deposited from the leasing of lands acquired by the U.S. for flood control, navigation and allied purposes, including the
development of hydroelectric power, shall be returned to the state in which the property is located. The USACE collects lease
receipts into a receipt account. The revenue is received from the public and is an inflow of resources to the government. Funds
are appropriated in the amount of 75 percent of the receipts in the following fiscal year and disbursed to the states. The funds
may be expended by the states for the benefit of public schools and public roads of the county, or counties, in which such
property is situated, or for defraying any of the expense of county government.

Maintenance and Operation of Dams and Other Improvements of Navigable Waters. Title 16 USC 803f, and 810,
states that whenever a reservoir or other improvement is constructed by the U.S., the Federal Power Commission, now
known as FERC, shall assess charges against any licensee directly benefited, and any amount so assessed shall be paid into
the U.S. Treasury. The title further states that all charges arising from other licenses, except those charges established by the
FERC for purpose of administrative reimbursement, shall be paid to the U.S. Treasury from which specific allocations will
be made. From the specific allocations 50 percent of charges from all other licenses is reserved and appropriated as a special
fund in the U.S. Treasury. This special fund is to be expended under the direction of the Secretary of the Army (Secretary)
for the maintenance and operation of dams and other navigation structures that are owned by the U.S. or for construction,
maintenance, or operation of headwater or other improvements of U.S. navigable waters. The revenue is received from the
public and is an inflow of resources to the government.

Fund for Nonfederal Use of Disposal Facilities (for dredged material). This fund was established by Title 33 USC 2326a.
This title provides that the Secretary may permit the use of any dredged-material disposal facility under the jurisdiction of, or
managed by, the Secretary by a nonfederal interest if the Secretary determines that such use will not reduce the availability of
the facility for project purposes. The Secretary may impose fees to recover capital, operation, and maintenance costs associated
with such use. Any monies received through collection of fees under this law shall be available to the Secretary and shall be
used by the Secretary, for the operation and maintenance of the disposal facility from which the fees were collected. The
revenue is received from the public and is an inflow of resources to the government.

Special funds utilize both receipt and expenditure accounts in accounting for and reporting the fund.

Contributed Funds

Rivers and Harbors Contributed and Advance Funds. These funds are authorized by Title 33 USC 701h, 702f, and 703,
which establishes funding to construct, improve, and maintain levees, water outlets, flood control, debris removal, rectification
   and enlargement of river channels, etc., in the course of flood control and river/harbor maintenance. Whenever any state or
   political subdivision thereof shall offer to advance funds for a flood control project duly adopted and authorized by law, the
   Secretary may at his discretion, receive such funds and expend the same in the immediate prosecution of such work. Advances
   are from the public and are inflows of resources to the government. This fund utilizes both receipt and expenditure accounts in
   accounting for and reporting the fund.

   Trust Funds

   South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund. This fund was established by Public Law (P.L.)
   105-277, Sec. 603. Yearly transfers are made from the general fund of the U.S. Treasury to the trust fund for investment
   purposes. Investment activity is managed by the U.S. Treasury, Bureau of the Public Debt (BPD). The fund has reached the
   aggregate amount of $108.0 million. Withdrawals can be made by the USACE for payment to the state of South Dakota. The
   state shall use the payments to fund the annually scheduled work for wildlife habitat restoration. This fund utilizes both receipt
   and expenditure accounts in accounting for and reporting the fund.

   Coastal Wetlands Restoration Trust Fund. This fund is authorized by Title 16 USC 3951-3956. This title grants parallel
   authority to the USACE, along with the Environmental Protection Agency and the Fish and Wildlife Service to work with
   the state of Louisiana to develop, review, evaluate, and approve a plan that is proposed to achieve a goal of “no net loss of
   wetlands” in coastal Louisiana. The USACE is also responsible for allocating funds among the named task force members.
   Federal contributions are established at 75 percent of project costs or 85 percent if the state has an approved Coastal Wetlands
   Conservation Plan. This fund is an expenditure account and receives funding transfers from the Sport Fish Restoration and
   Boating Trust Fund.

   Inland Waterways Trust Fund. This fund is authorized by Title 26 USC 9506. The title made the Inland Waterways Trust
   Fund (IWTF) available for USACE expenditures for navigation, construction, and rehabilitation projects on inland waterways.
   Collections into the trust fund are from excise taxes on fuel used in commercial transportation on inland waterways.
   The revenue is received from the public and is an inflow of resources to the government. The collections are invested and
   investment activity is managed by the BPD. This fund utilizes receipt and expenditure accounts in accounting for and
   reporting the fund.

   Harbor Maintenance Trust Fund. This fund was established by Title XIV of the Water Resources Development Act (the Act)
   of 1986, P.L. 99-662. The Harbor Maintenance Trust Fund (HMTF) is authorized to recover 100 percent of USACE-eligible
   operation and maintenance (O&M) expenditures for the maintenance of commercial navigation in harbors and channels
   as well as 100 percent of the O&M cost of St. Lawrence Seaway by the St. Lawrence Seaway Development Corporation. As
   provided in the Act, amounts in HMTF shall be available for making expenditures to carry out the functions specified in the
   Act and for the payment of all expenses of administration incurred by the U.S. Treasury, the USACE, and the Department
   of Commerce. Collections are made into the trust fund from fees assessed on port use associated with imports, imported
   merchandise admitted into a foreign trade zone, passengers, and movements of cargo between domestic ports. The collections
   are invested and investment activity is managed by the BPD. The revenue is received from the public and is an inflow of
   resources to the government. This fund utilizes receipt and expenditure accounts in accounting for and reporting the fund.


   Note 20.	Leases
   The USACE has no assets under capital lease.




64	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
Operating Leases - Lessee                                                                                                        65




                                                                                                                                 Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
As of September 30, 2010, the USACE has various noncancellable operating leases mainly for office space and storage facilities
maintained by many of the USACE Districts. Many of these leases contain clauses to reflect inflation and renewal options. The
following schedule shows future General Services Administration lease payments due:

                              (Amounts in thousands)
                              Fiscal Year                                  Building Space
                                 2011                                    $           64,073
                                 2012                                                65,995
                                 2013                                                 67,975
                                 2014                                                 70,014
                                 2015                                                 72,115
                                 After 5 Years                                      394,352
                              Total Future Lease Payments                $          734,524


Operating Leases - Lessor

The USACE also has a small volume of operating leases for mostly easements. The following schedule provides future projected
receipts:

                               (Amounts in thousands)
                               Fiscal Year                                    Land Rights
                                  2011                                    $             7,234
                                  2012                                                  6,859
                                  2013                                                  5,622
                                  2014                                                  4,748
                                  2015                                                  3,914
                                  After 5 Years                                         3,279
                               Total Future Lease Payments                $            31,656
   FY 2010 Required Supplementary Stewardship Information
        Nonfederal Physical Property Yearly Investments in Physical Property Owned by State and Local Governments
                            for the Current and Four Preceding Fiscal Years ended September 30
                                                          (Amounts in millions)
                                  (a)                       (b)           (c)            (d)         (e)          (f)
               Categories                                 FY 2010       FY 2009        FY 2008     FY 2007     FY 2006
               Transferred Assets:
               1. National Defense Mission Related            $2,104          $1,198      $1,135      $1,028      $1,229
               Funded Assets:
               2. National Defense Mission Related                $0              $0          $0          $0          $0
               Totals                                         $2,104          $1,198      $1,135      $1,028      $1,229



   The U.S. Army Corps of Engineers (USACE) incurs investments in nonfederal physical property for the purchase,
   construction, or major renovation of physical property owned by state and local governments, including major additions,
   alterations, and replacements, the purchases of major equipment, and the purchases or improvement of other nonfederal assets.
   In addition, the USACE has the authority to enter into cost-sharing agreements with nonfederal sponsors which are governed
   under numerous water resources development acts starting with the Act of 1992. Nonfederal physical property investments
   include federally-owned physical property transferred to state and local governments.

   Under numerous authorities, the USACE provides design, build and construction services/management for the missions of
   commercial navigation, flood and storm damage reduction, hydropower, regulatory, environmental, recreation and water
   supply.

   Investment values included in this report are based on nonfederal physical property expenditures.




66	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
FY 2010 Required Supplementary Information (RSI)                                                                                 67




                                                                                                                                 Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                          General Property, Plant and Equipment
                                       Real Property Deferred Maintenance Amounts
                                                 As of 30 September 2010


Deferred maintenance is classified as not performed when it should have been or as scheduled but delayed to a future period.
Deferred maintenance for FY 2010 is $2.6 billion for other structures. Operations managers identify the operation and
maintenance (O&M) needs at each project in the civil works inventory. The O&M needs are based on inspections of project
features, engineering analyses and historical experience.


Heritage Asset Condition
Condition of heritage assets is based on factors such as quality of design and construction, location, adequacy of maintenance
performed, and continued usefulness. The USACE’s heritage assets overall condition is deemed to be fair.
    US Army Corps of Engineers - Civil Works

    Statement of Disaggregated Budgetary Resources
                                                                                                                          Borrowing                              Contributed
    As of September 30, 2010 and 2009 (Amounts in thousands)       FUSRAP       Special Funds       Trust Funds           Authority       Revolving Funds          Funds

    Budgetary Resources:
    Unobligated balance, brought forward, October 1            $      8,319     $     3,394     $       166,385       $               4   $     295,520      $      489,443
    Recoveries of prior year unpaid obligations                           0               0                   0                       0               0                   0
    Budget authority
          Appropriation                                             134,000           64,171             847,181                      0                0             529,810
          Spending authority from offsetting
          collections
               Earned
                   Collected                                         12,942                0                      0            2,616           8,412,991               1,464
                   Change in receivables from
                   Federal sources                                     2,174               0                      0                   0            6,491                   (2)
               Change in unfilled customer orders
                   Advance received                                         0              0                      0                   0             1,152                339
                   Without advance from Federal
                   sources                                            2,397                0                   0                   0              (6,017)                 (60)
               Expenditure transfers from trust funds                     0                0                   0                   0                   0                    0
          Subtotal                                             $    151,513     $     64,171    $        847,181      $        2,616      $    8,414,617     $        531,551
    Nonexpenditure transfers, net, actual                                 0         (46,939)             84,567                    0                   0                    0
    Temporarily not available pursuant to Public Law                      0                0                   0                   0                   0                    0
    Permanently not available                                             0                0                   0              (2,440)                  0                    0
    Total Budgetary Resources                                  $    159,832     $    20,626     $     1,098,133       $          180      $    8,710,137     $     1,020,994

    Status of Budgetary Resources:
    Obligations incurred:
          Direct                                               $    129,574     $    12,301     $      942,682        $            0      $            0     $       515,833
          Reimbursable                                                17,412              0                  0                   176           8,608,412                 958
          Subtotal                                             $    146,986     $    12,301     $      942,682        $          176      $    8,608,412     $        516,791
    Unobligated balance:
          Apportioned                                                12,846           8,325             155,451                    0                    0                  0
          Exempt from apportionment                                       0               0                   0                    4              101,725            504,203
          Subtotal                                             $     12,846     $     8,325     $       155,451       $            4      $       101,725    $       504,203
    Unobligated balance not available                                     0               0                   0                    0                    0                  0
    Total status of budgetary resources                        $    159,832     $    20,626     $     1,098,133       $          180      $     8,710,137    $     1,020,994
    Change in Obligated Balance:
    Obligated balance, net
          Unpaid obligations, brought forward,
          October 1                                            $     67,635     $     5,784     $       351,898       $               0   $    1,420,378     $       360,821
          Less: Uncollected customer payments
          from Federal sources, brought forward,
          October 1                                                   (5,068)              0                  0                     0           (163,892)                 (73)
          Total unpaid obligated balance                       $     62,567     $      5,784    $       351,898       $             0     $    1,256,486     $       360,748
    Obligations incurred net                                        146,986           12,301           942,682                    176          8,608,412              516,791
    Less: Gross outlays                                             (132,459)        (16,484)          (997,954)                 (176)        (8,424,862)           (426,880)
    Less: Recoveries of prior year unpaid
    obligations, actual                                                     0              0                      0                   0                0                       0
    Change in uncollected customer payments from
    Federal sources                                                  (4,572)               0                      0                   0            (473)                  62
    Obligated balance, net, end of period
          Unpaid obligations                                         82,162            1,602           296,626                        0        1,603,928             450,731
          Less: Uncollected customer payments
          from Federal sources                                       (9,639)               0                      0                   0         (164,365)                 (11)
          Total, unpaid obligated balance, net, end
          of period                                            $     72,523     $      1,602    $      296,626        $               0   $    1,439,563     $       450,720
    Net Outlays:
          Gross outlays                                        $    132,459     $    16,484     $       997,954       $           176     $    8,424,862     $      426,880
          Less: Offsetting collections                              (12,942)              0                   0                (2,616)         (8,414,144)             (1,803)
          Less: Distributed Offsetting receipts                           0         (56,338)                  0       0             0     0             0           (529,810)
          Net Outlays                                          $    119,517     $   (39,854)    $       997,954       $       (2,440)     $        10,718    $      (104,733)


    The accompanying notes are an integral part of these financial statements.




68	 Fiscal Year 2010 United States Army Annual Civil Works Financial Report
US Army Corps of Engineers - Civil Works                                                                                                                                       69

Statement of Disaggregated Budgetary Resources




                                                                                                                                                                               Civil Works Fund | Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
As of September 30, 2010 and 2009 (Amounts in thousands)       General Funds           FUSRAP AARA         General AARA           Combined 2010           Combined 2009

Budgetary Resources:
Unobligated balance, brought forward, October 1            $       14,075,857      $         40,765    $       2,438,374      $       17,518,061      $        11,692,717
Recoveries of prior year unpaid obligations                            40,133                     0                    0                  40,133                 862,852
Budget authority
      Appropriation                                                 4,620,176                     0                       0            6,195,338               17,012,826
      Spending authority from offsetting
      collections
           Earned
               Collected                                            1,649,252                     0              122,609              10,201,874               11,886,071
               Change in receivables from
               Federal sources                                         (6,943)                    0                2,703                    4,423                (246,081)
           Change in unfilled customer orders
               Advance received                                        37,680                     0               23,006                  62,177                  259,171
               Without advance from Federal
               sources                                                 (191,119)                  0                2,442                (192,357)              (1,918,599)
           Expenditure transfers from trust funds                      851,019                    0                    0                  851,019                862,543
      Subtotal                                             $       6,960,065       $              0    $         150,760      $       17,122,474      $       27,855,931
Nonexpenditure transfers, net, actual                                 145,967                  (500)                 500                 183,595                  170,543
Temporarily not available pursuant to Public Law                              0                   0                    0                        0                  (10,000)
Permanently not available                                               (5,527)                   0                    0                   (7,967)                   (4,056)
Total Budgetary Resources                                  $       21,216,495      $         40,265    $       2,589,634      $      34,856,296       $       40,567,987

Status of Budgetary Resources:
Obligations incurred:
      Direct                                               $        9,101,328      $         39,933    $       2,182,983      $      12,924,634       $       12,428,730
      Reimbursable                                                  1,991,819                     0              243,733             10,862,510                10,621,196
      Subtotal                                             $       11,093,147      $         39,933    $       2,426,716      $       23,787,144      $       23,049,926
Unobligated balance:
      Apportioned                                                  10,061,476                   332              162,918              10,401,348              16,440,183
      Exempt from apportionment                                        61,852                     0                    0                  667,784              1,077,729
      Subtotal                                             $       10,123,328      $            332    $         162,918      $        11,069,132     $        17,517,912
Unobligated balance not available                                          20                     0                    0                       20     $               149
Total status of budgetary resources                        $       21,216,495      $         40,265    $       2,589,634      $      34,856,296       $       40,567,987
Change in Obligated Balance:
Obligated balance, net
      Unpaid obligations, brought forward,
      October 1                                            $       6,908,462       $         58,801    $       1,952,354      $        11,126,133     $        9,392,894
      Less: Uncollected customer payments
      from Federal sources, brought forward,
      October 1                                                    (2,862,166)                    0               (222,140)           (3,253,339)               (5,418,018)
      Total unpaid obligated balance                       $       4,046,296       $         58,801    $        1,730,214     $        7,872,794      $          3,974,876
Obligations incurred net                                           11,093,147                39,933             2,426,716              23,787,144             23,049,926
Less: Gross outlays                                                 (9,621,126)             (35,504)          (2,083,094)            (21,738,539)             (20,453,837)
Less: Recoveries of prior year unpaid
obligations, actual                                                    (40,133)                   0                       0               (40,133)              (862,850)
Change in uncollected customer payments from
Federal sources                                                      198,062                      0                (5,145)               187,934                2,164,679
Obligated balance, net, end of period
      Unpaid obligations                                   $       8,340,350                 63,230            2,295,976              13,134,605                11,126,133
      Less: Uncollected customer payments
      from Federal sources                                         (2,664,104)                    0             (227,286)             (3,065,405)              (3,253,339)
      Total, unpaid obligated balance, net, end
      of period                                            $       5,676,246       $         63,230    $       2,068,690      $      10,069,200       $         7,872,794
Net Outlays:
      Gross outlays                                                  9,621,126     $         35,504    $       2,083,094      $       21,738,539      $       20,453,837
      Less: Offsetting collections                                  (2,537,951)                   0              (145,615)             (11,115,071)           (13,007,784)
      Less: Distributed Offsetting receipts                $          (122,453)                   0    0                0                (708,601)               (583,187)
      Net Outlays                                          $         6,960,722     $         35,504    $        1,937,479     $        9,914,867      $        6,862,866


The accompanying notes are an integral part of these financial statements.
   We are interested in your feedback regarding the content of this report.
Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:


                      Department of the Army
             Office of the Deputy Assistant Secretary of the Army
                  (Financial Management and Comptroller)

                    Office of the Financial Reporting Directorate
                         Room 3A312, 109 Army Pentagon
                            Washington, DC 20310-0109

   Additional copies of this report can be obtained by sending a written request to
                      the e-mail or mailing address listed above.

  You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
                          The Soldier’s Creed
                           I am an American Soldier.
                    I am a Warrior and a member of a team.
        I serve the people of the United States and live the Army Values.

                       I will always place the mission first.
                              I will never accept defeat.
                                    I will never quit.
                        I will never leave a fallen comrade.

                 I am disciplined, physically and mentally tough,
                    trained and proficient in my warrior tasks
                      and drills. I always maintain my arms,
                            my equipment and myself.

                     I am an expert and I am a professional.

                      I stand ready to deploy, engage, and
                    destroy the enemies of the United States
                           of America in close combat.

                       I am a guardian of freedom and the
                              American way of life.

                            I am an American Soldier.




United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil
                                                                                                  2

Matters of Emphasis
Based on the pervasive internal control weaknesses related to USACE’s financial reporting
process and the extensive effort needed to audit these basic financial statements, we have
concerns whether USACE will be able to sustain the level of effort necessary to continue the
annual audit process. USACE has not fully implemented an appropriate organizational and
internal control structure that is necessary for effective financial management and oversight.
Although USACE financial management oversight exists, weaknesses in the entity-level control
structure continue to affect USACE’s financial reporting process. Because of USACE’s weak
entity-wide controls, USACE management adjusted material financial reporting errors during
annual audits rather than having adequate internal controls in place to prevent and detect these
errors in the normal course of business. More importantly, without first correcting these material
internal control weaknesses, USACE may not produce accurate, complete, and timely financial
information for the financial statements, which could ultimately result in significant
misstatements. When USACE corrects the internal control weaknesses, the audit will become
more efficient and USACE management will have more reliable financial information readily
available for decision-making.

In addition, USACE Management Discussion and Analysis (MD&A) does not include a section
for systems, controls, and legal compliance as required by SFFAS No. 15. However, the
MD&A, Required Supplementary Information, and Required Supplementary Stewardship
Information were not required in the basic financial statements but were required as
supplementary information by the Federal Accounting Standards Advisory Board and OMB
Circular No. A-136. Expressing an opinion on the MD&A, Required Supplementary
Information, and Required Supplementary Stewardship Information was not an objective of the
audit. Accordingly, we do not express an opinion on this information.

Summary of Internal Control
In planning our work, we considered USACE’s internal control over financial reporting and
compliance with applicable laws and regulations. We did this to determine our procedures for
auditing the financial statements and to comply with OMB guidance, but our purpose was not to
express an opinion on internal control. Accordingly, we do not express an opinion on internal
control over financial reporting and compliance with applicable laws and regulations.

Our internal control procedures identified material weaknesses and significant deficiencies in
USACE’s internal controls. A material weakness is a deficiency, or combination of deficiencies,
in internal control such that there is a reasonable possibility that a material misstatement of the
entity’s financial statements will not be prevented, or detected and corrected on a timely basis.
We identified the following material weaknesses, all of which existed in prior years:

              General Property, Plant, and Equipment

              Controls Over Customer Agreements

              Entity-Wide Internal Controls

              Financial Reporting
                                                                                                    3

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control, that
is less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We identified the following significant deficiencies, one of which, Financial
Management Systems, existed in prior years:

              Payroll

              Financial Management Systems

Internal control work that we conducted as part of our prior audits would not necessarily disclose
all significant deficiencies. The Attachment offers additional details on the material weaknesses
and significant deficiencies.

Summary of Compliance With Laws and Regulations
As part of obtaining reasonable assurance about whether the USACE FY 2010 and FY 2009
Basic Financial Statements were free of material misstatement, we performed tests for
compliance with certain provisions of laws and regulations, including those specified in OMB
Bulletin No. 07-04. We did not determine, however, whether USACE complied with all
applicable laws and regulations related to financial reporting. Providing an opinion on
compliance with laws and regulations was not an objective of our audit, and accordingly, we do
not express such an opinion. However, we noted instances of noncompliance with the following
laws and regulations:

              Federal Managers’ Financial Integrity Act (FMFIA) of 1982

              Federal Financial Management Improvement Act (FFMIA) of 1996

              South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund

See the Attachment for additional details on compliance with laws and regulations.

Management’s Responsibilities
Management is responsible for:

          preparing the financial statements in conformity with U.S. GAAP;

          establishing, maintaining, and assessing internal control to provide reasonable
           assurance that the broad control objectives of the FMFIA are met; and

          complying with applicable laws and regulations.
               Report on Internal Control and
            Compliance With Laws and Regulations
Internal Control
Management is responsible for implementing and maintaining effective internal control and for
providing reasonable assurance that accounting data are accumulated, recorded, and reported
properly; that the requirements of applicable laws and regulations are met; and that assets are
safeguarded against misappropriation and abuse. Because of USACE management’s assertion
that the FY 2010 and FY 2009 Basic Financial Statements were free of material error, we
performed auditing procedures to determine whether the financial statements were presented
fairly in all material respects. In planning our audit, we considered USACE internal control over
financial reporting and compliance with laws and regulations to determine our procedures for
auditing the financial statements and to comply with Office of Management and Budget (OMB)
guidance. The purpose of our audit was not to express an opinion on internal control or
compliance with laws and regulations. Accordingly, we do not express an opinion. However,
we identified material weaknesses and significant deficiencies over financial reporting.

We conducted our audit in accordance with U.S. GAAP, the Government Accountability Office
“Government Auditing Standards,” and the requirements of OMB Bulletin No. 07-04. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation and assessing the
internal control over financial reporting and compliance with laws and regulations. We believe
that our audit provides a reasonable basis for our opinion.

Our testing of USACE internal controls included those procedures in OMB Bulletin No. 07-04
designed to determine whether an agency’s internal control provides reasonable, but not
absolute, assurance that:

          transactions are properly recorded, processed, and summarized to permit the
           preparation of the financial statements in accordance with U.S. GAAP, and to
           safeguard assets against loss from unauthorized acquisition, use, or disposition; and

          transactions that could have a direct and material effect on the consolidated and
           combined financial statements are executed in accordance with laws governing the
           use of budget authority and with laws, regulations, and Government-wide policies
           identified in Appendix E of OMB Bulletin No. 07-04.

We did not test all internal controls relevant to the operating objectives broadly defined by
FMFIA. Rather, we focused our internal control testing on controls over financial reporting and
compliance with laws and regulations.
                                                                                     Attachment
                                                                                      Page 1of 9
Material Weaknesses
During the audit, we identified General Property, Plant, and Equipment, Controls over Customer
Agreements, Entity-wide Controls, and Financial Reporting as material weaknesses. USACE
management reported these material weaknesses in its FY 2010 Annual Statement of Assurance
on Management Controls.

General Property, Plant, and Equipment
The General Property, Plant, and Equipment (PP&E) line item is the single largest category of
assets in the USACE FY 2010 Basic Financial Statements. Its four main components are
Construction-in-Progress (CIP), Buildings and Other Structures (B&S), Land, and Equipment.
Effective control and accountability over General PP&E assets are, therefore, a key USACE
management imperative. During our FY 2010 audit, we noted that USACE had made some
improvements in implementing controls over General PP&E. However, USACE needs to make
further improvements to increase the potential that material misstatements are prevented or
detected, and corrected on a timely basis. Our audit found material weaknesses with USACE
management review of CIP and General PP&E.

Construction-in-Progress Quarterly Reviews
The USACE CIP quarterly review process was ineffective. USACE required each district to
perform CIP quarterly reviews to verify that costs in the CIP account were part of active,
ongoing projects, and that these costs were not identified with any asset previously placed in
service or did not represent a completed asset that should have been placed in service. The
reviews should also have identified expenses that USACE incorrectly classified as CIP.
However, our audit identified that 14 of the 35 projects reviewed were incorrectly reported as
CIP. Eight of those projects should have been transferred to General PP&E, two should have
been expensed, and four should have been reported in the Internal-Use Software in Development
account. Our audit also identified that 70 of 185 completed assets were not timely transferred
from CIP to General PP&E. Some of these assets were completed in prior years, but USACE
failed to transfer them to in-service accounts until FY 2010.

Supervisory Review over CIP and General PP&E Transactions
The USACE review process did not identify erroneous CIP and General PP&E transactions
entered into the Corps of Engineers Financial Management System (CEFMS). We identified
many transactions that were incorrectly capitalized or expensed. This occurred partly because
communications between USACE operations personnel and resource management personnel
were inconsistent and did not always occur timely. We identified the following examples of CIP
and General PP&E transactions errors.

      Costs incorrectly included in CIP:
       o Routine repairs and maintenance.
       o Costs related to a cost share project owned by the non-Federal sponsor.
       o Costs related to construction of an asset on behalf of another Federal entity when
          ownership will be transferred to the other entity upon completion.
      Costs incorrectly included in General PP&E (placed in service):
                                                                                   Attachment
                                                                                   Page 2 of 9
       o An asset that was never completely constructed or used.
       o A condemned building.
       o Equipment that was fully depreciated and had been taken out of service.
      Cost incorrectly expensed:
       o Depreciation as a result of assets with incorrect useful life
       o Labor for a construction asset.

The above misstatements resulted in more than $500.0 million in adjustments. Classification
errors between CIP and General PP&E also caused an understatement of prior year and an
overstatement in current year depreciation expenses. Incorrect capitalization of operations and
maintenance costs resulted in an overstatement of assets and an understatement of expenses.
Overall, inconsistent communication between the operations and resource management, and
insufficient supervisory review, will keep USACE from preventing or detecting a misstatement
in the financial statements.

Controls Over Customer Agreements
USACE financial management oversight of key complex financial transactions is ineffective.
Our FY 2009 audit identified weaknesses related to the accounting over cost share agreements
and long-term agreements. In FY 2010, USACE made some improvements, but weaknesses
related to cost share revenue and cost share funding continued to exist.

Cost Share Revenue
USACE did not follow the matching concept when recognizing revenue for the cost share
agreements in accordance with U.S. GAAP. Cost share agreements are agreements with a third
party that is expected to cover a portion of the total project costs in cash; work-in-kind (WIK); or
Land, Easements, Rights-of-Way, Relocation, and Disposal Areas. WIK and Land, Easements,
Rights-of-Way, Relocation, and Disposal Areas are elements that comprise the estimated total
cost of the project and are given consideration when initially determining cash needed in advance
from the third party. USACE first considered WIK amounts rather than recognizing a
proportional share of revenue. Accounting for these transactions in this manner results in
inadequate full revenue recognition to match actual costs incurred by USACE.

Cost Share Funding
USACE improperly recognized appropriated funds received from promissory notes (notes
receivable) related to cost share agreements as an advance of funds from the sponsor. Because
the funding for the projects was provided through an appropriation, the non-Federal sponsor was
permitted to defer its share of the costs, $1.5 billion, through a financing arrangement. The
financing arrangement established a deferred payment schedule with payments to begin when the
projects were completed. Because of the financing agreement, a promissory note exists which
requires the sponsor to re-pay the $1.5 billion over 30 years. USACE incorrectly recorded an
advance of $362.8 million from the sponsor to fund these projects. USACE has since recorded a
correcting entry to adjust deferred revenue for $362.8 million.



                                                                                       Attachment
                                                                                       Page 3 of 9
In addition, for 4 of the 47 long-term agreements we reviewed, USACE used repayment and long
term billing schedules incorrectly. This resulted in immaterial overstatements of the principle by
$1.0 million and the accrued interest by $116,000.

Entity-Wide Internal Control
Internal control has five integrated components: Control Environment, Risk Assessment,
Monitoring, Information and Communication, and Control Activities. Taken together, they
provide management with reasonable assurance that USACE achieves its objectives related to
effectiveness and efficiency of operations, compliance with applicable laws and regulations, and
reliability of financial reporting. During the FY 2010 audit, we continued to find deficiencies in
four of the five components of USACE internal controls. USACE has not fully implemented an
appropriate organizational and internal control structure that is necessary for effective financial
management and oversight. Although USACE financial management oversight exists,
weaknesses in the entity-level control structure continued to affect USACE financial
management as noted below.

Control Environment
USACE has not fully implemented a financial management structure in which U.S. GAAP is
effectively applied and policies and procedures are comprehensive and complete. The USACE
financial management structure did not have appropriate and clear internal reporting
relationships. Our audit also identified gaps in management’s implementation of accounting
standards in several process areas such as recoveries of prior year obligations and customer
agreements.

Risk Assessment
USACE has not fully implemented an ongoing, entity-wide risk assessment process, as outlined
in the FMFIA compliance paragraph.

Monitoring
USACE has not implemented entity-level monitoring controls. Specifically, USACE did not
have:
      a process to monitor and control timely completion of the action plan and update the
       status of milestones;
    an effective process for financial reporting of costs related to Long-Term Water Storage
       Agreements;
      an effective process for maintaining supporting documentation for WIK and Land,
       Easements, Rights-of-Way, Relocation, and Disposal Areas related to cost share
       agreements and the management review of cost share agreements;
    an effective process for the timely completion and adequacy of management reviews of
       PP&E;
    an adequate oversight plan for reviewing adjustments made in the financial reporting
       process; and

                                                                                       Attachment
                                                                                       Page 4 of 9
    an adequate oversight plan for the processes prescribed by and reporting related to
       FMFIA and the Federal Financial Management Improvement Act (FFMIA).
Information and Communication
USACE has not developed or fully implemented adequate information systems controls and
communication relevant to financial reporting as evidenced by the weaknesses noted in
USACE’s information technology area.

Because of USACE’s weak entity-wide controls, USACE management adjusted material
financial reporting errors during annual audits rather than having adequate internal controls in
place to prevent and detect these errors in the normal course of business. More importantly,
USACE may not produce accurate, complete, and timely financial information for the financial
statements, which could ultimately result in significant misstatements.

Financial Reporting
USACE has a complex financial reporting process that includes summarizing accounting
transactions from 60 CEFMS databases. The accounting transactions data are further
summarized and compiled into the Defense Departmental Reporting System (DDRS), which
generates the USACE financial statements. Our audit identified internal control deficiencies
with the preparation, review, and approval of journal vouchers in CEFMS and DDRS. We also
identified internal control deficiencies related to USACE budgetary and accounting policies.

Preparation and Related Review and Approval of Journal Vouchers
During the FY 2010 audit, we noted internal control deficiencies with the USACE’s CEFMS and
DDRS journal vouchers. Specifically, USACE had internal control deficiencies related to the
completeness, existence, accuracy, presentation, and rights and obligations of journal vouchers.
USACE did not have proper documentation to support manual CEFMS journal vouchers. Our
audit noted instances where journal vouchers were mathematically inaccurate, not recorded
properly, and not properly reviewed and approved. As of July 2010, USACE changed the
policy for processing CEFMS journal vouchers and this condition has been corrected.

USACE also did not have effective internal controls over trading partner reconciliations in
DDRS. USACE did not identify the causes of unreconciled variances between trading partner
activity loaded into DDRS and the amounts represented in the DDRS trial balance for Federal
expenses. Instead, USACE eliminated these variances by recording “unsupported” journal
voucher reclassifying amounts between Federal expenses and non-Federal expenses to reconcile
the data and complete the financial statement process. DDRS requires that the trial balance and
the trading partner agree in order to complete the financial statement process. USACE financial
statements could be materially misstated if these transactions were entered into DDRS and the
activity was the result of erroneous transactions and records outside of USACE.

Budgetary Accounting
USACE management did not have policies and procedures in place to record recoveries in a
correct and timely manner and ensure all recoveries were properly supported with adequate
documentation. In addition, CEFMS is not configured to accurately record line item funding
                                                                                     Attachment
                                                                                     Page 5 of 9
shifts on, administrative changes to, and project management transfer obligations recorded in
prior fiscal years. As a result, USACE management incorrectly accounted for recoveries of prior
year obligations and recorded an adjustment for approximately $900.0 million to correct the
Statement of Budgetary Resources.

Accounting Policies
During our FY 2010 audit, we noted internal control deficiencies in USACE accounting policies
and procedures related to leases, recording transactions in accordance with the United States
Standard General Ledger (USSGL), and identifying inventory in Operating Materials and
Supplies (OM&S).
Leases. USACE did not have sufficient controls over accounting for and reporting leases.
Specifically, USACE calculated its future minimum operating lease payments as an amount
proportional to the number of Civil Works operating leases to total USACE leases. USACE did
not present future minimum lease payments for actual operating leases. Because of USACE’s
method of calculating future operating lease payments, the detailed leases schedule by lease
agreement did not agree with the footnote.
USACE’s inadequate lease policies and procedures increased the risk that the leases footnote
may not be presented fairly in accordance with generally accepted accounting principles.

Recording transactions in accordance with USSGL. USACE classified costs for internal use
software (IUS) development for several systems as CIP instead of IUS-In-Development (General
Ledger Account Code 1832), resulting in a misclassification between IUS and CIP of
approximately $23.0 million. Additionally, USACE did not include Account Code 1832 in its
CEFMS account structure because of the infrequency of IUS-In-Development transactions.
USACE’s failure to record transactions in accordance with the USSGL may result in non-
compliance with FFMIA.
Operating Materials & Supplies (OM&S). USACE did not adequately identify inventory items
in accordance with SFFAS No. 3, “Accounting for Inventory and Related Property.” During our
audit, we identified items capitalized as OM&S for which management should have applied the
purchases method of accounting. These items should be expensed when purchased. By
including these items as OM&S, USACE overstated the OM&S balance as of September 30,
2010 for an unknown total amount. However, the OM&S account balance is not material to the
financial statements taken as a whole.
Trust Fund Classification
USACE inappropriately classified the South Dakota Terrestrial Wildlife Habitat Restoration
Fund (Restoration Fund) as an earmarked fund, instead of a nonentity asset, as defined by U.S.
GAAP. Specifically, USACE continued to inappropriately record the interest earned on the
investments held in the Restoration Fund as an entity asset. However, USACE did not have the
right (legal ownership) to use the interest earned on the investments held in the Restoration Fund
for USACE operations. Therefore, the interest earned on the investments held should have been
recorded as a nonentity asset.



                                                                                     Attachment
                                                                                     Page 6 of 9
Significant Deficiencies
During the FY 2010 audit, we identified the following two significant deficiencies, of which,
Financial Management Systems existed in prior years. USACE management did not and was not
required to report significant deficiencies in its FY 2010 Annual Statements of Assurance on
Management Controls.

Payroll Expense
USACE did not have effective internal controls in place related to the completeness and accuracy
of payroll expense. Specifically, USACE management did not require their Customer Service
Representatives to document and maintain confirmation of the record count of payroll files sent
to Defense Finance and Accounting Services (DFAS) on a bi-weekly basis. Instead, the
Customer Service Representatives verbally communicated the record count. Additionally, there
were no system edit checks or formal verification in place to ensure that the files DFAS’ Defense
Civilian Pay System (DCPS) received were complete. USACE’s inadequate data integrity of file
transmissions into DCPS could result in a misstatement in the payroll expense and disbursement
accounts.

Payroll Rates and Reconciliations for Payroll Disbursements
USACE did not always record the correct employee hourly pay rates in CEFMS and did not
perform reconciliations between the payroll amounts disbursed by DFAS to the payroll expense
amounts recorded in CEFMS. Erroneous payroll data could result in an understatement of
payroll expenses in CEFMS. Further, the inadequate reconciliations between DFAS
disbursement data and CEFMS payroll expense data increased the risk that USACE may not
timely detect and correct improper payroll transactions processed by DFAS.

Policies and Procedures to Review Service Organization Report
USACE management did not obtain, review, or evaluate the results of the DFAS DCPS
Statements on Auditing Standards (SAS) 70 report. The SAS 70 report provides an opinion on
the fairness of presentation, adequacy of design, and operating effectiveness of key controls that
are relevant to audits of DCPS’s user organization, like USACE, financial statements. USACE
lack of policies and procedures requiring the review of the SAS 70 report could result in USACE
management not identifying whether controls performed at the service organization are properly
designed and operating effectively to help prevent or detect material misstatements impacting
USACE financial statements.

Financial Management Systems
USACE financial management systems did not comply with DOD and National Institute of
Science and Technology (NIST) requirements. Weaknesses continued to exist in the policies and
procedures set up to govern security management, access controls, and configuration
management. During our FY 2010 audit, we noted that USACE management had not developed
and implemented an entity-wide Plan of Action and Milestones policy that incorporated all
required guidance. The ineffective policies and procedures in the Information Technology
environment increased the risk that management would continue to be unaware of significant
security weaknesses and, therefore would not resolve them in a timely manner. This could leave
                                                                                     Attachment
                                                                                     Page 7 of 9
USACE systems open to possible security vulnerabilities. In addition, management had not
placed in operation a process that required the review of a system-generated change log to ensure
all changes were authorized. USACE did not have any policies and procedures requiring system
administrators to monitor default, emergency, and database accounts. The inadequate policies
and procedures over configuration management and access controls increased the risk that
unauthorized, untested, and harmful system changes could occur, impeding the confidentiality,
integrity, and availability of CEFMS data.

Compliance With Laws and Regulations
Management is responsible for complying with existing laws and regulations related to financial
reporting. The purpose of our work to determine USACE’s compliance with selected provisions
of the applicable laws and regulations was to obtain reasonable assurance that USACE FY 2010
Basic Financial Statements were free from material misstatement. We performed tests for
compliance with provisions of laws and regulations that could have a direct and material effect
on the determination of financial statement amounts, as well as with other relevant laws and
regulations specified in OMB Bulletin No. 07-04. However, we did not determine whether
USACE complied with selected provisions of all applicable laws and regulations related to
financial reporting. Accordingly, we do not express an opinion on compliance with applicable
laws and regulations.

Our audit disclosed instances of noncompliance or other matters that Government Auditing
Standards and OMB Bulletin No. 07-04 required agencies to report.

Federal Manager’s Financial Integrity Act of 1982
USACE was not compliant with FMFIA. The USACE FMFIA process was not properly
designed, not operating effectively, and not sufficient to identify, evaluate, correct, and report all
material weaknesses. USACE had not fully implemented its internal control program to ensure
that the entity took appropriate action throughout the year to meet the objectives of FMFIA.

USACE asserts that internal controls meet the requirements of OMB Circular No. A-123,
Appendix A, for Internal Controls over Financial Reporting except for a material weakness
related to General PP&E based on its FY 2009 audit report. Although USACE performs its own
assessment to determine that financial systems are effective and operating in compliance with
FMFIA, its primary source of information for its assurance statement is our audit report. Thus,
the USACE FY 2010 Annual Statement of Assurance is not prepared in accordance with the
requirements of OMB Circular No. A-123 (the circular issued under the authority of FMFIA),
Appendix A, Section V, “Management’s Assurance Statement on Internal Control over Financial
Reporting.”

Further, USACE did not report within its Annual Statement of Assurance whether its accounting
system (financial management system) conformed to the principles, standards, and requirements
prescribed by the Government Accountability Office as required by FMFIA, Section 4. Lastly,
several of USACE’s cycle memoranda were incomplete or inaccurate and thus did not meet the
documentation requirements established by OMB Circular A-123, Appendix A, Section IV.

                                                                                         Attachment
                                                                                         Page 8 of 9
Federal Financial Management Improvement Act of 1996
USACE did not have sufficient controls to ensure compliance with all requirements of FFMIA.
Specifically, USACE did not have robust policies and procedures to ensure review and
appropriate implementation of applicable accounting guidance. In addition, USACE has not
resolved CEFMS programming limitations so that transactions can be recorded in accordance
with the USSGL requirements. Because USACE has not ensured appropriate implementation of
applicable accounting guidance and has not resolved the programming limitations that exist in
CEFMS, USACE personnel will need to continue manually recording significant DDRS journal
vouchers so that activity is properly recognized and in compliance with the USSGL.

Water Resources Development Act of 2007
USACE did not comply with Public Law 110-114, Title V, Section 5129, “Water Resources
Development Act of 2007,” which requires that the Restoration Fund include two asset accounts,
one for the principal of the investment and one for interest earned on the investment.
Management did not perform a thorough review of the guiding public law establishing the
Restoration Fund to properly present the related financial information in the USACE financial
statements. As a result, the disclosure of nonentity assets and liabilities is understated by
$20.5 million, the amount of interest associated with the Restoration Fund.

Audit Disclosures
We provided the recommendations for corrective actions for the USACE material weaknesses
and significant deficiencies, and noncompliance with laws and regulations addressed in this
report to USACE management in notices of findings and recommendations.




                                                                                  Attachment
                                                                                  Page 9 of 9
